a

No. 19A-108

(Jtt tife
J&npttmt (Eoittf a( fyt ptntfeit ^faf«s
Mark Thompson
(Petitioner,
v.

Board of Education City of Chicago, et al.
(J^espondetits.

On Petition for A Writ of Certiorari to the United States
Court ofAppeals for the Seventh Circuit

|Jefitinn for jk

at Certiorari

SEPARATE APPENDIX

B

SEPARATE APPENDIX B
Seventh Circuit Plaintiff-Appellant's Brief Separate Appendix A (Partial]*

Table of Contents
SECOND AMENDED COMPLAINT (“SAC”)

A19-A68

PLAINTIFF’S RESPONSE IN OPPOSITION TO BOARD DEFENDANTS’ MOTION TO
A69-A83
DISMISS PLAINTIFF’S SECOND AMENDED COMPLAINT
PETITIONER’S LETTER FROM CTU ATTORNEY ON THE STATUS OF THE ISBE
DISMISSAL HEARING DATED JUNE 12, 2017.............................................................

A97

LAKE COUNTY CIRCUIT COURT RULING DENYING MOTION TO AMEND TO ADD
A99
TITLE VII CLAIM DATED AUGUST 26, 2014
BOARD DEFENDANTS’ MOTION TO DISMISS PLAINTIFF’S SECOND AMENDED
A109-A123
COMPLAINT AND SUPPORTING MEMORANDUM
BOARD DEFENDANTS’ RESPONSE IN OPPOSITION TO PLAINTIFF’S MOTION FOR
LEAVE TO FILE SECOND AMENDED COMPLAINT
A206-A218
PLAINTIFF’S SECOND AMENDED MOTION FOR LEAVE OF COURT TO EXTEND
TIME TO FILE TITLE VII RIGHT TO SUE COUNT [13-L-879, Lake County]......A272-A273
BOARD DEFENDANTS’ RESPONSE TO PLAINTIFF’S SECOND AMENDED MOTION
FOR LEAVE OF COURT TO EXTEND TIME TO FILE TITLE VII RIGHT TO SUE COUNT
A274-A280
[13-L-879, Lake County]
MEMORANDUM AND ORDER [14 CH 15697, Cook County]

A310-A313

APPELLATE COURT ORDER [Illinois First Judicial District, 1-15-0689]

A322-A329

TRANSCRIPT OF PROCEEDINGS [14-CV-6340, March 23, 2017]

A330-A339

* For voluminous reasons, only relevant portions of petitioner's Separate Appendix A of his
Seventh Circuit Brief is included with the original bates numbering and are identified in the
body of the petition as having "App. B” prior to identifying the document’s bates number.

Csfs§s®!^JcAriO6i3049d3omeneBt «9^tfeffil©a/^®6|3^gqgef]S0rfl5i’^8aa^a343882

-*j^p

3/23/2017
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
CLERK

tqN
DISTRICT couRT

MARK THOMPSON,
Case No. 14-cv-6340
Plaintiff,
(consolidated With 14-cv-6838 and
14-cv-7575)

v.

Honorable John Z. Lee

BOARD OF EDUCATION CITY OF
CHICAGO, ILLINOIS STATE BOARD OF
EDUCATION, NORTHSHORE
UNIVERSITY HEALTH-SYSTEM,
HAROLD ARDELL, LINDA BROWN,
FORREST CLAYPOO! REGINALD

Magistrate Judge Jeffrey T. Gilbert

Jury Trial Requested

Evans, take- ma, tmm

F
FEB 26 2018

THOMAS KRIEGER, dan
NIELSEN, JAMES SULLIVAN,
CLAUDIA P. WELKE, and ALICIA
WINCKLER,
Defendants.
SECOND AMENDED COMPLAINT

NOW COMES the plaintiff Mark Thompson for his Second Amended Complaint against
Defendants Board of Education City of Chicago, Illinois State Board of Education, NorthShore
University TleaithSyStem, Harold Ardell, Linda Brown, Forrest Claypool, Reginald EvansCr^N^^D/
!

, Thomas Krieger, Dan Nielsen, James Sullivan, Claudia P. Welke, and
Alicia Winckier, states as follows:
Nature of Complaint
1.

i

This is an action related to retaliatory discharge under Title VII of the Ci vil Rights Act of

1966, as amended, 42 U.S.C. § 2000e el seq.; search and seizure and due process violations of
the Fourth and Fourteenth Amendments, respectfully, of the United States (“U.ST) Constitution,
and deprivation of rights under the Civil Rights Act of 1871, 42 U.S.C. § 1983; violations of the

I

A-019

Ca^aei4;£^@$®^(EWem@ntS® (EfljkFitefcQaftQft^agtf 87)P5it§#l0gfciI6tf 2883

Stored Communications Act. 18 U.S'.C. §§ 2701 and 2703 el seg,: employment related
discrimination and harassment on the basis of race, rel igion, and retaliation and related state
claims for Conspiracy, Intentional Infliction of Emotional Distress, Negligent Supervision,
2.

Thompson also brings forth federal actions in conj unction with state violations of the

Personnel Records Review Act (‘VPRRA”) under 820 11 .CCS 40/10(g) including Conspiracy to
Interfere with Civil Rights (Denial of Access and Obstruction of Justice) under 42 U.S.C. §§
1985 and 1986, and Concealment of Evidence under 42 U.S.C. § 1983; Intentional Infliction of
Emotional Distress, and Declaratory and Injunctive Relief related to mental health records and
unauthorized investigations conducted by the Board of Education City of Chicago and the
Illinois State Board of Education in violation Of both state and federal statutes.
3.

Thompson seeks backpay, compensatory damages, prejudgment interest, punitive damages,

medical: lees, dttofney^fees: and/or costs, reinstatement, rescindment of “Uhsatisfactory"’
evaluation, eorrected 0SI-file,, prospective relief employment-related expungement of files
related to retaliation and harassment, and anything else this- court deems appropriate.
4,

This court has jurisdiction over this controversy because it involves federal questions under

Title VII of the Civil Rights Act of 1966, as amended, 42 TJ.S.C. §2000e, et seg,., violations of
the U.S. Constitution under the Civil Rights Act of 1871,42 U.S.C. § 1983, 42 U.S.C. §§ 1985
and 1986, and violations of the Stored Communications Act, 18 U.S.C. §§ 2701 and 2703 et seg..
Civil Action for Deprivation of Rights, 42 U.S.C. §1983. the U.S. Constitution under 28 U.S.C.
§1331, Postal Matters under28 U.S.C, §1339, and Civil remedies under 18 U.S.C. §1964. This
court also has jurisdiction oyer common law claims under 28 U.S.C. §1367.
5.

Venue is proper under 28 U.S.C. § 1391 (b), because the facts that gave rise to the claims

occurred within the Northern District of Illinois.

2

A-020

Casffia3eU^^©®33«B9a(Etooenl«)tg9 SBddFifi&l20£l/26?&§tPaG|Jf 37DP5§flB)gWI6#S884

Parties
6.

Plaintiff Mark Thompson, an A frican American male, resides in Champaign County ,

Illinois, and was dismissed by the Board on August 16, 2013 related to an “Unsatisfactory"
evaluation after filing a federal lawsuit against the Board.
7.

Defendant Board of Education City of Chicago (“Board”), a body corporate and politic

organized under and existing pursuant to Article 34 of the Illinois School Code under 105 ILCS
5/34-2 and 105 ILCS 5/34-18, is headquartered at 1 N. Dearborn St. #950. Chicago, IL 60602.
8.

Defendant Illinois State Board of Education (“ISBE”), a body corporate and politic

Organized under and existing pursuing io the Illinois School Code 105 ILCS 1 et seq, and is
headquartered at 100N. Is1 Street, Springfield, IL 62777.
9.

Defendant Northshore University Health System is an Illinois not-for-profit corporation

with its headquarters located in Evanston, Cook County, Illinois.v
10. Defendant Harold Ardell (“ArdeH”) resides in Cook County, IL, and was employed as a
CPS law department investigator during the relevant time period.
11; Defendant Linda Brown (“Brown”) resides in Cook County, JL, and was employed by the
Board as the Office of the Inspector General (“OIG”) Director of In vestigations during the
relevant time period.
12. Defendant Forrest Ciaypoo! (“Claypool”), a Caucasian male, resides in Cook County,
Illinois and is currently employed by the Board as the Chief Executive Officer (“CEO”).
13. Defendant Reginald Evans (“Evans”) is believed to now be residing in Arizona and was
i

employed by Defendant Board as the Harlan principal during the relevant time period.
14. Defendant

me mother olT^tJS’ $OC-. resides in

IL.

3

A-021

Ca^geia;frto®3J©a<&fi0flem$msie EflddriteltPQafZQ^Pagrf 47>f=§t§fl0g®JI5&®885

15. Defendant

privately train, resides in " ‘

(“Jane Doe’'), a Caucasian female whom Thompson used to
Illinois, was,a recipient of mental health services during

the relevant time period in which she made false rape claims, and was never a Board student.
16, Defendant Thomas Krieger (“Krieger”) resides in Cook County and employed by Defendant
Board as the Director of the Office of Employee Relations during the relevant time period.
17. Defendant Dan Nielsen (■“Nielsen”), the Illinois State Board of Education Hearing Officer
. presiding over Thompson's “disiJHSsaf’ hearing, resides in Lake County, Illinois.
18. Defendant James Sullivan '(“Sullivan'”)-resides in Cook County and was employed by
Defendant Board as the Board’s Inspector General during the relevant time period.
19. Defendant Dr. Claudia P, Welkef Df. Welke”) resides' jh Lake County, Illinois and was, the
psychologist who knowingly reported false claims that.Thompson raped Jane Doe.
20. Defendant Al icia Winckler (‘AVinekler”) is a resident of Cook County and was employed as
the CPS Chief Talent Officer during the relevant time periods
Relevant Facts of the Complaint
21. Thompson is a United States Aftny veteran (1982-1989) who obtained doctoral (2006),
masters (2003). and bachelor (1.995) degrees in the field of education.
22. Unrelated to employment as a teacher, Thompson began private running lessons in 1992
with Christian-based rules for middle and high School aged youths.
23. From 2001 -2003 and 2005-2013. Thompson was employed as both a teacher and coach with
the Board, the last assignment with Harlan High School (“Harlan”),
24. During Thompson's entire employment career since 1982, Thompson had never received an
“Unsatisfactory” evaluation nor been disciplined until after he filed an Equal Opportunity
Employment Commission (“EEOC”) charge in 2010,

4

A-022

Cafi^ia;MK)83J©ffla><Kfra8m$m39 tQddrtteteQaOTkSjfPagsi §io£§t§£e0»]E&£S886

25. In 2010, shortly after Harlan head football coach Keith Brookshire (“Brookshire”) received
a .Physical Education (“PE”) certificate, both Evans and Brookshire were involved with a student
who made false claims against Thompson that he supplied “pills” to him.
26. The Elarlan student admitted in writing to another student that both Evans' and Brookshire
coerced him to make false claims against Thompson under the threat of expulsion from school,
27. After a Board investigation concluded, Thompson received an “Excellent”' rating- evaluation.
28. A Harlan teacher later admitted to Thompson that'Evans liad attempted to; recruit her to file
false sexual assault claims against Thompson during the same time period related tq fhe “pills ”
29. In July 20lG, Thompson filed a complaint against Evans and Brookshire to the Board;.
30. The next day, Evans reassigned Thompson to U.S. History, a position he wasmot highly
quafified Tor, prompting Thompson to file an EEOC charge against the Board for cutting both
male P.lTpositions at Harlan:
31. The Board retaliated hy suspend ing Thom pson for two weeks pay and; a Warning
Resolution, despite receivirig an “Excellent'5 evaluation after the “pill” irivestigation and was told
ho action would be taken against him,
32. In;May 2010,. the Board declined to investigate email related stalking claims made by jane
Doe to Deerfield Police Department (“PD”) counselor Stephanie Locascio,
33, Thompson filed his first lawsuit against the Board in December 2010, which was later
removed to federal court in March 2011 (1 l-cv-1712). claiming retaliation under Title VIE
34, In retaliation for Thompson filing the lawsuit against the Board in December 2010, the
Board solicited Jane Doe through mother

. to make false sexual assault claims against

1 The Board settled I l-cv-1 712 after Judge Guzman sided with Thompson when denying the Board's motion to
dismiss citing the Board had given Thompson an "Excellent'' evaluation rating after the “pill” investigation
concluded but only initiated disciplinary action after Thompson filed an EEOC charge in the next school year.

5

A-023

Caiea3ei4.44-0@33®3§Q)cE508eni0fltg^ ff6dd=iteJl20^2^§fPeg0 SX>P53£BBgfcifM©887

Thompson to her therapists to enable the Board to subpoena Thompson's AOL email account to
determine .if Thompson had stalked Jane Doe in May 2010.
35. After the Department of Child and Family Services (“DCFS") in Lake County refused to
investigate Jane Doe’s false rape claims in April 201.1 iDCjane g)oe. and the Board
solicited Jane Doe's psychologist Dr. Welke to file the false rape report to Cook County DCFS
and make it appear that Jane Doe was a student at Marian so DCFS would investigate at Harlan.
3,6. When a DCFS investigator attempted to notify Thompson of Jane Doe's rape claims in May
2011, Board officials obstructed the DCFS investigation by making false claims Thompson was
unavailable, stole and opened his sealed mail from DCFS, failed to contact police, failed to
remove Thompson from the classroom lor student safety reasonss;and never notified Thompson
of the rape claims, all in an effort to keep the allegations .secret, from Thompson.
37. Dr. Welke refused to call police as instructed by DCFS.
38. Therapists Locascio and Dr. Welke. and Deerfield US principal Andris Grifilth all voluntary
provided, the Board confidential information related to Jane Doe’s counselingor mental health
records as part of the Board's conspiracy to violate Thompson's rights under Title VIL
39. Jane Doe signed an authorization form to waive her mental health privileges in support of
the Board's conspiracy to violate Thompson's civil rights under Title VTl.
40. in June 2011, DCFS indicated Jane Doe's rape claims were “Unfounded."

i

41. In August 201 I. the Board subpoenaed Thompson's AOL email recordswithout his
knowledge or permission after soliciting Jane Doe- to make a false rape claim.
42, AOL provided the Board with subscriber information and based on information and belief
also attorney-client privileged emails from January' 2009 to December 2010.
43. Thompson's email account was unrelated to Jane Doe’s stalking claims.

6

A-024

$9

A7Wgg®B§l.©5T2888

44. On January 24,2012, Thompson became aware of the DCFS report made by Dr. Welke that
Jane Doe claimed she was raped as a 17 year old under the guise she was a student at Harlan.
45. In January 2012, the Board interviewed Thompson to obtain his March 2010 training
schedule so Jane Doe and /H0M

could use it to make a false police report so Thompson could

get arrested and then terminated in retaliation for filing .a federal lawsuit.
46. In February 2012 Jane Doe and /tf oM filed a false rape report to the Vernon Hills PD
based on a 6-8 pm Sun. Tue, Thu training schedule.Thompson had earlier provided to Brown.
47. However. Thompson had forgotten that in February 2010 he-ehanged Jane Doe’s outdoor
training schedule to daytime hours from approximately 4:30 pm to 6:30 pm at the latest.

i

48. Thompson provided the Vernpn'Hills PD indisputable 1-PASS Toll records that he never
practiced with Jane Ppeat night on, any day in SOl O and that these false rape claims were related

s

to his filing.a federal lawsuit against the Board;
49. Jane Doetold the Vernon Hills PD that her mother made her file the police report and never
wanted to follow through with charges against Thompson, which she didn’t.
50. The Lake County .State's Attorney declined to press any charges against Thompson.

i

51. On May 21,2Q12, Evans gave Thompson an “Unsatisfactory" evaluation prior to his second
post-observation conference held on May ‘23,2012, a Board-CTU contract violation.
52. After Thompson received his “Unsatisfactory" evaluation, the Board removed him from the
classroom in June 2012 and was suspended without pay on September 13, 2012.
53. The Board allowed Thompson to remain teaching students in the classroom for over a year ,
despite an ongoing rape investigation because the Board knew the rape claims were false and the
Board needed Thompson to have an “Unsatisfactory” evaluation as an alternative to terminate
his employment with the Board in retaliation for filing a 1106 Vll lawsuit.

7

A-025

Ca5^eaael4-:Mw33|©^QcK^%iflBWt9^ £&^&Sl2MWlt§ePagff 8yOf>&gfl&gfttfta£$889

54. In an effort to avoid a Board-CTU contract violation in violating Thompson’s Title VII
rights. Evans and Krieger falsely asserted in a grievance response dated January 7, 2013 that
Thompson’s second post-observation conference was held May 21,2012. not May 23,2012.
55. Evans had testified falsely that he inadvertently signed the wrong date May 23, 2012
despite Thompson’s evaluation form showing it was clearly printed out on “5/23/2012”.
56. Krieger unlaw,fully ordered Thompson’s “D$2” fife to alter the date of his second postobservation conference to May 24 , 2012 front May 23, 2012 so they could use the
“Unsatisfactory” evaluation ip terminate his employment for budgetary' reasons arid make it
appear the termination wasn’t pre-textual in retaliation for Thompson filing a Title. VU lawsuit.
57, Krieger iHtentionaily‘ignored, indisputable evidence of the evaluation^ printout date of
“5/23/2012” at the bottom of Thompson’s evaluation form that ascertains Evans testified falsely
that he sighed the Wrong date May 23,2012 instead of May 21,2012,
58. WheriTliompspn Was suspended without pay on September 13, 2012 relating to Jane Doe's
tape claims tovDCES, the Board refused to turn over any related investigatory records:
59, On February 14, 2013;. citing the Personnel Record Review Act, 8201LCS 40/10(g), federal
Judge John Tharp stated that investigative files are a part of an employee’s personnel file once
disciplinary action is taken and directed the Board and Sullivan to turn over all documents
related to the OIG investigative file related to Jane Doe’s rape claims.
60. On February 25, 2013, the Board and Sullivan provided Thompson investigative records
that were manipulated, altered, destroyed, or withheld in defiance of Judge Tharp's order.
61. The Board tailed to turn over an original audio recording of a May 25, 2011 interview made
at the Deerfield PDstation with Jane Doe; Ardell conspiring with Jane Doe am' jA&M to redo
the recording at Board headquarters to counter Thompson’s Title VI1 claims.

8

A-026

Ca^eageU44--06-^fi^(a»fiemer)tSte t64eFitel2MW^(P§gsi 973^^ag#]B#@890

62. investigative records were also manipulated to cover up retaliation to make it appear Jane
Doe told friends about her rape claims in June 2010 as opposed to it actually occurring in .May
2011 - after he filed a Title. VI1 lawsuit in December 2010,
63. The Board also manipulated responses from Griffith and Locascio against Thompson.
64. The Board also withheld documents related to their contacts with Locascio and Welke.
65, On March 12, 2013, Thompson notified the Board's then General Counsel James Bebley via
emaii of the Board's legal obligation to expunge any record-identifying or gathered as a result of
the DCFS report and included the “unfounded”'DCFS report as an attachment,
66. Thompson had pre viously propounded a. copy of the DCFS report imperson to two Board
attorneys at Board headquarters on October23, 2012,
67. On April .2-, 2013, despite the threat of .serious sanctions, by federal Judge Jeffrey Cole, the
Board and Sullivan again provided additional selective investigatory records; defiantly
Withholding portions o f Jane Doe's subpoenaed phone reeordSi notes, documents, and emails
related to all contacts with Dr, Welke, Locascio,--^’

, Jane Doe, and others,

68. On August 16, 2013, the Board used the illegally altered evaluation or DS2 file to terminate
Thompson’s employment in retaliation for Thompson's filing a Title VIi lawsuit.
69. In continued retaliation lor filing a Title VI] lawsuit, the Board filed dismissal charges
against Thompson in an ISBE “dismissal” hearing despite no longer employing him.
70. On December 9. 2013, the Board claimed the ISBE “dismissal” hearing was no longer a
dismissal hearing but rather a hearing to determine if lie would be entitled to his “back pay .’'
71, After Thompson filed a lawsuit in Lake County which was later dismissed on pleading
standards, the Board retaliated by conspiring with Jane Doe and ■

,o continue Jane Doe's

false rape claims against Thompson in the ISBE “back pay” hearing in Cook County.

9

A-027

Ca^^l4-:d'M®33^0©tEtoi(i0nlSiht99 &M&mi2dmm§<PkQ(S)&BlbP5§®BgiibilJ58(B891

72. During the “back pay” hearing. Jane Doe and

. provided false testimony against

Thompson related to his private training with Jane Doe in support of her false rape claims.
73. During the 1S.BE “back pay” hearing on December 9, 2013, Jane Doe stated on direct
examination by the Board’s attorney Ed Wong that the rape incident had a negative impact on
her emotional well-being and sought therapy with Locascio, Welke, and others.
!

74. Further, Jane Doe admitted at Thompson’s .“back pay” hearing that she previously lied to
Ardell about details relating to her rape claims after telling numerous different versions.
75. Jane Doe also admitted to additional contacts with the Board that the Board never disclosed

1

in defiance of court orders from federal j udges Tharp and Cole.

i

76. Jane Doe also had to change her “back pay” hearing testimony after an inspection of

t

Thompson’s car made ii qbvjous that fhe rape story She testified to was physically impossible.
77. Brown also admitted; that nd one from the Board contacted the Cook 'County-States;.Attorney
i

as required by the.Inspector General.statute before investigating Jane Doe’s rape claim'.
78. In April 2014, Thompson filed for a Right to Sue notice for the retaliatory discharge related
to his “Unsatisfactory” evaluation, receiving it on May 29. 2014, and also for the dismissal
hearing that continues as a “back pay” hearing after being terminated.
!

79. The EEOC issued Thompson another right to sue letter after the Board admitted in a U.S
Court of Appeals Seventh Circuit filing they are continuing the 1SBE “dismissal” hearing against
Thompson under Forrest Claypool to determine whether or not Thompson abused Jane Doe
when she was 17-vears old in March 2010, despite no longer employing him since 2013, despite
the DCFS report which the Board initiated their investigation was “unfounded,” despite Jane Doe
never being a student with the Board, and despite never contacting the Cook County States
Attorney as required by the Inspector General statute. (Exhibit A).

10

A-028

i|^2Q^2Q£^i)ag^t$7)£§i§<§lsg!ell6#:£892

COUNT I
RETALIATORY DISCHARGE IN VIOLATION OF 42 li.S.C. § 2000c et seq.
Against Defendant Board
80. Thompson restates paragraphs 1 through 79 as though fully stated herein.
81. The. Board had employed Thompson during the relevant time period.
82. During Thompson federal lawsuit against the Board. Thompson suffered additional adverse
retaliatory employment action when the Board refused to honor, his EE teaching preference and
issued an “Unsatisfactory’’ evaluation in conjunction with a subject he was unqualified to teaeh
in violation of the Board-CTU contract, failed to initiate the remediation process irt violation of
the Board-CTU contract, and then illegally altered the post-conference- date' prior to unlawfully
terminating his employment as a tenured teacher on August 16, 2013.
83, Tire Board acted wi.th malice and reckless disregard for Thompson’s rights When lhey
terminated his employment using falsely altered information related tqhis: evaluation ahd:aisp
after never Initiating any remediation due process as required by the Board-CTU contract.
84. Thompson was damaged when the Board terminated his employ ment after information
related to his evaluation was illegally and falsely altered, and also without remediation due
process, in retaliation for Thompson’s ongoing federal lawsuit f 1 -cv-1712.
85. Thompson has been damaged thereby and seeks reinstatement, back pay, interest.
compensatory damages, emotional distress damages, attorney fees and/or costs, and any other
relief the court deems appropriate.
COUNT II
VIOLATION OF 42 U.S.C. § 1983 - 14TH AMENDMENT TO U.S, CONSTITUTION
Against Defendants Evans and Krieger
86. Thompson restates paragraphs 1 through 79 as though fully stated herein.
87. The 14,h Amendment to the U.S. Constitution secures certain right's, such as the right to due
process for U.S. citizens.

n

A-029

88. 42 U.S.C, § 1983 provides a mechanism for the private enforcement of rights conferred by
the U.S. Constitution and federal statutes.
89. The Board employed Thompson as a tenured teacher until August 16, 2013, after Krieger
illegally ordered information related to his “Unsatisfactory” evaluation to be altered allowing the
Board to subsequently terminate his employment.
90, Thompson’s status as a tenured teacher was recognized as a property interest.
91. Evans and Krieger were acting under the color of law as employees; olfthe Board and were
both aware of Thompsoif s ongoing federal retaliation lawsuit-against the Board,
92. Evans entered Thompsoifs “Unsatisfactory” rating on May 21, 203 2 prior to his required
second post-observation conference- a violation of the Board-CTPtj Contract:
93. Evans correctly entered Thompson' s required second post-observation conference date as
May 23, 2012. two days after he entered Thompson's “Unsatisfactory'’ rating.
94. In December 2012, Evans proffered false testimony during Thompson’s grievance hearing
when lie claimed he signed the wrong Second post-obseiwatiori conference-date as May 23, 2012,
instead of May 21 s 2012.
95. No such post-observation conference occurred with Thompson on May 21,2012; the
printout date at the bottonr of Thompson Is evaluation reads “5/23/2012'’, not “5/21/2012”.
96. Further, one of the statements Evans wrote on Thompsoifs evaluation was related to a
manufactured incident outside his classroom on May 22, 2012 and would have been captured on
the school’s security cameras Thompson told the Board they were obligated to retain.
97- Despite Krieger having clear and undisputable evidence that Thompson’s second postobservation conference was May 23,2012, Krieger directed Thompson’s DS2 file to be altered
to falsely reflect his second post-observation date was May 21.2012,

12

A-030

W4d:it3st2Qa'2Q^j§)aaQDiST)!;^&®ge 1^^894

98. After Thompson's DS2 file was altered, the Board used the falsely altered “Unsatisfactory”
evaluation to unlawfully terminate his employment on August 16. 2013.
99. Evans’ deliberate false testimony regarding Thompson’s second post-observation evaluation
conference date violated his .due process rights under the 14Ih Amendment of the U.S.
Constitution when the Board subsequently used the illegally altered and false information to
terminate his employment.
100. Krieger’s deliberate suppression of favorable evidence towards Thompson, use of defendant
Evans’ false testimony, and subsequent order to falsify Thompson’s DS2 file related to his
second post-observation evaluation conference date, violated Thompson’s due process rights
under the 14lh Amendment of the U.Sv Constitution when the Board subseq uently used the
altered “Unsatisfactory” evaluation to terminate his: employment.
:! 01. Defendants acted with malice and feckless disregard-for Thompson’s rights related to
altering dates; on his evaluation sprite Board could terminate Thompson for budgetary reasons.
102. Thompson was damaged when the Board terminated his employment after illegally altering
and using the altered file related to Thompson’s evaluation to terminate his employ ment.
103. Thompson has been damaged thereby and seeks rescindment of the “Unsatisfactory”
evaluation, reinstatement, back pay, interest, compensatory and punitive damages, emotional
distress damages, hospital expenses, attorney fees and/or costs, and any other relief the court
deems appropriate including a corrected DS2 file.
count in
VIOLATION OF 42 U.S.C. § 1983 - 4TH AMENDMENT TO U.S. CONSTITUTION
Against Defendant Sullivan
104. Thompson restates paragraphs 1 through 79 as though fully stated herein.
105. The 4ih Amendment to the U.S. Constitution secures certain rights, such as unreasonable
searches and seizures.

13

A-031

Ca^eaa^l4--:d^<5©33|®3^acG>Kt^fe*rro^!it9^ £&^ifl)3fc®&/2$2i§eP&g®aS4OP&^0ge.l:IM43895

106.42 U.S.C. § 1983. provides a mechanism for the private enforcement of rights conferred by
the Constitution and federal statutes.
107. Sullivan Was employed by the Board and acting under the color of law.
108. In July 2011, while Thompson had an ongoing federal lawsuit against the Board. Sullivan
subpoenaed Thompson's privileged emails from his private AOL, Inc. (“AOL") account
including “Mark A. Thompson" and “drmarkthompson@aol.com”. the account he used to
communicate with his lederal lawsuit attorneys and CTU representatives between January' I .
2009 and .December 31, 2010, without Iris knowledge or consent. (Exhibit B)
109;. No complaint had ever been made in relation to Thompson's private email account
ineluding:“Mark A. Thompson" a,nd dfmarkthompson@aol.com.
1 TO.In a response tio;the Attorney'Registration, and Disciplinary Commission (“ARDC^ on
August 6; 2044, Sullivan admitted he subpoenaed Thompson's private emails based on
“Thompson's' prolific texting and email use that became known to- the ©10. .A - an excuse
completely unrelated to any criminal rape investigation, staged or not.
111. Sullivan had no legal authority or statutory right to subpoena and eavesdrop on Thompson's
privileged private AOL email communications to his federal lawsuit attorneys or CTU
representatives without his knowledge or prior consent, criminal investigation or not.
112. Thompson had a reasonable expectation of privacy concerning his confidential
communications with his federal lawsuit attorneys, CTU representatives, and any other
individual he privately communicated with against the Board or with anyone else.
1 13, AOL responded to Sullivan’s subpoena by divulging confidential information from
Thompson's private AOL account that was not publicly accessible.

14

A-032

Ca^aaei4^^M33M6(ffi<Di<^nti®nt9^ aBddFsDa)2aa/2®<3i§ePa§ffi[L5^P^(RB)gfelI5Sl53896

114. Thompson has been damaged and thereby seeks injunctive relief to fully disclose all
documents received from AOL and expunge all documents from his personnel file obtained from
Sullivan’s unlawful search and seizure of his private AOL email account and any other relief this
court finds appropriate including punitive damages.
COUNT IV
VIOLATION OF 18 U.S.C. § 2703 etseif. - STORED COMMUNICATIONS ACT
Against Defendants Board and Sullivan
115. Thompson restates paragraphs 1 through 79 as though fully stated herein.
116. in July 2011. while Thompson had an ongoing federal lawsuit, the Board and Sullivan
subpoenaed his privileged emails from his private A.0L account including “Mark. A. Thompson”
and “drmarkthompson@aol.eoni'\ the account be used to communicate with his federal lawsuit
attorneys and CT1J representatives between January 1,2009 and December 3 1, 2010. without his
knowledge or consent as required by the Stored Communications Act.
117. No complaint had ever been made in relation to TbompsohN private AOL email account
including “Mark A. Thompson” and “dnhafkthpniipson@api,ebfn”.
118. In a response to the ARDC on August 6. 2014; Sullivan admitted he subpoenaed
Thompson’s private emails based on his “prolific texting and email use that became known to
the OIG:..” - an excuse completely unrelated to any criminal rape investigation, staged or not.
119. Defendants had no legal authority or statutory right to subpoena and eavesdrop on
Thompson’s privileged private AOL email communications to his federal lawsuit attorneys or
CTU representatives without his knowledge or prior consent, criminal investigation or not.
120. Thompson had a reasonable expectation of privacy concerning his confidential
communications with his federal lawsuit attorneys, CTU representatives, and any other
individual lie privately communicated with against the Board or with anyone else.

15

A-033

Caieaaei4^44)®3M8®(daflJ0eni^tg§ S0dcFitel20a/2^3i§^a§©fl-67)^flog«:lI5S©897

121, AOL responded to defendants' subpoena by divulging confidential information from
Thompson's private: AOL account that was not publicly accessible.
122. Defendants willfully and intentionally exceeded their authorization to access- Thompson's
private AOL accounts to obtain electronic communications while in electronic storage.
123.Thompson-hasbeen damaged and thereby seeks punitive damages, costs, and injunctive
i

relief to fully disclose al l documents and expunge them from his personnel file obtained from
!

defendants' unlawful search; and seizure of his private AOL email account.
COUNT V
VIOLATION OF 18 U.S,C, § 2701 etseq. - STORED COMMUNICATIONS ACT
Against Defendants Board and Sullivan
124. Thompson, restates-.paragraphs 1 through 79 as though fully stated herein.
125. In July 2011 . while Thompson had an ongoing federal lawsuit, the lioard and: Sullivansubpoenaed Thompson's privileged,emails-from his private AOL account including “Mark A,
Thompson" and “drmajjcthompSfrn@aoT.eonf', the account he used to communicate with KiS
federal lawsuit attorneys and CTU representatives between January f 2009 and December 31,
2010, without his knowledge-or consent as required by the Stored Communications Act.
126. No complaint had ever been made in relation to Thompson's private AOL email account

!

including “Mark A. Thompson” and “drmarkthompson@aol.com'',
127, In a response to the ARDC on August 6. 2014. Sullivan admitted he subpoenaed
Thompson's private emails based on his “prolific texting and email use that became known to
the OIG..T - an excuse completely unrelated to any criminal rape investigation, staged or not.
128. Defendants had no legal authority or statutory right to subpoena and eavesdrop on
Thompson's privileged private AOL email communications to his federal lawsuit attorneys or
CTU representatives without his knowledge or prior consent, criminal investigation or not.

16

A-034

Cadealel4-:d#@&3SH

0EMjFBS2i29a/2®'3i§cF^©{LS7DP&geRBgfelIB#y3898

129. Thompson had a reasonable expectation of privacy concerning his confidential
communications with his federal lawsuit attorneys. CTU representatives, and any other
individuals be privately communicated with against the Board or with anyone else.
130. AOL responded to defendants’ subpoena by divulging confidential information from
Thompson’s private AOL account that was not publicly accessible.
131. Defendants willfully and intentionally exceeded their authorization to access Thompson's
private AOL accounts to obtain electronic communications while in electronic;storage.
132. Thompson has been damaged and thereby seeks punitive damages, costs, and injunctive
relief to fully- disc lose all documents and expunge them from his personnel file obtained from
defendants’unlawful search and seizure of his pri vate AOL email account.
COUNT VI
INTENTIONAL IN ELI CTION O F - EMOTION AL DISTRESS
AgainstDefendants Board (as respondeat superior), Evans, and Krieger
133.Thompson restates paragraphs 1 through 79 as though fully stated herein.
134. The Board had employed Thompson during the relevant time<period.
I-35. The Boardemployed Evans and Krieger during the relevant-time period.
136. Evans’s- willful and wanton false testimony related to altering files related to Thompson’s
‘■‘Unsatisfactory’* evaluation was extreme and outrageous intentional conduct, especially in light
of Thompson’s ongoing federal lawsuit against the Board and Evans.
137, Kricger’s willful and wanton ignorance of indisputable and favorable evidence on
Thompson’s -behalf and subsequent order to alter his DS2 file to falsely reflect when his second
post-observation conference date occurred was extreme and outrageous intentional conduct,
especially in light of Thompson's ongoing federal lawsuit against the Board and Evans.
138. The Board’s subsequent use of a knowingly falsified DS2 file to terminate Thompson’s
employment was extreme and outrageous intentional conduct.

17

A-035

CagEa§el4^v^30SB0lO(D>iMl8m6jht90 Eted=iCai2Qa/25?li§tP3i§®fL8*PSl(Rg^felDb#ffi899

139. The Board's illegal discharge of Thompson's employment caused him severe emotional
damage to include depression, stress, and loss of sleep from his inability to provide for himsel f
and his family.
140. The Board. Evans, and Krieger’s extreme and outrageous intentional conduct was
foreseeable that it would lead to cause Thompson to suffer humiliation, mental anguish, and
emotional and physical distress when the Board terminated his employment.
141 .Thompson has been damaged thereby and seeks rescindment of the ‘'Unsatisfactory”
evaluation, reinstatement, back pay. interest, compensatory damages.; emotional distress
damages, hospital expenses, attorney fees and/or costs, and any other relief the court deems
appropriate including a corrected DS2 file,
COUNT VII
NEGLIGENTSUPERVISION
Against Defcndanf Boanti
142, Thompson restates paragraphs-1 through 79 as though fully stated herein.
143. The Board had employed Thompson during the relevant time period,
144, The Board employed Krieger during the relevant time period.
145. After Thompson received an ^Unsatisfactory” evaluation in May 2012, Krieger ignored
indisputable and favorable evidence on Thompson's behal['before ordering a date on his
evaluation to be falsified in his D$2 file- in January 2013 to enable the Board to terminate his
employment in August 2013 was willful and wanton outrageous conduct, especially in light of
knowing Thompson had an ongoing federal lawsuit against defendant Board.
146. At all relevant times, the Board had a duty to train and supervise its employees, including
but not limited to ensuring its employees do not falsify personnel file documents for any reason,
especially when that employee has pending Title VI1 claims against them in federal court.

18

A-036

147, At a!) relevant limes, the Board failed to use reasonable case in its training and supervision
of their respective employees.
148. The Board’s conduct was willful and wanton.
149.The Board's breachofUs supervisor)' duty to their respective employees overseeing their
conduct in falsifying his DS2 file in discharging Thompson from his employment was the
proximate cause of the injuries and loss suffered by Thompson when he was unlawfully
terminated from his employment.
150, Thompson has been damaged thereby and seeks reinstatement, back pay, interest,
compensatory damages, emotional' distress damages, hospital expenses, attorney fees and/or
1

costs, and any other relief the court deems appropriate .including, a corrected DS2 file,

-muKrviii
] 51.

VIOLATIONS OF THE PERSONNEL RECORD REVIEW ACT (“PRRA”)
Against Defendants Board, Clavpool, and Winekler
Thompson incorporates paragraphs. 1-79 as though ful ly set forth here i n.

152.

On September 13.201:2, Thompson Was suspended, without .pay until August 16, 2013;

153.

in response to two federal court orders citing the PRRA on February 14 and April 2,

2013, the Board defiantly withheld investigator)' records relating to Thompson's suspension
without pay, and most of the records they provided were either manipulated or altered.
154,

On May 16, 2013, amongst a written request in person at Board headquarters, Thompson

emailed Winekler of his request to provide all investigatory records that were being withheld by
the Board pursuant to the PRRA.
!

155.

i

The Personnel Record Review Act pursuant to 820 J.LCS 40/10(g) states;

Sec. 10. Exceptions. The right of the employee or the employee's designated representative to inspect
his or her personnel records does not apply to:
(g) Investigatory or security records maintained by an employer to investigate criminal conduct by an
employee or other activity by the employee which could reasonably be expected to harm the
employer's property, operations, or business or could by the employee's activity cause the employer

19

A-037

Ca;ffia3eiA4W-i^Jffl3®ft<Eifl>oemefntgf0 S6ddzitel2QB/2^§(Pag®2ex)^(RsgeJCB^©90l

financial liability, unless and until the employer takes adverse, personnel action based an information
in such records, [emphasis added).
156.

Further, the Personnel Record Review Act pursuant to 820 ILCS 40/2 states:

Sec-. 2. Open Records. Every employer shall, upon an employee's request which the employer may
require be in writing on a form supplied by the employer, permit the employee to inspect any
personnel documents which are, have been or are intended to be used in determining that employee's
qualifications for employment, promotion, transfer, additional compensation, discharge or other
disciplinary action, except as provided in Section 10. The inspection right encompasses personnel
documents in the possession of a person, corporation, partnership, or other association having a
contractual agreement with the employer to keep or supply a personnel record. An employee may
request all or any part of his or her records, except as provided in Section 10. The employer shal l
grant at least 2 inspection requests by an employee in a calendar year when requests are made at
reasonable intervals, unless otherwise provided in a collective bargaining agreement. The employer
shall provide the employee with the inspection opportunity within 7 -working days after the employee
makes the request or if the employer can reasonably show that such deadline cannot be met, the
employer shall have an additional 7 days to comply. The inspection shall lake place at a location
reasonably near the employee's place of employment and during norma! working hours. The
employer may allow file inspection to take place at a time other than working hours or at a place other
than where the records are maintained if that time or placewould be more convenient for the
employee. Nothing in this Act.shall be construed as a requirement that an employee be permitted to
remove any part of such personnel records or any part of such records from the place on the
employer's premises where it is made available for inspection. Each employer shall retain the right to
protect his records .from loss, damage, or alteration to insure the integrity ofthe records. If ail ‘
employee:demonstrates that he or she is.unable to review his or her personnel record at the employing
unit, the employer shall, upon the employee's written request, mail a copy of the requested record to
the employee,
157,

irrespeetive of pending lawsuits or ongoing litigation, the Board and Wmekler were

required to comply within seven working days of Thompson’s PRRA request for all
investigatory records related to his suspension without pay and this defiance continues today.
158.

Further, 820 ILCS 40/13 states:

An employer shall not gather or keep a record identifying an employee as the subject of an
investigation by the Department of Children and Family Services if the investigation by the
Department of Children and Family Services resulted in an unfounded report as specified in the
Abused and Neglected Child Reporting Act.

An employee upon receiving written noti fication from the Department of Children and Family
Services that an investigation has resulted in an unfounded report shall take the written notification to
his or her employer and have any record of the investigation expunged from his or her employee
record.

20

A-038

C a^aiel 4-:4^H5600€89Q(ID(a(DOTti ®n Q® Sffi^dF U03l2B,0/2 $7 &§ d^M) © 23.7oPS|

159.

115 #13902

A May 3, 2011 DCFS report related to Jane Doe’s false sexual assault allegations against

Thompson had been indicated as “unfounded” on June 10, 2011.
160.

Thompson first learned of the existence of a DCFS investigation on January 24, 2012 and

recei ved a copy of the DCFS report in February 2012,
161,

Thompson notified the Board’s General Counsel James Bebley and several other Board

attorneys via email on March 12, 2013, which included the complete “unfounded” DCFS report
as an attachment, of the Board’s legal obligation to expunge any record identifying or gathered
as a result of the DCFS report,
162.

Thompson had previously propounded' a copy of the DCFS report in-person to two Board

attorneys at Board headquarters on October 23,2D12,,
163.

'However, the Board refused to expunge- any records despite propounding copies of the

“'unf ounded” DCFS investigation upon defendants and not ily ing them of their legal obligation to
expunge all records identi fying Thoropson as^the subject Of a DCFS investigation, including
records subsequently gathered from the DCFS report designated later as “unfounded.”
164.

In fact, the Board continued to investigate, gather, and maintain documents related to the

■•unfounded” DCFS report and later used them to suspend Thompson without pay pending the
conclusion of the ISBE “dismissal” hearing, still pending despite the fact the Board has no longer
employed Thompson since August 2013
165.

Further, the Board placed two hearsay statements from a student and mother without

Thompson’s knowledge that cast negatively on his teaching performance that the Board and
Winekler refuse to remove in violation of the Board-CTU contract.
166.

As required by the PR.RA irrespective of ongoing litigation or potential litigation.

Thompson filed a complaint with the Illinois Educational Labor Relations Board relating to the

21

A-039

above personnel file violations and obtained authorization to file judicial action to seek
correcting the violations. (Exhibit C).
167. The Board recently admitted in the U.S. Federal Court of Appeals 711' Circuit and other legal
filings that Claypool is will continue to pursue charges against Thompson in an ISBE “dismissal”
hearing related to the “unfounded" rape claims,, despite no longer employing Thompson.
168.

Wherefore; Thompson prays for the following relief:
a. Enter a declaratory judgment that defendants violated the Personnel Record
Review Actpursuant to 820 ILCS 40:
b. Enter an, order that directs the defendants to permanently expunge the.documents
associated with paragraphs 159 through 163 from Thompson’s personhel Tie.
c; Enter an Order that requires the Board to immediately turnover all investigatory,
records related to Ms suspensions Without pay,
d: Enter an order that, requires the Board and Winkler to expunge all records that
identi fies Thompson as the subject of a DCFS investigation,
e. Enter an order that requires defendants to expunge al l records subsequently
gathered from stealing, unsealing, and redisc losing Thompson's confidential
DCFS mail identifying him as the subject of a DCFS investigation.
f.

Enter an order that requires the Board and Winkler to expunge all records related
to and subsequently gathered upon knowledge the DCFS report was indicated as
“unfounded.”

g. Enter such other and further relief as deemed appropriate by the Court.
COUNT IX
CONSPIRACY TO INTERFERE WITH CIVIL RIGHTS IN VIOLATION OF 42 U.S.C. §
1985(2) - DENI AL OF ACCESS
Against Defendants Ardell, Brown, and Sullivan
22

A-040

Ca^aei44^^33^§©d2iW®fni^rit9^ ff6dcFi(te^20^/2^3i§tPaQ®eS7OP&^eRB)g^JDBg339O4

169.

Thompson incorporates paragraphs 1 -79 as though Fully set forth herein.

170.

On September 13, 2012. Thompson, who is African-American or “black,” was suspended

without pay.
171,

Arden and Brown traveled with others the year prior from Cook County to Lake Gounty

to obtain and manipulate false evidence in conspiracy against Thompson because he was black.
1 72.

Defendants took advantage of .lane Doe’s mental health issues tq conspirewith her to

make, false claims in various legal proceedings, investigative interviews, and counseling sessions,
that Thompson raped her in March 2010 when she was 17*year$-.old’becauseJte yt®s'“blaek,”
173:.

In defiant response to two federal court orders, the Board turned over only partial

iftyestigatory records from Ardell, Brown, and Sullivan, most of which were aftefed,
T74;.

Sullivan failed.to turn over at least 100 documents for Thompson’s “dismissaf’ or “back

pay” hearing;after being served with an administrative subpoena;
175.

At some point after February 2012, Ardell, Brown, and' Sullivan conspired with JancDoc

to re-record a previously recorded interview-in May 2011 of her rape claimk against Thompson:
176-

Under the color of law as employees of the Board, Ardell. Brown. Sullivan and others

entered into express and/or implied agreements, understandings, or meetings of the minds among
themselves for the purpose of impeding, hindering, obstructing, and defeating the due course of
justice in the state of Illinois, either directly or indirectly, with the intent to deny Thompson the
equal protection of the laws, by denying Thompson access to all exculpatory and accurate
investigatory records in their possession relating to his suspension without pay in retaliation for
filing a federal lawsuit because Thompson was black.
177.

Ardeli. Brown, and Sullivan’s actions evidenced a reckless and callous disregard fbr, arid

deliberate indifference to. Thompson’s constitutional rights because he was black and also part

23

A-041

of a broader scheme to eliminate black teachers from employment with the Board after a federal
desegregation consent decree was scrapped in September 2009 that had alTorded black teachers
additional' employment protections for nearly 30 years.
178.

Since the consent decree was vacated in 2009, the loss of black teachers in the CPS has

diminished significantly by about 30%from 2008 to 2015.
179.

The Board recently admitted that has been using a teacher screening process since 2012

to discriminate against black teachers from employment;
180.

Asa direct and foreseeable consequence of this conspiracy, Thompson was deprived of

his rights under the 14th Amendment of the ll.S. Constitution because he was black.
181.

As a direct and foreseeable eonsequenceisf these deprivations. Thompson has suffered

economic loss, physical harm. emotional trauma, loss of liberty, loss of privaeyr irreparable harm
to his reputation, and denial of the opportunity to seek redressthrough the court system against
potential defendants.
182.

Thompson seeks compensatory damages,:ptinilive damages, declaratory and injunctive

relief requiring defendants turn over to all'investigatory records, accurate, and anything else this
court deems appropriate.
COUNT X
CONSPIRACY TO INTERFERE WITH CIVIL RIGHTS IN VIOLATION OF 42 11.S.C. §
1985(3) - OBSTRUCTION OF JUSTICE
Against Defendants Ardcll, Brown, and Sullivan
183. Thompson incorporates paragraphs 1 -79 as though fully set forth herein.
184.

On September 13, 2012, Thompson, who is African-American or "black,”' was suspended

without, pay.
185.

Ardell and Brown traveled with others the year prior from Cook County to Lake County

to obtain and manipulate false evidence in conspiracy against Thompson because he was black.

24

A-042

fcQ4cFit^2Q&2^^<P29^§Io^8g0eJE&&39O6

186.

Defendants took advantage of lane- Doe’s mental health issues to conspire with her to

make false claims in various legal proceedings, investigative interviews, and counseling sessions;
that Thompson raped her in March 2010 when she was ! 7-years old because he was “black.”
187.

In defiant response to; two federal court orders, the Board turned over only partial

investigatory .records from Arde.ll, Brown;, and Sullivan, most of which were altered.
188.

Sullivan failed to turn over at least 100 documents for Thompson’s dismissal hearing

after being served with an administrative subpoena.
189.

At some point after February 2012, ArdelU Brown, and Sullivan conspired with Jane Doe

to re-record a previously recorded interview ;in May 2011 of her rape claims against Thompson:
190.-

Under the color of law as employees of the Board. Ardell, Brown, Sulli van and others

ohtered'.ihtp.-ekpjress-•and/oi:implied agreements, understandings, or meetings Of the minds among
themselves for the purpose of hnpeding, hindering, obstructing, arid defeating the due course of
justice in the Stale of niifiois, either difectly or indirectly, with the intent to deny Thompson the:
equal protection of the laws, By denying Thompson access to ail exculpatory and accurate
investigatory records in their possession relating to his suspension without pay in retaliation for
tiling a federal lawsuit because Thompson was black.
191.

Ardell, Brown, and Sullivan's actions evidenced a reckless and callous disregard fbr. and

deliberate indifference to, Thompson’s constitutional rights because he was black and also part
of a broader scheme to eliminate black teachers from employment with the Board after a federal
desegregation consent decree was scrapped in September 2009 that had afforded black teachers
additional employment protections for nearly 30 years.
192.

Since the consent decree was vacated in 2009, the loss of black teachers in the CPS has

diminished significantly by about 30% from 2008 to 2015.

25

A-043

CamS£.n:rl4~QW£mmmmmenim EQ4cf:ifeSl'2Q2t26^PaieDlSD^§T€0elEB®:@9O7

193.

As a direct and foreseeable consequence of this conspiracy; Thompson, was deprived of

his rights under the I4lh Amendment of the U.S. Constitution because he was black.
194.

The Board recently admitted that has been using a teacher screening process since 2012

to discriminate against black teachers from employment.
195.

As a direct and fbreseeable consequence of these deprivations. Thompson hassuffered

economic loss, physical harm, emotional trauma, loss of liberty, loss of privacy, irreparable harm
to. his reputation,-and.denial of the opportunity to seek redress through the court system against
potenti al de fen d an is.
196.

Thompson seeks compensatory damages, punitive damages,.declaratory and injunctive

relief requiring defendants turn over to Thompson all investigatbty records, accurate: and
anything else this court deems appropriate.
COUNT .XI
CONSPIRACY TO INTERFERE WITH CIVIL-RIGHTS IN VIOIWTION OF 42 U.S.C. £
1986 - DENIAL OF ACCESS AND OBSTRUCTION OF .lUSTlCE
A gainst Defendant Board
197, Thompson incorporates, paragraphs 1-79 and 169-196 as though fully set forth herein.
198.

The Board and its supervising employees acting tinder color of law had prior knowledge

of the wrongs conspired to be committed by Ardell, Brown, and Sullivan,
3 99.

The Board and its supervising employees acting under color of law had the power to

prevent or aid in preventing the commission of the- wrongs conspired to be committed by Ardell
Brown, and Sullivan, and which by reasonable diligence could have been prevented, but they
neglected and/or refused to exercise such power.
200.

As a direct and proximate result of the neglect and/or refusal oJThe Board and its

supervising employees acting under color of law to prevent or to aid in preventing the

26

A-044

Ga®a^l44i<W)Q3)aBffi0»flmiam8!mgQ flE0dcfzitef2Q®29^fPag6D257)f^'§®aigfeilCBSS9O8

commission of the wrongs conspired to be committed by Ardell, Brown, and Sullivan,
Thompson suffered injuries and damages as alleged herein..
201.

The Board and its supervising employees actions evidenced a reckless and callous

disregard for, and deliberate indifference tO; Thompson’s constitutional rights because he was
black..
202.

As a direct and foreseeable consequence of this conspiracy, TTiompson was deprived of

his rights under the 14lh Amendment to the U.S. Constitution because he was black.
203.

As a direct and foreseeable consequence of-these deprivations. Thompson has suffered

economic loss, physical hanrw emotional fraumai loss, of liberty,, loss,of privacy, irreparable harm
to His reputation, and denial of the opportunity fo .seek redress through the court system against
potential defendants.
204.

Thorapson seeks compensatory damages, punitive damages, declaratory'and injunctive

relief requiring defendants turrroverall investigatory records; and; anything else this court deems
appropriate;

205.

COUNT XIr
CONCEALMENT OE EVIDENCE IN VIOLATION OF 42 L.S.C, § 1983
Against Defendants Ardell, Board, Brown, and Sullivan
Thompson incorporates paragraphs 1 -79 as though fully set forth herein.

206.

On May 4, 2011. Board employees confiscated Thompson’s sealed confidential mail

from DCFS intended to afford him notice of Doe's sexual assault allegations and to request an
interview as part of a statutorily required investigation.
207.

On September 13, 2012, Thompson, an African American, was suspended without pay.

208.

In response to two federal court orders in February and April 2013, the Board defiantly

turned over only partial investigatory records in the possession of Ardell. Brown, and Sullivan,

27

A-045

Ca^aael4-sM4}890e30edQaM^^1^fflfiE<bFII)S©ffla/2«/49d:,2@©i2B7oP5gtf?a^elI53839O9

209.

Sullivan failed to turn over at least 100 documents in Thompson's dismissal hearing in

December 2013 as part of a personnel fi le record request.
210.

Brown and Jane Doe admitted under oath at .Thompson's dismissal hearing that there

were contacts during the investigation that were not accounted for in the investigative file the
Board provided in response to personnel file- requests and federal court orders.
211.

-Underthe color of law as employees of the Board, Ardell, Brown, Sullivan, and others

entered into express and/or implied agreements, understandings, or meetings of the minds among
themselves for the purpose of impeding, hindering, obstructing, and defeating the due course of
justice in the state of Illinois, either directly or indirectly, with the intent to deny Thompson the
equal protection of the laws, by denying- Thompson access to all exculpatory investigator)'
records in its possession relating to his suspensions without pay in.retaliation for filing a federal
lawsuit and because Thompson Was black.
212.

Ardell. Brown, and Sullivan’s actions evidenced a reckless and callous disregard for, and
.1

deliberate indifferehce to,: Thompson's constitutional rights because he was black and also part
of a broader schemeTo eliminate black teachers from employment with defendant Board after a
federal desegregation consent decree was scrapped in September 2009 that had afforded black
teachers additional employment protections for nearly 30 years.
213.

Since the consent decree was vacated in 2009, the loss of black teachers in the CPS has

diminished significantly by about 30% from 2008 to 2015.
214.

The Board recently admitted that has been using a teacher screening process since 2012

lo discriminate against black teachers from employment.
215.

The Board treated similarly situated white employees differently by not staging false rape

complaints against them, or subsequently withholding or falsifying exculpatory evidence to

28

A-046

CaSas£.l2l:-14*0^®«34ftaoTOinnein.t m £Q4cff:il^2(3ZI26?4fijg>S^o2SZ)fF®jg)ffi®0t[D5^391O

obstruct them from obtaining judicial relief, or obstructing them from defending themselves in an
employment discharge hearing including stealing their persona! mail.
216.

The Board treated similarly situated white employees differently who had DCFS

complaints filed against them by not engaging in conduct including stealing their sealed personal
mail to obstruct DCFS from conducting an investigation that Likely would have uncovered
evidence that the Board was involved in staging the false rape allegations.
217.

The Board treated employees who had not filed lawsuits against .them;by not staging false

rape complaints against them, or subsequently withholding or falsifying exculpatory evidence to
obstruct them from obtaining judicial relief, or obstructing them from defending,tJtemselves ip an
employment discharge hearing including stealing their personal mail.
218,,

As a direct and foreseeable consequence of this conspiracy. Thompson was; deprived of

his fights'under the i-4* Amendment to the 1J .S, Constitution because he was Black.
219.

As a direct and foreseeable consequence of these deprivafions, Thompson has suffered

economic loss, physical harm, emotional trauma, loss of liberty, loss of privacy s irreparable harm
to his reputation, and denial of the opportunity to seek redress-through the court system against
potential defendants.
220.

Thompson seeks compensatory damages, punitive damages, declaratory' and injunctive

relief requiring defendants to turn over all accurate investigatory records, and anything else this
court deems appropriate.
COUNT XIIr
EMPLOYMENT AND POST-EMPLOYMENT'RETALIATION AND MARASSEMENT,
RELIGIOUS AND RACE DISCRIMINATION IN VIOLATION of 42 U.S.C. §2000e etseq
Against Defendant Board
221 . Thompson incorporates paragraphs 1 -79 as though fully set forth herein.
222. I n March 2011 . a federal lawsuit by Thompson was filed in this jurisdiction (11 -ev-1712).

29

A-047

a/

223. The Board retaliated by so!iciting20^>

-for her daughter Jane Doe to make false rape

allegations to her therapists against Thompson as a pretext for the Board to subpoena his email
records for information to terminate his employment and about his then ongoing federal lawsuit.
224. The Board had previously refused to investigate Jane Doe’s stalking claims prior to
Thompson filing a federal lawsuit against the Board.
225. The Board solicited Dr. Welke’s to file a false DCFS report so the Board could initiate their
own investigation when DCFS investigators came to-the school..
226. The Board stole Thompson’s DCFS mail, opened it. and admitted they initiated their
investigation based on Thompson’s confiscated mail.
227. Thompson’s private coaching was Ghfisiian-basedj.was conducted during his off-duty time,,
conducted in Lake County, and Jane Doe was never a student with the Board--all conditions
being outside the Board’s jurisdiction in Cook County .
228. On June TO, 2011, a DCFS investigatiOnTound Jane Doe’s rape,allegations “unfounded.”
229. After the Board found no evidence against Thompson for stalking Jane Doe. they continued
to retaliate by soliciting Jane Doe and /40/A*

-fife a faclse police report to try to get Thompson

arrested so the Board could terminate Thompson’s employment.
230. In February 2012, a Vernon Hills PD investigation revealed nothing unprofessional about
Thompson’s relationship with Jane Doe and no charges were ever filed.
231. On August 16, 2013, the Board dismissed Thompson from his employment related to an
“Unsatisfactory” evaluation before an ISBE dismissal hearing convened.
232. On December 9, 2013, the Board, despite no longer employing Thompson, the DCFS report
being “unfounded,” and no criminal charges filed, continued to retaliate by filing charges against
him in an ISBE “back pay” hearing that he raped Jane Doe when she was 17-years old.

30

A-048

Ca§as$;lH-l}^MO60304EbBom0nefiit§9I6feffilea/2^©6fl^jiagfe(3E0ff^geag^Q3«3912

233. Jane Doe claimed during her testimony with the Board’s attorney in the ISBE “back pay”
hearing on December 9V .201.3 that she sought therapy related to the rape incident.
234. Jane Doe claimed during her testimony that Thompson raped her because he was “black.”
235. Jane Doe was solicited by the Board to claim Thompson raped her because he was “black”
and because Thompson had filed a lawsuit against the Board.
236. The Board’s- investigative file used in the ISBE “back pay” hearing contained numerous
negative, references related to Christian-related comments Thompson supposedly had made, most
of which were twistedi never made,, or left out key information to make his comments appear
Thompson was some religious Fanatic who used religion as a means to gain psychological
control over someone before raping them;
237. During the ISBE “back pay” hearing, on December 12, 2013. the Board’s attorney
continually ;asked;questipns related to:ThompsOiTs>religious beliefs and dreams, molUdingithose
he had as a, child; until he. was stopped/by (the I SBE hearing officer Dan N ielsen, admitting he
■was “fascinated” as to how the Board’s.questions were relevant to Doe’s rape allegations.

i

238. During the ISBE “back pay” hearing on December 12. 2013, the Board’s attorney asked
numerous questions: related to an earlier versi on of a withdrawn federal complaint.
239.Thompson filed two additional lawsuits related to Title VII claims in August 2014 and
during settlement negotiations related to the first federal lawsuit, the Board repeatedly offered to
withdraw the ISBE “back pay” hearing charges if Thompson agreed to withdraw these lawsuits.
240. The Board is retaliating bv continuing the “back pay” hearing in an effort to intimate
Thompson into dropping his federal claims.
241 . The Board admitted in a recent U.S, Court of Appeals Seventh Circuit filing they are
continuing to pursue the false rape claims against Thompson in an ISBE “dismissal” hearing.

31

A-049

Ca^M^el4tl4-6033SSffi@)!Etot3Qn1^fit90 E04dfi{&2G020^<Paieo8a7)ra'§«a3tt1l£#29l3

242.The Board continues its post-employment harassment against Thompson by continuing to
withhold his back pay in retaliation for Thompson’s off-duty religious beliefs, his black race, and
for filing EEOC charges and related federal lawsuits against the Board.
243. Thompson received his latest Right to Sue letter from the EEOC on May 9, 2016 based on
the aforementioned conduct intended to publicly humiliate Thompson as a child rapist and
prevent him from obtaining meaningful employment in his career of choice. (Exhibit A).
.244. Thompson has been damaged and thereby seeks his back pay. interest, attorney tees and
expenses required to bring this lawsuit, injuncti ve relief expunging docuinents related to Doe's
false claims from his personnel file, and any other relief as the Court deemsjust and equitable.
COUNT XIV
PROCEDURAL DUE PROCESS THROUGH 42 U.S.C. §1983
Against Defendants Clay pool and Nielsen
245;lliqmpson, incorporates paragraphs 1 -79 as though fully set forth herein,246. Qn September 13, 2012, the Board suspended Thompson. Without pay pendingan 1SBE
teacher dismissal hearing related to rape allegations by Jane Doe the Board knew were false and
were staged in retaliation for Thompson filing a federal lawsuit against the Board.
247,.lane Doe was never a studentwith the Board and the DCFS rape claims were '‘unfounded."
248. Thompson’s private coaching relationship with Jane Doe was Christian-based, during offduty time-, and occurred in Lake County, not Cook County where the Board is located.
249, On March 12. 2013. Thompson notified the Board's General Counsel that the DCFS report
in which it initialed its investigation was '"unfounded" and propounded a copy upon them.
250. The Board continued to pursue dismissal hearing charges against Thompson related to the
•‘unfounded" DCFS report despite being provided a copy of the “unfounded” DCFS report and
820 ILCS 40/13 requiring records of tire investigation expunged.

32

A-050

i£a4cFits&2Q&2Qi^#,ag^8'Pf^j880&J£5#$9i4

251, On August 16, 2013 the Board dismissed Thompson from his employment related to an
'‘Unsatisfactory5' evaluation.
252. Section 34-85(a)(2) of the- School Code requires the Board to make an employee whole for
lost earnings should art employee not be dismissed based on the charges in atrlSBE dismissal
hearing and Thompson was never dismissed from his employment related to any charges.
253. On December 9, 2013, the Board filed charges against Thompson in an ISBE “back pay
hearing related to the '“unfounded5' DCFS report he. sexually abused Jane Doe, instead of giving
him his back pay after dismissing him from 'his;employment for an “unsatisfactory” evaluation.
254. The Board admitted in recent legal filings that Clay-poo! will continue to pursue ISBE
teacher dismissal charges against Thompson related to the “unfounded” DCFS report, despite no
longer employing Thompson in any capacity since August 2013.
255,ThC Board continuesTO withhold Thompson's back pay of over $80,000 from when he was
suspended without pay between September il^TOfSTp August 16, 2013. despite the Board
terminating him for an “unsatisfactory” evaluation unrelated to the dismissal hearing charges.
256. Under the Abused and Neglected Child Reporting Act (“Child Reporting Act55). 325 1LCS
5/7.3, DCFS is the sole agency responsible for receiving and investigating reports of child abuse
or neglect made under the Child Reporting Act.
257.325 ICLS 5/1 ei seg. does not authorize the Board, the ISBE. or its employees or hearing
officers to investigate claims of child sexual abuse initiated by DCFS reports, especially based
on an “unfounded” report that does not involve a Board student or Thompson's employment,
258.The. Board admitted in its investigative file that its investigation was initiated by Dr.
Welkeks DCFS report and admitted it called DCFS to confirm the report was “unfounded.55

33

A-051

Ca©2^1tt-]3^0&9«G4!ibBifl>(nflnfe«t §9 Klfeff:iiea/2Sa26^e^fec3€0ftSyett0^®3ft3915

259. The Fourteenth Amendment to the U.S. Constitution secures certain rights, such as the right
to due process, for U.S. citizens.
260.42 U.S.G. §1983 provides a mechanism for the private enforcement of rights conferred by
the Constitution and federal statutes.
261, Clay pool has a duty to ensure Thompson's property and liberty interests were not impeded
without proper due process when it chose to illegally withhold Thompson's back pay.
262. As the Board’s.CEO, Claypool’s decision to continue pursuing charges against Thompson
in an ISBE dismissal hearing despite no longer employing hint .is an act under the color of law.
263. Cl ay pool’s aetion of continuing an ISBE dismissal hearing against someone they no longer
employ as a teacher initiated by a DCFS report related to sexual abuse claims that was later
indicated as “unfounded^ and his continual withholding of ^Thompson’s backpay violates his
t

due process tights under the 14lh Amendment of the U.S. Constitution.
264.;iSielsen haS'a duty to ensure Thompson’s property and liberty- interests were not impeded
without proper due process after learning the Board no longer employed him. that Jane Doe was
not a Board student, and that the DCFS report was “unfounded.”
i

265.N'ielseh’s was acting under the color of law under the authority of the ISBE as a Hearing
Officer when he chose to convene a dismissal hearing against someone who is no longer
employed as a teacher related to Board charges initiated by an “Unfounded” DCFS report
266. Nielsen has no statutory authority to convene a “back pay” hearing under 105 ILCS 5/34-85
or the Child Reporting Act, 325 ILCS 5 ei sec/,, especially on behalf of the Board when the
hearing is being used by the Board for retaliatory motives related to Title VII violations.
267. The ISBE, whose current General Counsel was the former Chief of Staff for the Board when
the Board elected proceed with the illegal “back pay” hearing, is a willing participant in allowing

34

A-052

Cagas^:mMHaS0004DclDaDiflrierit §9I0ife§il@0/2D2/B6/lS$c^a^ec3Sgf(5S^^^QSrtS916

Nielsen to proceed with a “back pay" hearing without statutory authority in conjunction with the
Board’s efforts to violate Thompson's Title VII rights.
268. There is no individual in United States employment history that has had to face a dismissal
hearing by someone who does not employ him or her.
269. There is no individual in ISBF history who has faced a 'dismissal” or “back pay” hearing
who is not employed as a teacher or even employed by an educational institution.
270. Thompson has been-damaged* thereby and seeks back pay . interest, attorney fees and
expenses required to bring this lawsuit, punitive damages, injunctive relief expunging all
documents related to Jane Doe’s rape claims from his personnel file, an injunction enjoining
Nielsen from conducting a “back pay” hearing without statutory authority, and any-other relief as
the Court deems just and equitable.
COUNT XV
PROSPECTIVE RELIEF RELATING TO AN EMPLOYER AND ISBE’S LACK OF
STATUTORY AUTHORITY TO CONDUCT INI)EPEINDEIS I IN VEST1G ATI ON S OF
“UN FOUNDED’1 DCFS- REPORTS OF SEXUAL. ABUSE OF 'MINORS
Against Defendants Board-. ISBE, Clay pool, and Nielsen
273..Thompson incorporates paragraphs 1-79 as though fully set forth herein.
272. In January 2012, an investigator with the Board’s Office of the Inspector General admitted
to Thompson that they were investigating claims of a DCFS report that he sexually assaulted
jane Doe, a then 17-year old minor residing in Lake County who was never Board student.
273. Thompson knew these claims were false and learned from DCFS in January 2012 that the
report was “unfounded” i n June 2011.
274. Thompson relayed information to the Board’s investigator in January 2012 that the DCFS
report was “unfounded” in June 2011.
275.The Board continued to conduct an independent investigation against Thompson in
retaliation for him filing a federal lawsuit.
35

A-053

Ca^^el4^d^»30l®39dcJ2aweniettit9i8 ff0ddziJ3S3l200/2^i§<Pa0©86^P^fl03gfe:ltt#©917

276.The Board removed Thompson, from the classroom in June 2012 and then suspended him
without pay on September 13.2012 pending an 1SBE dismissal hearing.
277. The Board’s investigative report Thompson received in February 2013 admitted it initiated
its investigation -of Jane Doe’s claims based solely off the DCFS report and that it knew the
report was later indicated as “unfounded’' in January 201.2,.
278. Thompson also propounded a copy of the “unfounded” DCFS report on March 12 .2013 to
the Board through its former General Counsel James Bebley.
279. Three months after the Board dismissed Thompson for an “Unsatisfactory” evaluation on
August 16. 2013. the Board filed charges that Thompson raped Jane Doe when she was 17-years

?

old in an IS.B E “back pay’5 hearing, despite DCFS indicating the report was‘‘unfounded.”
280. The Child Reporting Act under 3251LCS 5/7.3 states that the Department [DCFS] shall be
the soleageney responsible for receiyingandlhvestigatifigTepbrts Of child abuseorneglect made

s

under this1 Act except for those agenciesInWhich ;DCFS has authority to delegate the
responsibility to,
281. The Child Reporting Act does not list the Board or- the 1SBE as fact-finding agencies who
can be delegated the authority to investigate allegations of child sexual abuse made under the
Act. especially When it involves a minor with no relationship to the employer.
282. In fact, the Child Reporting Act requires school-reiated employers to report allegations of
chi ld sexual abuse to DCFS for them to conduct a proper investigation of the allegations, as
DCFS investigators are specifically trained to make the proper determinations on whether or not
a child has been sexually abused.
283. An investigator representing the Board admitted they contacted DCFS officials in January
2012 who verified that the report of sexual allegations against Thompson was “unfounded.”

36

A-054

284. The Ch'iid Reporting .Act.under 325 ILCS 5/7.4(d) requires employers to expunge related
documents if the DCFS report is indicated as “unfounded"
285. Further, the IPPRA prohibits employers from gathering or keeping records identifying an
employee as the subject of a DCFS report if it becomes indicated as “unfounded” and is required
to expunge such records upon notification. (820 ILCS 40/13).
286. The Board. ISBE, ClaypooL and Nielsen are all aware that the DCFS report related to Jane
Doe’s rape claims were “unfounded.”
287. The ISBEi Whose current General' Counsel was the former Chief of Staff for the Board when
the Board elected proceed with the illegal “back pay” hearing, is a willing participant in.allowing
Nielsen to proceed With a “back pay” hearing without statutory' authority in conjunction With the
Board's ^efforts to violate Thompson’s Title V11 rights.
:288.'VV'herefore,11hontpsoP prays for the following declaratory and injunctive relief:
av Enter a deelaratdrwjudgmehr that defendants lack statutory jurisdiction under the
Child Reporting Act, 325 ILCS 5/1 el seq. and the IPRRAj 820 ILCS 40/0 to
conduct an independent investi gation of a DCFS report that a teacher sexually
abused a minor with no relationship to the Board and allegedly occurring in
another county. Or in the alternative the same for someone they no longer employ;
b. Enter a declaratory judgment that defendants lack statutory' jurisdiction under the
Child Reporting Act. 325 ILCS 5/1 el seq, and the IPRRA. 820 ILCS 40/13 to
continue to conduct an independent investigation of a DCFS report that a teacher
sexually abused a minor with no relationship to the Board and allegedly occurring
in another county once the report has been indicated as “unfounded.” or in the
alternative the same for someone they no longer employ;

37

A-055

Cas^smm4-O0rm3mmximm\tmm4mm2m2&^ea^3>'bm^msmm4-B9i9

c. Enter an injunctive relief order that requires defendants to expunge from
Thompson's personnel file and cease and desist gathering or using any
investigative records or testimony subsequently gathered related to the
“unfounded" DCFS report;
d, An injunction enjoining Nielsen from conducting a “back pay” hearing without
statutory authority relating to an “unfounded” DCFS report.
c. Enter such other and further relief as deemed appropriate by the Court.
COUNT XVI
PROSPECTIVE RELIEF RELATING TO A NON-EMTLOYER AND ISBE’S LACK OF
STATUTORY AUTHORITY TO CONDUCT INDEPENDENT INVESTIGATIONS OF
“UNFOUNDED” DCFS REPORTS OFJSEXUAL ABUSE OF MINORS
Against Defendants Board, ISBE, Clavnool, and Nielsen
289, Thompson incorporates paragraphs -1 279 and 272-287 as though fully set forth herein.
29.0,On; August 16T2013, the Board terminated Thompspn's.bmployment jbaspd pn an
^U'r^attjevaluation prior to a pending ISBE dismissal hearing convening.
291. On December 9,20] 3 the Board -filed' formal charges against Thompson in an ISBE teacher
“back pay” hearing for a further fact-finding investigation initiated from the “unfounded” DCFS
report that he allegedly raped then 17-year old Jane Doe when in March 2010“ in Vernon Hills.
Illinois while he was privately coaching her unrelated to any school function, even though they
no longer employed him.
292.The Child Reporting Act under 325 ILCS 5/7.3 states that the Department [DCFS] shall be
the sole agency responsible for receiving and investigating reports of child abuse or neglect made
under this Act. except for those agencies in which DCFS has authority to delegate responsibility.
293. The Child Reporting Act does not list the Board or the ISBE as fact-finding agencies who
can be delegated the authority to investigate allegations of child sexual abuse made under the
Act, especially when it involves a minor with no relationship to the employer.
38

A-056

294, In fact, the Child Reporting Act requires school-related employers to report allegations of
child sexual abuse to DCFS for them to conduct a proper investigation of the allegations, as
DCFS investigators are specifically trained to make the proper determinations on whether or not
a child has been sexually abused.
295, An investigator representing the Board admitted they contacted DCFS officials in January
2012 who verified that the report of sexual al legations against Thompson Was “unfounded ."
296. The Child Reporting Act under 325, lLCS 5/7.4(d) requires employers to expunge related
documents i f the DCFS report Is indicated as -'unfounded."
297..Further,- the 1PPRA prohibits employers from gathering or keeping records identifying an
employee as the subject of a D.CFS report if if becomes indicated as “unfounded" and is required
to expunge such records..upon notification.
298/furthermore,fhereds no legal authority of jurisdietion for the Board orlSBB to bring about
or investigate: charges relating to someone that is not employed as a teacher by anyone.
299. The ISBE. whose curreht General Counsel was the former. Chief of Staff for the Board when
the Board elected proceed with the illegal “back pay" hearing, .is a willing participant in allowing
Nielsen to proceed with a “back pay" hearing without statutory authority in conjunction with the
Board's efforts to violate Thompson’s Title Vll rights.
300. Wherefore. Thompson prays for the following declaratory and injunctive relief:
a. Enter a declaratory judgment that defendants lack statutory jurisdiction under the
Child Reporting Act, 325 ILCS 5/1 el seq. to conduct an independent
investigation of a DCFS report that a teacher sexually abused a minor with no
relationship to the Board and allegedly occurring in another county, or in the
alternative the same for someone they no longer employ;

39

A-057

CaSas£:lU:-t4^06-S«CB4fta(aWiTOe#it m f5S4(fii^2S2i26!^§,^Eo4(S?itF^§ffig@t.©SS@921

l). Enter a declaratory judgment that defendants lack statutory jurisdiction under the
Child Reporting Act. 325 ILCS 5/1 el seq. to continue to conduct an independent
investigation of a DCFS report that a teacher sexually abused a minor with rto.
relationship to the Board and allegedly occurring in another county once the
report has been indicated as “unfounded." or in the alternative the same for
someone they no longer employ;
c. Enter a declaratory judgment that the Board lacks statutory authority to bring
charges against someone they don't employ;
d. Enter an injunctive relief order that requires the Board and ISBE to expunge and
cease and desist gathering or using any investigative records or testimony
subsequently gathered related to the “unfounded” DCFS report;
e. Enter; such-other and -.further relief as deemed appropriate fey* the Court.
COUNT XVI!
PROSPECTIVE RELIEF RELATING-TO AN EMPLOYER ..AND ISBE’S LACK OF
STATUTORY AUTHORITY TO CONDUCT INDEPENDENT INVESTIGATIONS OF
‘‘UNFOUNDED* DCFS REPORTS OFSEXUAL ABUSE OF MINERS IN A-*‘BACK
PAY” HEARING AGAINST SOMEONE NO LONGER EMPLOYED AS A TEACHER
Against Defendants Board, ISBE, Claypooh and Nielsen
301.Thompson incorporates paragraphs 1-97 as though fully set forth herein.
302. On December 9. 2013 the Board filed formal charges against Thompson in an ISBE teacher
dismissal hearing for a further fact-finding investigation initiated from the'“unfounded” DCFS
report that he allegedly raped then I 7-year old Jane .Doe when in March 2010 in Vernon Hills.
Illinois while he was privately coaching her unrelated to any school function, even though they
no longer employed him.
303. The Board’s attorney prior to the ISBE commencing the “dismissal" hearing stated that the
hearing was no longer a dismissal hearing but a “back pay" hearing.

40

A-058

Ca^aBl4;W-O83>fi3fiQ)£iOfl0mQ*lt9i9 J$4dritoJ2Q&29#fe$^4geDfl$Df^§te00l|[®&3J922

304.The statute governing dismissal hearings does not authorize dismissal hearings to be- altered
to “back pay" hearings but only to serve as an independent fact finding hearing to recommend
whether or not a teacher will be retained for employment. 105 ILCS 5/34-85,
305 . The 1SBE, whose current General Counsel was the former Chief of Staff for the Board when
the Board elected proceed with the illegal “back pay” hearing, is a willing participant in allowing
Nielsen to proceed with a “back pay” hearing without statutory authority jin’Conjunction with: the
Board’s efforts to violate Thompson’s Title VI] rights.
306. Wherefore, Thompson prays for the following declaratory and injunctive relief:
a. Enter a declaratory judgment that defendants lack statutory jurisdiction under 105
JLCS 5/34-85 to conduct a “back pay” hearingrelating to charges against
someone no longer employed as a: teacher;
b, Enter an injunctive relief: order that requires defendants Board and lSBE to
expunge all related dOcUments andueaseUnd desist gathering Or using. any
investigati ve records or testimony subsequcntJy gathefCd related'to the
“unfounded” DCFS report:
c. Enter such other and further rel ief as deemed appropriate by .the Court .
COUNT XVIII
PROSPECTIVE RELIEF RELATING TO AN EMPLOYER INITIATING AN
INVESTIGATION UPON OPENING A SEALED CONFIDENTIAL LETTER
INTENDED TO BE DELIVERED TO AN EMPLOYEE WITHOUT THAT
EMPLOYEE’S KNOWLEDGE OR PERMISSION
Against Defendants Board and Clay pool
307. Thompson incorporates paragraphs 1 -79 as though fully set forth herein.
308. In May 2011, DCFS came to Harlan to conduct an investigation into .a DCFS report by Dr.
Wclkc that Thompson allegedly raped Jane Doe in 2010 when she Was 17-years old.

41

A-059

Ca$&*l4;W=O03>83ffia>fiOTemSnt$& «4<fit^2Q&29fl^6>30Q3fl8'Ptta7}8e0ftlfM3923

309, Harlan school officials, upon direction from, the Board’s law department,, were told to
■prevent the DCFS investigator from contacting Thompson.
310. On May 3, 2011, a Harlan school official falsely told a DCFS investigator that Thompson
was unavailable for an. interview because he was in a classroom teaching students.
311 . After the Harlan official agreed to deliver a sealed letter from DCFS with Thompson’sname
on it. the official instead confiscated it to where it was later opened, read, faxed to law
department Officials, and then initiatedart independent investigation of the .sexual assault
allegations by Jane Doe.

i

312. Thompson did not become atvare until: February 2012 that in. May 2011 Board officialsconfiscated and opened a sealed letter address to him meant to inform him that Jane Doe had
.made sexual assault allegations',against, him.
313,Tire-Board confiscated his 'letter,so Thompson would riot find out about the false rape

!

complaint that was a pretext to the Board secretly filingasubpoeha for information related to
Thornpson’s email •account records while hehad ah ongoing federal lawsuit against the Board,
314. 28 U.S.C §§ 1701, 1702, and 1708 prohibit an employer front deliberately obstructing.
confiscating,.opening,.or possessing an employee’s mail or correspondence without their
knowledge or permission.
315.Thompson was suspended without pay from September 13, 2012 to August 16, 2013.
316.The Board continues to still possess and use Thompson’s confiscated mail without his
permission and continues to use investigative documents subsequently gathered from it.
317. The. Board continues to withhold Thompson’s back pay pending an 1SBE dismissal hearing
despite no longer employing him based on an investigative file initiated from confiscating and
opening Thompson’s confidential mail.

42

A-060

CaOft3Bl4;14KJ83)fi3fl®<EJ»flem9ntsf6'(E0^cFitel20a(2^i^(Pa0Q3ft87)f3S§^ag«J£5S$924

318, Wherefore. Thompson prays for the following declaratory and injunctive relief:
a. Enter a declaratory judgment that defendant Board lacked authority under either
28 13.-S.;C §§ 1701, 1702. or § 1708 to confiscate and open Thompson’s sealed
confidential mail that .DCFS had intended to deliver to him and after a Board
employee agreed to deposit the sealed letter in his school mail box;
b. Enter an injunctive relief order that requires defendants Board to expunge and
cease and desist gathering or using any investigative, records or testimony
subsequently gathered related to the letter the Board confiscated and: opened
without Thompson’s knowledge or permission;
c., Eniersueh, other and further relief as deemed appropriate by the Court,
COUNT XIX
PROSPECTIVE; RELIEF RELATING TO THE BOARD CONDUCTING A SECRET
INVESTIGATfdlSi'JN-XTOLATJ ON OF THE INSPECTOR GENEBaL’S'STATuTe .
Against Defendant Board, Brown, and Sullivan
319. Thompson incorporates paragraphs 1-79 as though fully set forth herein;
320. In May 2011. DCFS came to Harlan to conduct an investigation into a DCFS report by Dr.
Welke that Thompson allegedly raped Jane Doe in 2010 when she was 17-years old.
321, Harlan school officials, upon direction from the Board’s law department, were told to
prevent the DCFS investigator.from contacting Thompson.
322. On May 3. 2011. a Harlan school official falsely told a DCFS investigator that Thompson
was unavailable for an interview because he was in a Classroom teaching students.
323. After the Harlan official agreed to deliver a sealed letter from DCFS with Thompson’s name
on it, the official instead confiscated it to where it was later opened, read, faxed to. law
department officials, and then initiated an independent investigation of the sexual assault
allegations by Jane Doe.

43

A-061

324.Thompson did not become aware until February 2012 that in May 201 I Board officials
confiscated and opened a sealed letter address to him meant to inform him that Jane Doe had
made sexual assault allegations against him.
325. At no time did the Board contact the Cook County States Attorney's office or the Chicago
Police Department as required by the Inspector General Statute. 105TLCS 5/34-13.1.
326.The Board also failed to preserve all evidence In accordance with the statute including
erasing a previously recorded interview with Jane Doe.
327. Wherefore. Thompson prays for the following declaratory and injunctive relief:
a. Enter a declaratory judgment that the Board violated the Inspector General statute
when it commenced an criminal investigationwithout-Contacting the Cook
County States Attorney\s office and fhe-ChiCagp Police Department.
b;, BnteUan injunctive relief order that requires defendant Board to expunge and
cease and desist gathering or using any investigative records or testimony
subsequently gathered when in violation of file statute:
e. Enter such other and further relief as deemed appropriate by the Court.
COUNT XX
INTENTIONAL INFLECTION OF EMOTIONAL DISTRESS
Against Defendants Board and Clay poo I
328. Thompson incorporates paragraphs 1-79 as though fully set forth herein.
329.Thompson filed a federal lawsuit against die Board in March 2011.
330. In retaliation, the Board solicited Jane Doe to file a false rape claim against Thompson as a
pretext for the Board to file a subpoena for Thompson's email records.
331.Thompson was suspended without pay related to false rape allegations from September 13.
2012 to until the Board terminated Thompson from his employment on August 16. 201 3

44

A-062

CaSfia^4-:<WWa©30IB3M(Dtonenl^l9S ES^dFi®ea20a/23?&§^4§aDft5I)P&^©B)gfelE6iS926

332. The Board under CEO Claypool continues to withhold Thompson’s back pay with the
intention of proceeding with an ISBE dismissal hearing relating to allegations Thompson raped a
17-year old minor in 2010. charges the Board knows are false, and even though they no longer
employ him and has no job to be dismissed from.
333. Thompson has suffered and continues to suffer extreme emotional distress including lack of
i

sleep, stress, and even forewarned the FBI he may “snap” if they don’t step in and investigate the.
Board’s extreme and outrageous conduct of using kids to stage complaints against teachers.
334. Defendants are intentionally subjecting Thompson to egregious and abusive treatment that
they knew would cause him to suffer severe emotional distress.
335 . Defendants intended to cause Thompson severe emotional distress or knew there was a:high

i

probability he would suffer such distress when they subjected him to said abuse.
336. The aforemehtionedfaetsarid, omissions of defendants constitute intentional infliction of
j
1

emotional distress, in violation pf the laws ofthe State of Illinois.
337. Thompson has been damaged thereby and seeks reinstatement, back pay, punitive damages,
interest/attorneys’ fees and expenses required to bring this lawsuit.

1

COUNT XXI
CONSPIRACY
Against Defendants Claypool, 5$sRoK,, Jane Doe, Claudia P. Wclke, and NorthShore
University HealthSystem (respondeat superior)
338. Thompson incorporates paragraphs 1-79 as though fully set forth herein.
339. Thompson filed a federal lawsuit against the Board in March 2011.
340. The Board retaliated by soliciting Jane Doe, with the assistance of

'. and Claudia

Welke, to make false rape claims against Thompson to Cook County DCFS in violation of the
Child Reporting Act, 325 1LCS 5 el seq.. as part of a plan to terminate Thompson’s employ ment.

45

A-063

Ca^3ei4;14-O63>®ffi0)a0Qam9ntgQ K4dtiter200!20^£agGD#67>PS§«a081IB8®927

34\.£j$j^ . Jane Doe, and Claudia Welke, in an concerted effort with Board employees to
retaliate against Thompson in violation of his federal Title VII rights after he filed a lawsuit and
because he is black, entered into express and/or implied agreements, understandings, or meetings
of the minds among themselves for the purpose of impeding, hindering, obstructing, and
defeating the due course of justice in the state of Illinois, either directly or indirectly, with the
intent to deny Thompson the equal protection of the laws, by making false claims that Thompson
raped Jane Doe when she was 17 years old.
342. Claudia Welke, as an employee of NorthShore University HealthSystem, filed a false DCFS
report On behalf of Jane Doe,

..and the Board in conjunction with the surviving and

continuing Title VII claim against the Board.
and Jane Doe continued the conspiracy by participating in an illegal “back pay”
hearing even after Thompson had filed a lawsuit in Lake County against them where state counts
were later dismissed due to alleged pleading deficiencies.
344. Notablyj Jane Doe?s twin sister^ who also trained with Jane Doe under Thompson, has hever
provided any testimony whatsoever supporting Jane Doe^s false rape claim, despite Jane Doe
testifying she informed her twin sister of the rape claim.
345. Because her twin sister refused to take part in the conspiracy with the Board against
Thompson, Jane Doe recruited two friends to make false statements to Board investigators.
346.The related federal Title VII claim filed in Lake County survived and continues today.
347. The Board admitted Claypool is continuing the “back pay” hearing against Thompson in
retaliation for engaging in protected activity when he filed a federal lawsuit against the Board.
348. The conduct of the defendants has damaged Thompson as he is unable to seek employment
as a teacher while the “back pay” hearing is still pending.

46

A-064

W4cFi(^2Q&29A^£>agQD#BD^|0WJE5&8928

349, The conduct of the defendants has damaged Thompson in the- loss of one year of back pay.
3 50. Thompson has been damaged thereby and seeks expungement of all records pertaining the
the “back pay” hearing, false rape charge's, back pay, punitive damages, interest, attorneys' fees
and expenses required to bring this lawsuit.
COUNT XXII
PROSPECTIVE RELIEF RELATING TO THE ABUSED AND NEGLECTED CHILD
REPORTING ACT
Against Defendants Jane Doe and Claudia Welke
351. Thompson incorporates paragraphs 3-79 as though fully set forth herein.
352. Thompson filed a federal lawsuit against the Board in March 2011.
353. The Board retaliated by soliciting Jane-Doe.

, and Claudia Welke, to make false

rape claims against Thompson to Cook County DCFSTn violation of the Child Reporting Act,
325 1LCS 5 ei seq>, as part.of a plan to terminate Thompsan’s, employment.
354. Claudia Welke knew thatthe report she was filing withffCTB was false.
355. Claudia Welke withheld- information from a DCFS investigator that the report was false.
356. Jane Doe had solici ted Welke’s assistance-tofile a false rape claim on' her behalf in
conjunction with the Board retaliating against Thompson’s Title VII rights.
357. The Title VII claim Thompson filed related to his suspension without pay was not dismissed
and still continues.
358. Defendants’ conduct has damaged Thompson in the loss of nearly one year of back pay.
359. Thompson seeks declaratory relief that Jane Doe and/or Claudia Welke violated the Child
Reporting Act in knowingly making false rape claims directly or indirectly to DCFS.
360. Thompson has been damaged thereby and seeks injunctive relief prohibiting the Board and
the 1SBE from gathering any more records relating to the false rape claims and to expunge any
documents already gathered from Thompson’s personnel file.

47

A-065

Ca^adel44i4-€0-33S8i)0)(Eton0nl6^t9a E64cEi(^2G2tf20?^<Pd§eoa83bPa§<RSgg1E6S8B929

COUNT XXIII
PROSPECTIVE RELIEF RELATING TO JANE DOE’S MEN I AL HEALTH RECORDS
Against Defendant Jane Doc
361. Thompson incorporates paragraphs 1 -79 as though fully set forth herein.
3(32. As part of a conspiracy with iheBoard to retaliate against Thompson for filing a federal
lawsuit. Jane Doe made false claims to various therapists including Loc-ascio, Dr Welke, and
Deerfield high school counselor Amy Hindson that 'Thompson had raped her when she was 17
years old in March 2010,
363. After a lawsuit was fifed to enforce the Hearing Officer’s ruling that Thompson was entitled
to her mental health records that was later dismissed. Jane Doe later testified in Thompson's
dismissal hearing on December 9. 2013 that,she Sought therapy with various therapists that
Thompson had raped her when she was 17 years old, including therapists Locascio and Dr.
Welke, because the rape-incident allegedly had p negati ve impact on her emotional wel l-being,
364. Jane Doe testified in Thompson’s dismissal hearing;-on December 9, 2013 that both
Locascio and Dr. Welke filed complaints with DCFS related.to her allegations.
365. Both Dr, Welke and Locascio willingly testified to both DCFS and Board investigators as to
conversations they had with Jane Doe related to her allegations Thompson raped her when she
was 17 years, old.
366. The privileged quality of communication between any professional person required to report
and his patient or client shall not apply to situations involving abused or neglected children * * *
325 1LCS 5/4. (West 2014). See also Magnus v. The, Department of Professional Regulation, 359
lll.App.3d 773, 791 (2005); People v. McKean, 94 111. App. 3d ,502 (1981): People v. Morton.
188 111. App. 3d 95 (1989): and People v. Bradley, 128 111. App.3d372 (1984). which confirms
that a therapist-patient privilege does not exist in situations involving abused or neglected
children.

48

A-066

367, Wherefore. Thompson prays for the following declaratory and injunctive relief:
a. Enter a declaratory judgment in Thompson's favor that Jane Doe waived any right
to confidentiality to her mental health records under 325 UCS 5/4 as it relates to
this case when she admitted on December 9. 2013 that her therapists filed reports
with DCFS that Thompson allegedly raped her when she. was 17-years old as part
of the Board 's conspiracy to retaliate against him for filing a federal lawsuit.
b. Enter a declaratory judgment that Jane Doe waived any right to confidentiality to
her mental health records under 325 1 ICS 5/4 as it relates to this ease when she
testified at Thompson’s 1SBE dismissal hearing on December 9.20,13!that she
sought therapy for her emotional well-being after Thompson allegedly raped her.
faisfetestimony she provided as part of the Board’ s conspifficy to 'retaliate against
him far filing a federal iawsuit.
c; Enter a declaratory judgment in Thompson’ s favor that Jane Ejoe waived any right
to confidentiality to her mental health records under 325 UCS 5/4, as if relates to
this ease when she made claims to her therapists that she was raped when she was
17 years old in conspiracy with the Board to violate Thompson's Title Vll rights.
di Enter an injunctive relief order that allows Thompson to subpoena Jane Doe’s
mental health records and all therapist notes for a in-camera review by the Court
for relevant information as it relates to Doe’s allegations that Thompson raped her
when she was 17-years old and as part of the Board’s conspiracy to retaliate
against Thompson for filing a federal lawsuit:
e. Enter such other and further relief as deemed appropriate bv the Court.

49

A-067

§9 Kteff:il§a/2S22l2BRkajg;Sgfec5Q30fF55tjBa^^l:D3eQ931

FINAL PRAYER FOR RELIEF
WHEREFORE Thompson respectfully requests this Court enter judgment against defendants
in the amount of lost income and back pay; plus prejudgment interest, plus compensatory
damages, plus punitive damages, plus emotional.'distress-.damages, plus hospital expenses, plus
attorneys’ lees and/or costs, the total of al l damages to exceed $2,‘(000,000, and for such other
relief as the court deems appropriate including reinstatement, rescindment of his
’‘Unsatisfactory" evaluation, corrected DSSffile. and injunetivc relief includihg expungement of
records in his personnel file and eiTjoiningrthe Boarci arid fhe ISBIhfi'oni'contihiie to investigate
claims related to an “unfounded” DCFS report.
Respectfully submitted.

s/Maffe;A,./fhompsoir
Jury Trial Requested

Mark Thompson
Plaintiff. Pro Se
Pi&/\iQx S87&
Champaign, II, 61826
(2,17) #80-6256
drniafkthompson@ao.l,com

January 10. 2017

50

A-068

Ca^aaei4-sM(Jfia0Oa00dQcwi^«nuaEli6^tl€l^2ar2Baa^aS©tUjfifl4§^0e(fE2afl4DOl

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
MARK THOMPSON,
Case No. 14-cv-6340

FEB 26 2018
THOMAS G. BRUTON
CLERK, U.S. DISTRICT COURT

!

Plaintiff,
(consolidated with 14-cv-6838 and
14-cv-7575)

v.
BOARD OF EDUCATION CITY OF
CHICAGO, ILLINOIS STATE BOARD OF
EDUCATION, NORTHSHORE
UNIVERSITY HEALTH-SYSTEM,
HAROLD ARDELL, LINDA BROWN,
FORREST CLAYPOOL, REGINALD
EVANS, J/|/V£ bOt? ZTfttJE £0&
HOMAS KRIEGER, DAN
NIELSEN, JAMES SULLIVAN,
CLAUDIA P. WELKE, and ALICIA
WINCKLER,

j

j

Honorable John Z. Lee
Magistrate Judge Jeffrey T. Gilbert
Jury Trial Requested
!
!

i.

Defendants.

PLAINTIFF’S RESPONSE IN OPPOSITION TO BOARD DEFENDANTS’ MOTION TO
DISMISS PLAINTIFF’S SECOND AMENDED COMPLAINT

i

NO W COMES the plaintiff Mark Thompson (“Thompson”) for his response in
opposition to Board Defendants’ Motion to Dismiss Plaintiffs Second Amended Complaint
(“SAC”), states as follows:
Relevant Background
In March 2010 defendant Board initiated an investigation into false claims Thompson
was distributing performance enhancing “pills” to members of his Harlan track and field team
and suspended him from coaching. The complaining student later admitted both the football
coach and defendant Evans coerced him to make false accusations against Thompson. When
other students testified on Thompson’s behalf, Thompson received an “Excellent” evaluation

1

A-069

!Pfe4%g§a?©2^^©02

stating he followed defendant Board rules and told no disciplinary action would be taken. That
changed the next school year when Thompson filed an EEOC charge related to a teaching
reassignment - leading to his first lawsuit against defendant Board (1 l-cv-1712).
Unrelated to Thompson’s employment with defendant Board, Thompson had been
training

;

without reason, defendant?

anc* ^er tw^n s^ster fr°m August 2009 until April 19, 2010, when,
rr" f A? ■

_ y j informed Thompson he could no longer have
i

contact with her twin daughters. On May 21,2010 or so, a police commander from Deerfield,
Illinois contacted defendant Board with false claims Thompson contacted defendant Doe via an
AOL email account “Laura Brucks” and that she became distraught when she thought she saw
him in the stands at a track meet in Palatine, Illinois. Defendant Board declined to investigate the
matter but that also changed after Thompson filed his first lawsuit (11 -ev-1712). In retaliation,
defendant Board solicited defendant Doe with defendant

; blessing, to make false rape

!

I

claims so a subsequent investigation wouldn’t appear retaliatory. However, Lake County DCFS
declined to investigate the false rape claim after Deerfield police counselor Stephanie Locascio
allegedly made a report. Defendant Board then solicited defendant Welke to file the same false
rape claim, this time through Cook County DCFS, with instructions to make it appear defendant
Doe was currently attending Harlan where Thompson was employed and claim she did not know
where the rape occurred, so the matter would not be referred back to Lake County DCFS.
When DCFS went to Harlan on both May 3 and 4, 2011 to notify and interview
Thompson relating to the rape claims, defendant Board obstructed the DCFS investigation by
making false claims Thompson was unavailable, confiscated his DCFS notification letter
defendant Board agreed to place in Thompson mailbox, commenced an independent
investigation without contacting police or providing Thompson notification of the rape claim,

2

A-070

Ca^3ei4-:d^NWf3(^^(Q«)fl«inBtWt]ft;8LliBeBH®6/22/2f5/®a^0ffi63J0pa^Oe#E2S2SDO3

and did not notify Thompson they were subpoenaing the email account he used to exchange
confidential communications with his attorneys. Thompson did not become aware of defendant
Welke’s DCFS report until late January 2012 nor was he removed from teaching students for
over a year until June 2012. It is unprecedented and unreasonable that school district employees
would obstruct a DCFS investigation relating to allegations a teacher raped a 17-year old girl and
not immediately remove that teacher from the classroom for the safety of other students pending
the results of the investigation. “At the start of a formal investigation, if the subject of a report is
employed in or otherwise has a position that allows access to children, DCFS notifies the
employer of the investigation... While the investigation is pending, the employer must take
reasonable action to restrict the employee from contact with children at work. 325 Ill. Comp.
Stat. 10/4.3.” Dupuyv. Samuels, 397 F.3d 493 (7th Cir. 2005). Furthermore, defendant Board did
not contact police as required by the Inspector General statute 105 ILCS 5/34-13.1(b) before
!

launching an independent investigation, assuming they had statutory authority. Defendant
Board’s failure to remove Thompson from the classroom and stealing his mail is consistent with
foreknowledge defendant Doe’s rape claim was false and staged secretly in conspiracy.

!

After Thompson requested and received a copy of defendant Welke’s “unfounded” DCFS
report on February 8, 2011 and notified defendant Brown the DCFS report was “unfounded,”
defendant Board continued to gather and create false documents before suspending him without
pay in September 2012 pending an Illinois State Board of Education (“1SBE”) dismissal hearing.
Thompson then filed a Third Amended Complaint in 1 l-cv-1712 on December 4, 2012 to
include claims related to the false and “unfounded” DCFS rape report. After Thompson was
unable to file a reasonable lengthy Fourth Amended Complaint, both Thompson and defendant
Board acquiesced to splitting the false rape claims from 1 l-cv-1712, leaving only the “pill”

3

A-071

related claims to litigate. Thompson was then alternatively terminated in August 2013 based
upon a falsified evaluation (Counts 1 and 11). Thompson then refiled the rape related claims in a
separate lawsuit in Lake County, Illinois, a court of limited jurisdiction, on November 21,2013.
Thompson reserved other rape-related claims for federal court because Lake County is not a
court of competent jurisdiction for employer-related injunctive relief in Cook County.
Despite the fact that defendant Board no longer employed Thompson, they continued
harassing Thompson with the false rape claims by claiming the dismissal hearing was now a
“back pay” hearing. Without statutory authority as alleged in Counts VIII and XIV, both
defendant Board and the ISBE hearing officer, defendant Dan Nielsen, pretended as if Thompson
was still employed (Exhibit A), and ignored statutory law on “unfounded” DCFS reports by
continuing to seek documentation and testimony related to the “unfounded” DCFS report instead
of determining how much back pay he was owed from the time he was suspended without pay on
September 12, 2012 to when he was alternatively dismissed on August 16, 2013.
Without statutory authority to investigate “unfounded” DCFS reports, Nielsen unlawfully
!

subpoenaed defendant Welke and Locascio for testimony (Exhibit B). When defendant Welke
invoked mental health privileges, Thompson’s union attorney filed a lawsuit in Cook County
(13-CH-26625) on December 2, 2013 to enforce Nielsen’s subpoenas. Thompson was never
personally aware of the subpoena issues or the subsequent lawsuit unti l after the fact. Had
Thompson been aware of the subpoena requests and subsequent lawsuit, Thompson would have
referred to statutes 325 ILCS 5/10 and 735 ILCS 5/8-802/7, where a therapist cannot invoke

I

mental health privileges in matters relating to abused and neglected children that results in any
judicial or administrative hearing resulting from the DCFS report in which she was a mandated
reporter. The Illinois Supreme court also created a common law exception to strictures of the

4

A-072

Confidentiality Act: “the interests of fundamental fairness and substantial justice outweigh the
protections afforded the therapist-recipient relationship where plaintiff seeks to utilize those
protections as a sword rather than a shield to prevent disclosure of relevant, probative,
admissible, and not unduly prejudicial evidence that has the potential to fully negate the claim
plaintiff asserted against defendants and absolve them of liability.” (Emphasis added.) D.C. v.
S.A., 178 Ill. 2d 551 (1997). If defendant Nielsen had authority to investigate DCFS reports, he
would have known that a therapist couldn’t invoke mental health privileges. Since he did not
have statutory authority, defendant Nielsen should not proceeded with the hearing.
Thompson then filed the instant case on August 18, 2014 and another federal lawsuit on
September 4,2014 that included a Title VII claim for retaliatory discharge, Stored
Communications Act violations, and violations related to the Personnel Records Review Act.
Thompson did not file these claims in Lake County due to a jurisdiction restriction in Lake

!

County since Thompson’s former employer, defendant Board, is located in Cook County. When
Thompson attempted to file a related Title VII claim in Lake County in an amended complaint, it
was for the purpose of attempting to have his case transferred to federal court to join his claims
with the other federal lawsuits. On September 29, 2014, Thompson filed a lawsuit in Cook
County court against defendant Board for declaratory and permanent injunctive relief related to
their misuse of a continuing and unreviewed dismissal hearing but the judge and appellate judges
inexplicably ignored the fact that defendant Board no longer employs Thompson to dismiss him.
Argument
A.

Plaintiffs Second Amended Complaint should not be stricken
Board defendants’ make frivolous and desperate claims that Thompson did not remove

dismissed counts from his SAC and therefore they should be stricken (Counts VI, XV-XVIII).

5

A-073

Ca^^l4^^O©®fflB0)d(BtoBerTl«)tlfl;a68eiaJ«6/02/2B/»ajte§ffi610ffa^9e#E2S21OO6

However, Thompson filed the SAC as an attachment to a motion for leave of court to file before
any ruling was made. The court then ruled that five counts could not go forward after Board
defendants’ response and Thompson’s reply. The court, not Thompson, filed the SAC as docket
#99. The court gave no instructions to Thompson to re-amend his SAC or file a Third Amended
Complaint to exclude the five dismissed counts, which would not be appropriate in case
Thompson wanted to challenge those dismissals on appeal. The court’s order on March 23, 2017
(doc. #98) gives proper notice as to which counts did not move forward and Thompson included
a copy of this order to all other defendants when they were served.
I

B.

Board defendants’ waived right to challenge pleading standards in Counts IX-XI
When Thompson filed his motion for leave of court to file a SAC, the SAC included

pleading corrections to Counts IX - XI based on the court’s memorandum and opinion (doc.
#56). Thompson specifically addressed changes to these counts in his motion (doc. #93) and
believes they conform to class-based animus, if not liberally. Board defendants had the
opportunity to challenge whether or not Thompson re-pled these counts sufficiently in their
1

response to Thompson’s motion for leave of court but they did not (doc. #96). The court noted
that defendant Board failed to challenge whether or not Thompson re-plead these counts
sufficiently and the court thus granted Thompson leave of court for these counts to move forward
based on pleading standards. Furthermore, the court would have struck these claims sua sponte
had the amended claims not conformed to standards, as it did five other counts. It would be
unfair at this stage to now consider Board defendants’ arguments and give them a second bit at
the apple to dismiss these claims with prejudice or without prejudice (forcing more unnecessary
delays with a Third Amended Complaint) because defendants had the opportunity to challenge

!

potential pleading deficiencies when Thompson filed a motion for leave of court to file his SAC.

6

A-074

Ca3Sa§el4Hd'4-^©331£B0)O(D)«5Kierrt*itM-a68e(aM/0a/20/Eapa§ffi1i7Mf ®agMg>elC2@2ffl07

1) U.S. Supreme Court case law does not permit unreviewed state administrative
C.
proceedings to have a preclusive effect on Title VII claims no matter the state rules are, 2)
prior cases that are predicated on lawful conduct cannot be used if the conduct was
unlawful, and 3) Thompson’s lawsuit meets the Illinois case law exceptions to res judicata
1.

!

Counts I and XIII are Title VII claims and all other claims in the case related to

!
i

both Title VII claims. Cook County case 14-CH-15697 (filed on September 29, 2014) was a
I

subject matter jurisdiction interlocutory action related to an unreviewed and continuing unlawful
dismissal hearing and a separate act from Count I. Both Title VII claims were already filed in
courts prior to filing 14-CH-15697. Count I was filed in this case on August 18, 2014 and Count
XIII was originally filed in Lake County on August 26, 2014 as 14-L-606 before it was removed
i

to federal court as 14-cv-7575 and consolidated with this case. As such, it was not possible for
Thompson to have filed these two Title VII and related claims with 14-CH-15697 because they
were already filed in federal court. In Kremer v. Chemical Construction Corp., 456 U.S. 461,
470 n.7 (1982), the Supreme Court stated in dictum that it is "clear that unreviewed
administrative determinations by state agencies * * * should not preclude [federal court] review
even if such a decision were to be afforded preclusive effect in a State's own courts." Four years
later, in University of Tennessee v. Elliott, 478 U.S. 788, 795-96 (1986), the Supreme Court
expressly held that Congress did not intend for unreviewed state administrative proceedings to
have preclusive effect on Title VII claims; it concluded that a plainti ff who pursues a Title VII
action in federal court following an unreviewed state administrative decision is entitled to a de
novo examination of his Title VII claims. See also Alexander v. Gardner-Denver Co., 415 U.S.
36, 48 (1974). Therefore, 14-CH-15697 cannot be used for res judicata purposes. Nor can Lake
County case (13-L-879) be used for res judicata purposes because the related and continuing
Title VII claim (Count XIII) was not given a full and fair opportunity to litigate in an amended
complaint, still survives, removed to federal court as 14-cv-7575, and then consolidated here.

7

A-075

C a^aiel4-:d'4«0©305(mCTDEirit) #ntl#;81l6fe@il ®it/02//2B/sa^a§ ©8M B&gM§e«2 S2ffi08

2.

Thompson has also claimed in Count XIV that the dismissal hearing is unlawful

and that claim directly relates to Count XIII. Defendant Nielsen has since defaulted as to claims
the dismissal hearing violates Thompson’s federal due process rights. (Exhibit C). “A federal
court can deny preclusion if the state-court proceedings denied the parties a full and fair
opportunity to litigate by falling below the minimum requirements of due process," Garcia v.
Village of Mount Prospect, 360 F.3d 630 (7lh Cir. 2004) citing Kremer v. Chemical Constr.
Corp., 456 US 461 (1982). Also, the U.S. Supreme Court stated that if a court is “without

i

authority, its judgments and orders are regarded as nullities. They are not voidable, but simply
void...[t]his distinction runs through all the cases on the subject, and it proves that the
jurisdiction of any court exercising authority over a subject may be inquired into in every court
when the proceedings of the former are relied on and brought before the latter by the party
!

claiming the benefit of such proceedings. Elliot v. Piersol, 26 tJ.S, 328 at 340-341 (1828), See
also Siddens v. Industrial Comm'n, 304 Ill. App. 3d 506 (1999). “( TJhe principle of finality,”
however, “rests on the premise that the proceeding had the sanction of law, expressed in the rules
of subject matter jurisdiction.” RESTATEMENT (SECOND) OF JUDGMENTS § 12 cmt. a.
3.

Illinois Supreme Court outlined six scenarios where the application of res

judicata would be inequitable:
!

(1) the parties have agreed in terms or in effect that plaintiff may split his claim or the

1

defendant has acquiesced therein; (2) the court in the first action expressly reserved the
plaintiffs right to maintain the second action; (3) the plaintiff was unable to obtain relief on his
claim because of a restriction on the subject-matter j urisdiction of the court in the first action; (4)

1

the judgment in the first action was plainly inconsistent with the equitable implementation of a
statutory scheme; (5) the case involves a continuing or recurrent wrong; or (6) it is clearly and

8

A-076

CaEfiaael4-:dVWS&300300dDioaiEOTt)^nM;81J6fe@tl(£tt/02//2E/[iac|tei©ei#0g^M9^r[2»24DO9

convincingly shown that the policies favoring preclusion of a second action are overcome for an
extraordinary reason. Hayes v. City of Chicago, 670 F.3d 810 (7th Cir. 2010) (quoting Rein v.
David A. Noyes & Co.\ 665 N.E.2d 1199, 1207 (111. 1996).
(1) the parties have agreed in terms or in effect that plaintiff may split his claim or
the defendant has acquiesced therein;
At no time did defendant Board ever raise res judicata claims in either case while both
the Lake County case (13-L-879) and the chancery case (14-CH-26625) were going on at the
same time, nor did defendant Board raise res judicata claims during the Lake County case after
Thompson filed this case, 14-cv-6838, and 14-CV-7575.1 Furthermore, as it relates to 14-CFI26625, at no time did defendants raise res judicata in their motion to stay (doc. #13), in their
initial motion to dismiss (doc. #32), or in response to Thompson’s motion for leave of court to
file an SAC (doc. #47). Defendants only raised the Lake County case as a preclusion issue but
defendants acquiesced to claim splitting the related Title VII claim in Lake County case (13-L879) when it failed to raise res judicata arguments in its opposition to allowing Thompson to
amend the complaint before removing the Title VII claim to federal court as 14-cv-7575. The
Illinois Appellate Court in Piagentini v. Ford Motor Co., 387 Ill.App.3d 887, 897, 327 Ill.Dec.
253, 901 N.E.2d 986, 996 (1st Dist.2009) observed that "the key element in determining
acquiescence is the failure of the defendant to object to the claim-splitting." 387 Ill.App.3d at
897, 327 Ill.Dec. 253, 901 N.E.2d at 996. Interpreting comment a of Section 26 of the
Restatement (Second) of Judgments, the Illinois Appellate Court noted that a defendant
acquiesces if he "does not make known his objection in either action." 387 Ill.App.3d at 897, 327
Ill.Dec. 253, 901 N.E.2d at 996...The scenario described in the Restatement...is one in which "a

14-cv-7575 is the removed Lake County case (14-L-606) relating to a continuing Title VII claim (count XIII) that
Board defendants argued should be filed separately from I3-L-879, even though they were related claims. As such,
the Board acquiesced to claim-splitting when it removed the case as H-cv-7575 and consolidated it here.

9

A-077

CaiSaael4-;4^®e338BBiO(E5toDGnleMitM;aB8eiaiflaB/02/20/Ea$teiflj0 4010 l^Mg)eM2#2SD10

plaintiff simultaneously maintains] separate actions based upon parts of the same claim.”
Piagentini, 387 111. App.3d at 897, 327 Ill.Dec. 253, 901 N.E.2d at 996 (emphasis added). In this
scenario, the defendant could timely object in either proceeding because the origin of the split
occurred in either court, upon the plaintiffs filing of the complaints. But the Appellate Court
in Piagentini held that "[the defendant's] failure to file a timely objection when plaintiffs refiled
their suit constitutes an acquiescence." 387 Ill. App.3d at 898, 327 Ill.Dec. 253, 901 N.E.2d at
997. In re Emerald Casino, Inc., 530 B.R. 44 (N.D.I11.2014). As such, because defendants never
raised any res judicata claims as it relates to both Title VII claims between 14-CE1-26625 and
13-L-879, defendants have acquiesced to claim-splitting to both Title VII claims and related
claims. Furthermore, Judge Tharp previously ruled that the investigative file at the center of
i

nearly all counts becomes part of an employee’s personnel file when disciplinary action is taken
against them (Exhibit G). Defendants do not and have never made any claim that Count VIII is
barred by res judicata from any case and that fact alone is enough for the court to bar res
judicata to all false rape related claims regardless of the dismissals in Lake County. Counts III,
IV, V, IX, X, XI, XII, XIII, XIV, XIX, and XXI all relate to Count VIII.
(2) the court in the first action expressly reserved the plaintiffs right to maintain
the second action;
The Lake County court (13-L-879), by not allowing Thompson to amend his complaint to

!

add a Title VII claim for reasons inconsistent with Thompson’s Right to Sue and U.S. Supreme
court case law in Alexander (Exhibit F)2, in effect preserved Thompson’s right to file the
continuing and related Title VII claim as a separate lawsuit in Lake County (14-L-606) where
defendant Board removed to federal court (14-cv-7575) and then consolidated with this case.
(3) the plaintiff was unable to obtain relief on his claim because of a restriction on
the subject-matter jurisdiction of the court in the first action;
2 The 90-day deadline for filing had not occurred yet and was filed timely the same day as a separate count.
I

10

A-078

Ca^eagei4.^4-®850®3M)d5®6em@r)tMa^8d9)®oB/03/2@/®&^ffl$

ff@Lif&0)e#C2828)ll

Counts I, III, IV, V, IX, X, XI, XII, XIII, XIV, XIX, and XXI all request injunctive relief
related to Thompson’s former employer, defendant Board, which is located in Cook County that
i

Lake County lacked jurisdiction to give. Counts III, IV, V, IX, X, XI, XII, XIII, XIV, XIX, and
XXI also relate to personnel file violations in Count VIII, where Thompson was required by
statute to file in either Cook County or federal court since Lake County is not a court of
competent jurisdiction under 820 I.LCS 40/12. As such, res judicata meets the exceptions in Rein
on the limited court jurisdiction in Lake County and these claims were already filed before the
14-CH-26625 was filed, which relate to an unlawfully and ongoing dismissal hearing.
(5) the case involves a continuing or recurrent wrong;
The claims against defendants in III, IV, V, IX, X, XI, XII, XIII, XIV, XIX, and XXI all
relate to a continuing Title VII claim (Count XIII) and personnel record violation claim (Count
VIII). Thompson’s dismissal hearing is still continuing as part of a Title VII retaliation violation,
discovery in the dismissal hearing is still open, and thus his administrative remedies have not yet
been fully adjudicated for a final review and for res judicata to come into play on any related
count in this case. If interim actions related to discovery and jurisdiction issues were subject to
res judicata claims in the flawed rationale defendants are asserting, then the interim actions
would also bar Thompson’s ability to seek a final review of the dismissal hearing once it
concluded. The key word in the res judicata exception #5 rule is “case.” As long as Thompson
has an ongoing case with a continuing Title VII claim, res judicata cannot be used as a basis to
dismiss any claims or defendants that relate to that continuing Title VII claim.
(6) it is clearly and convincingly shown that the policies favoring preclusion of a
second action are overcome for an extraordinary reason

11

A-079

Cas0ai<a4-:&/Wr&30©300dQ<m»niD<^

dEfcfif l4§3fcdi0Q»E283C)12

If the court were to allow defendant Board to continue to harass someone they don’t
employ, Thompson would become the first individual in U.S. history to be terminated by
someone who doesn’t employ. That’s not the “justice for all” judicial system America’s
forefathers envisioned. That’s why we have a federal court system with presidential-appointed
judges when the state court system allows U.S. citizens to have their federal rights violated.
D.
Thompson NEVER released Board Defendants from liability in any claims in this
case based on his Settlement Agreement and Limited Release

!
i

Again, defendant Board attempts to re-litigate an issue that has already been argued
(does. #32, 37, and 42) and reviewed in Thompson’s favor when the court stated in its
memorandum and opinion, “the settlement agreement did not extend to this case.” (doc. #56). As

i

such, defendants must use some other defense outside the Settlement Agreement and Limited

J

Release (“SALR”) to prevent Thompson’s claims from moving forward. That’s why the SALR
includes “Limited Release” (doc. 109-1, Ex. A), because it did not extend to this case, the Cook
County case, the Lake County case, nor does it apply to continuing or new claims after the fact.
In addition, Count VI is directly related to Counts I and II. Since Board defendants do not claim
Counts I and II were somehow released, they cannot claim related Count VI was released.

!

Counts XIII, XIV, and XX not only relate to the claims that were not released in the SALR but
they also relate to continuing claims that occurred after the SALR. Thompson signed the SALR
on January 16, 2015. Defendant Board signed it on January 26, 2015. Thompson’s claims in

I

Count XIII, XIV, and XX all relate to continuing Title VII claims involving an unlawful 1SBE
dismissal hearing defendant Claypool is now involved in and where privity defendant Nielsen
has defaulted on Count XIV. The Right to Sue notice on Count XIII was issued to Thompson by
the EEOC on May 9, 2016 and was timely filed on August 8, 2016 in 16-cv-7933 while this case

:

was stayed pending a 7th circuit court ruling, 18 months after the SALR was signed. Thompson

12

A-080

i

CaaEa§el4t(M^©39BB0O(DUDn0rrldhtMaLB8daidffi/02/28/ffagtea|a 4810 Pmdj&§>e?IC2§3B013

then merged the Title VII (Count XIII) claim with this case after he was granted leave of court.
Defendant Claypool did not even become employed with Board defendants until July 17, 2015
so how could the SALR signed in January 2015 somehow release someone of misconduct who
wasn’t even employed by defendant Board until six months later? Furthermore, Board
defendants are trying to fraud the court. Board defendants mention 14-cv-6340 in the SALR but
omit the fact it was consolidated. One of those cases consolidated was 14-cv-7575 (see top of
complaint). 14-cv-7575 is the Title VII claim that defendant Board removed from Lake County
after the Lake County judge refused to allow Thompson to include it in an amended complaint.
Count XIII is a continuation of that same claim and Counts XIV and XX relate to it as continuing
claims as well. The fact that they continue to use the SALR to dismiss claims they know
Thompson never agreed or intended to dismiss is evidence of how untrustworthy Board
defendants are and how they try to manipulate the facts of the case to sanction harassment.
E.

Thompson’s SAC Complies with Rule 8

i
j

This claim is obviously frivolous and made in desperation. Thompson’s pro se SAC isn’t
much different than any of his prior complaints and the Board failed to raise this argument in a
prior motion to dismiss (doc. #32) and had another opportunity to raise this claim in its response
I

to Thompson’s motion for leave to amend, (doc. #37). The complaint did not prevent any of the
defendants from responding to the allegations and the court would have struck the complaint sua
sponte had it been true, so their argument is obviously without merit.
F.

Court has Subject Matter Jurisdiction Over Counts II and XIV
Defendant Board is attempting to mislead the court once again over the facts of the

continuing “dismissal” hearing in Count XIV in an effort to make Thompson the first person in
United States history to be fired by someone that does not employ them. First, Count II directly

13

A-081

Ca^aael4-:dVMMi®e0Q(Gtaa®m«itiaaBBte@tl®^/02/2B/Ka^aS4 4fM R§3M9eflf2S3£D14

relates to Title VI1 Count I and the Board gives no argument that the court has no jurisdiction

!

over Count I. So that argument fails. Even so, after Thompson was terminated, defendant Board

i

and defendant Nielsen held the dismissal hearing anyway by pretending defendant Board still
employed him instead of conducting a back pay hearing (Exhibit A). The dismissal hearing
relates to an “unfounded” DCFS report, not his falsified evaluation, and still continues today
(Exhibit E) unlawfully. Thompson has alleged in Count XIV that the dismissal hearing is
unlawful because it was initiated upon an “unfounded” DCFS report (Exhibit D). Thompson
does not have to participate in any dismissal hearing until it concludes if the hearing violates his

!

federal due process rights. As alleged in Count XIV, Thompson is not a teacher rtor do
defendants have the authority to conduct an independent or reinvestigation of an “unfounded”
DCFS report. No state court has reviewed the dismissal hearing as to whether or not it violates
;

his federal rights under Title VII or Section 1983 and since it is continual, Thompson can do so
in this court. Since Thompson is no longer employed, only a “back pay” hearing can occur, but
defendant Nielsen is conducting a dismissal hearing, not a back pay hearing, and has defaulted.
G.

Count VIII cannot dismiss individual defendants Winckler and Claypool
Again, another argument the Board failed to present during the original motion to dismiss

(doc. #32) and again when the Board had the opportunity to oppose Thompson’s motion for
leave to amend (doc. #96). This argument is therefore waived. Furthermore, 820 ILCS 40/12(d)
!

identifies both the employer and the agent as being guilty of a petty offense for a violation and
also identifies willful and wanton conduct as violations as well. As such, the provisions of the
statute provide a right to sue individuals as well. See also Bogosian v. Board of Education, No.
99-C-3656 (N.D. Ill. Feb. 22, 2001) where Board members were sue in their individual capacity
and summary judgment against them was upheld.

14

A-082

Casg:am4Ld/lesa4)6®16bDi(i)®jrrr#nl#8Kfe(9::iled/2K/K6^ia^dlf9.0fP^eHg^:l23S3O15

Conclusion
!

As identified above, defendants raise res judicata and other defenses unrelated to the

i

Lake County case that was supposed to be the purpose of this motion to dismiss that could have
and should have been brought in earlier filings (docs. #13, #32, and #96). “Motion practice is not
a series of trial balloons where you (submit] what you think is sufficient, [you] see how it flies,
and if it does not, you go back and try again. If that is the way the system worked we would have
motion practice going on forever,” Hansel TV Gretel Brand, Inc. v. Savitsky, 1997 WL 698179
(S.D.N.Y.1997), to the consequent disadvantage of other litigants-“patiently waiting in the queue
for the limited time of federal judges.” Channell v. Citicorp Nat. Services, Inc., 89 F.3d 379, 386
i

(7th Cir. 1996), As such, all arguments that could have been raised earlier should be forfeited.
Even so, Thompson has still stated viable claims against Board defendants in all counts and his
case meets the res judicata exceptions for every single claim, assuming the law is followed,
which hasn’t been the case in state court proceedings. In fact, it is sickening to think state court
!

judges have deliberately ignored statutes and case law in Thompson’s favor to sanction

i

defendant Board’s unlawful and retaliatory conduct. But where the state courts fail, it is for the
federal court to succeed. As such, Thompson respectfully requests this court deny defendants’
motion to dismiss on all counts so Thompson can proceed with ending their retaliatory conduct.
Respectfully submitted,

Jury' Trial Requested

i

s/Mark A. Thompson
Mark Thompson
Plaintiff, Pro Se
P.O. Box 8878
Champaign, IL 61826
(217)480-6256
drmarkthompson@aol.com

June 23, 2017
15

A-083

CaseaS^;4til4Q68@033ai}otanti#nl#8a$8:il6tecD£y2^a/a.8>g^@ 2® 2)f^BES#l2m:7l029
From:
Subject:
Date:
To:

Kurtis Hale krhalejd@hotmail.com
Re: Status
June 12, 2017 at 11:57 AM
Mark Thompson drmarkthompson@aol.com

We are still in abeyance.
i
Kurtis Hale
On Jun 12, 2017, at 11:45 AM, Mark Thompson <drmarkthompson®aol.com> wrote:
Can you give me the status of Nielsen and the dismissal hearing? Thanks.
Sent from my iPhone

I

!

A-097

& 2fF^ff$8!&#$031
IN THE CIRCUIT COURT OF THE NINETEENTH JUDICIAL CIRCUIT
LAKE COUNTY, ILLINOIS

n

)

'■•

;

U c*

j

c?'f
l

CA/j

m 2 o ?ou

S3 L

Case No.

f

X -

''

>

cr

CIRCUIT CUER^

7W

-/

/ C/?

7

/

fa Pt P!£? t'Hs
-*.

I

y(i J

/

j

/

f.
"r

-h r. !ie

ip.^f'1

b

'A

->

■:*/5

A

!

Jl f

1

frP
«-\Ji -

a

i

j

1

/ <J * J > i

4

1 <«

A,
- iy
/

3) Or^ft
A

/

Jf

■

i

/J

Jty tyf i-'J

f

/■< n c >/

}

aft

’J

l, f!e i2// >

J3
A ■r'-

CsL^1

/

Cs-z^r-H

J

h

f ’’ '

fi,j

! _6"
<?
JjP Csr^’^o-43^

h »f7 /7>' .

j

\

k,r /' A-b y

k jt A-by

>/ / a lud*-*?

'"A.A

J 7

? 6-'0!

• -

C

k^M^b

J

tj 4— ■ * x

!>

■<

1 " ! / V"W.- /2

/

I

€

j

> s'r~

4

7/

.. <.-*V

J/' U

nr< o h cry\

(/

//

-7
/

r-r^

-J

J

*/

--A' 0i?\. 5 ‘ ***»

I u**£-*n

■.

I

/uAA ^*'rK

)
ORDER

fih •

Jl® g

xx £, 5 >,rr\

vs.

lQ.

!I

f CP •

7

U

._)

t/.

Cz«y’r<’

/s-,'xH7v •

J

j f

X*

/

U. 6’U

/

t0y? P>

J
.i

T h' * > ^'7
/

A

v'
_A

}

l-»

>

f

&<■

Z

'

y

^

;

2^/*

.rrl

') t-A-

cryi

tS)

'Jf A*

p/?

J- J

h rf'ff*’**

■'*

1

(sr-iSS

7

/

j

■

ENTER:

Jorge L. Ortiz
JUDGE
Dated this Z 4

J
day of A

r
LA

3

, 20.

i l2

Prepared by:
„ .
,
Attorney's Name: M.xx-- c / ^ -^eyi/
Address: ~j ° ^ j

f>-Vi

City: -4 x /.
b-x.
Phone: VV? ^

Cr c. tV

j-/ n>_________
State: j L.
Zip~Code: j OQQ 5

<•. <i 7 - <?g - 7 ? > j
o
ARDC.
illllh i
Fax:

171-94 (Rev. 10/11)

A-099 i

\

Case: l:14-cv-06340 Document #: 202 Filed: 03/19/18 Page 1 of 148 PagelD #:7037

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
DR. MARK THOMPSON,
Plaintiff,
BOARD OF EDUCATION CITY OF
CHICAGO, etal.,
Defendants.

)
)
)
)
)
)

Case No. 14 cv 6340
(consolidated with 14 cv 6838 and 14-7575)
Honorable John Z. Lee
Magistrate Judge Jeffrey T. Gilbert

BOARD DEFENDANTS’ MOTION TO DISMISS PLAINTIFF’S
SECOND AMENDED COMPLAINT AND SUPPORTING MEMORANDUM
Defendants Harold Ardell (“Ardell”), Linda Brown (“Brown”), Forrest Claypool (“Claypool”),
Reginald Evans (“Evans”), Thomas Krieger (“Krieger”), James Sullivan (“Sullivan”), Alicia Winckler
(“Winckler”) and the Board of Education of the City of Chicago (“Board”) (collectively “Board
Defendants”), through their attorneys, move to dismiss Plaintiffs Second Amended Complaint
(“SAC”) (Dkt. #99) pursuant to Federal Rules of Civil Procedure 8, 10(b), 12(b)(1) and 12(b)(6), and
in support submits:
I.

INTRODUCTION
The instant lawsuit is a consolidation of three federal lawsuits brought against the Board

Defendants. It attempts to resurrect claims Plaintiff unsuccessfully asserted in prior lawsuits filed in
this jurisdiction, and others. In the SAC, Plaintiff sues the Board and seven Board employees, all of
whom have been named in at least one of Plaintiff s previous complaints, based on events allegedly
occurring during Plaintiffs employment as a teacher/coach at Harlan High School. In the SAC,
Plaintiff rehashes, at times verbatim, the allegations dismissed in the four prior cases summarized
below. Thus, the doctrine of resjudicata bars Counts I, III, IV, V, IX, X, XI, XII, XIII, XIV, XIX and
XXI, as they were, or could have been, raised in Plaintiffs previous lawsuits. Additionally, Plaintiff
released and discharged the claims found in Counts VI, XIII, XIV, and XX through his execution of
a settlement agreement in one of his prior lawsuits; therefore these claims must be dismissed.

A-109

Case: l:14-cv-06340 Document #: 202 Filed: 03/19/18 Page 2 of 148 PagelD #:7038

Furthermore, this Court lacks jurisdiction for Counts II and XIV because Plaintiff failed to exhaust
his administrative remedies.

Finally, Plaintiff fails to state viable claims because of his shotgun

approach to pleading and his failure to comply with this Court’s orders. Accordingly, this consolidated
lawsuit should be dismissed in its entirety.
II.

PLAINTIFF’S LITIGOUS HISTORY
The SAC has 23 counts of which 21 are directed against one or more of the Board Defendants.

Dkt. #99. When granting Plaintiff leave to file the SAC, the Court ruled Counts VII, XV, XVI, XVII.
and XVIII were not viable claims, and Plaintiff was not granted leave to file a SAC as to these counts.
Dkt. #98. Plaintiff, however, did not remove these counts when he filed the SAC (Dkt. #99) so they
should be stricken. See infra, §IV.A. The 16 counts against the Board Defendants for which the
Court granted leave to file an amended pleading include a variety of causes of action:
retaliatory discharge in violation of 42 U.S.C. § 2000e against the Board1;
violation of 42 U.S.C. § 1983 — 14th Amendment to U.S. Constitution against Evans
and Krieger;
violation of 42 U.S.C. § 1983 - 4th Amendment to U.S. Constitution against Sullivan;
violation of 18 U.S.C. § 2703 — Stored Communications Act against the Board and
Sullivan;
violation of 18 U.S.C. § 2701 — Stored Communications Act against the Board and
Sullivan; intentional infliction of emotional distress against the Evans and Krieger;
violations of the Personnel Record Review Act against the Board, Claypool and
Winckler;
conspiracy to interfere with civil rights in violation of 42 U.S.C. § 1985(2) and (3) denial of access and obstruction of justice against Ardell, Brown and Sullivan;
conspiracy to interfere with civil rights in violation of 42 U.S.C. § 1986 — denial of
access and obstruction of justice against the Board;
concealment of evidence in violation of 42 U.S.C. § 1983 against Ardell, Board, Brown
and Sullivan;
employment and post-employment retaliation and harassment, religious and race
discrimination in violation of 42 U.S.C. § 2000e against the Board;
procedural due process through 42. U.S.C. § 1983 against Claypool and non-Board
Defendant;
prospective relief relating to the Board conducting a secret investigation in violation
of the Inspector General statute against the Board, Brown and Sullivan;

Retaliatory discharge is not a claim under 42 U.S.C. § 2000e.
2

A-110

Case: l:14-cv-06340 Document #: 202 Filed: 03/19/18 Page 3 of 148 PagelD #:7039

•
•

intentional infliction of emotional distress against the Board and Claypool; and
conspiracy against Claypool and four non-Board Defendants. Dkt. #99.

In addition to the three lawsuits compromising the instant matter, the Plaintiff filed three prior
lawsuits against the Board and its employees and another one involving the non-Board Defendants.
A. 2011 Federal Case
The first lawsuit Plaintiff filed against the Board, Evans, and other Board employees7 was
Thompson v. Board of Education et al.Case No. ll-cv-1712, filed in the United States District Court for
the Northern District of Illinois, Eastern Division, in front of the Honorable Ronald A. Guzman (“the
2011 Federal Case”). The operative complaint in the 2011 Federal Case is Plaintiffs Fifth Amended
Complaint filed in May 2013, which the Board Defendants answered on September 13, 2013. See 11
cv-1712 at Dkt. #178. In granting summary judgment on eleven of the twelve remaining counts,
Judge Guzman held that the Board and Evans did not retaliate against Plaintiff for filing a
discrimination charge when he was given an “Unsatisfactory” performance evaluation. See ll-cv-1712
at Dkt. #269; Dkt. #290. The remaining count was settled between Plaintiff and the Board defendants
on January 26, 2015.

See ll-cv-1712 Settlement Agreement attached hereto as Exhibit A. The

settlement agreement includes the following release language:
Thompson, upon advice of counsel, understands and agrees that in consideration of the
settlement entered into pursuant to this Agreement, Thompson does hereby release and
forever discharge on behalf of himself and his heirs, executors, administrators and assigns, all
claims, actions, disputes, and suits that he had or has or may have in the future against the
Board and any of the Board’s future, current or former members, officers, agents and
employees, under local, state, or federal law, which are known as of the date the Agreement is
executed except for the following claims contained in Thompson’s other legal matters
currently pending against the Board: 1) Thompson v. Board, et al., 14 C 6340, consolidated
matter, pending in the U.S. District Court for the Northern District of Illinois, Eastern
Division; 2) Thompson v. Board, et al., 13 C 879, pending in the Circuit Court of Lake County;
and 3) Thompson v. Board, 14 CH 15697, pending in the Circuit Court of Cook County.
Ex. A 1 9.
2 Plaintiffs Fourth Amended Complaint in the 2011 Federal Case named Harold Ardell, Linda Brown and
James Sullivan, among other Board employees, and included claims related to the investigation of the alleged
sexual assault involving the
defendants. Plaintiff voluntarily dismissed those claims and Defendants when
he filed his Fifth Amended Complaint. See ll-cv-1712, Dkt. ##160 and 178.

3

A-111

Case: l:14-cv-06340 Document #: 202 Filed: 03/19/18 Page 4 of 148 PagelD #:7040

B. Lake County Case
Plaintiffs second lawsuit against the Board, Ardell, Brown, Evans, Sullivan and other Board
employees was Thompson v. Board of Education Township High School District 113, etal, Case No. 13 L 8793,
filed in the Circuit Court of the Nineteenth Judicial District, Lake County, Illinois (“the Lake County
Case”). The operative complaint in the Lake County Case is Plaintiffs Verified Second Amended
Complaint at Law filed on January 29, 2014. See Second Amended Complaint in the Lake County
Case, attached hereto as Exhibit B. Multiple motions to dismiss were granted, and a full and final
order of dismissal was entered on February 5, 2015, which Plaintiff appealed. On March 15, 2016,
the Illinois Appellate Court, Second District, affirmed the Circuit Court’s dismissal with prejudice. See
Appellate Court of Illinois, March 15, 2016 Order Filed No. 2-15-0226, attached hereto as Exhibit C.
Plaintiffs Petition for Appeal to the Illinois Supreme Court was denied. See Petition for Appeal
Denial, attached hereto as Exhibit D.
C. Chancery Cases
Plaintiffs third lawsuit against the Board and its Chief Executive Officer (“CEO”)4 was
Thompson v. Board of Education City of Chicago and Dr. Barbara Byrd-Bennett, 14-CH-15697. The Verified
Complaint for Declaratory Judgment and Injunctive Relief alleged the Board was misusing the Illinois
State Board of Education (“ISBE”) dismissal hearing to resolve “back pay” issues of a prior dismissed
employee.

See Verified Complaint, attached hereto as Exhibit E.

The Circuit Court dismissed

Plaintiffs complaint, and the dismissal was affirmed on appeal on June 10, 2016. See 2016 1L App
(1st) 150680 dated June 10, 2016, attached hereto as Exhibit F.
|, Claudia Welke, Northshore University

The Plaintiff also filed a claim against

Healthsystem and one other individual in Thompson v. N.J., et al, 13-CH-26625, in which he sought

were also defendants in the Lake County case.
4 At the time the lawsuit was filed Barbara Byrd-Bennett was CEO of Chicago Public Schools. The current
CEO is Forrest Claypool who is a newly named defendant in the SAC.

4

A-112

Case: l:14-cv-06340 Document #: 202 Filed: 03/19/18 Page 5 of 148 PagelD #:7041

access to Ms.

I’ mental health records. The Circuit Court dismissed Plaintiff s claim, and the

Illinois Appellate Court affirmed Plaintiff was not entitled to Ms.

I’ mental health records. See

2016 IL App (1st) 142918 dated April 29, 2016, attached hereto as Exhibit G.
III.

STANDARD OF REVIEW
The standards governing a 12(b)(6) motion to dismiss and 12(b)(1) motion to dismiss

for lack of standing are the same. See Sanner v. Hoard of Trade of City of Chicago, 62 F.3d 918, 925 (7th
Cir. 1995). To survive a motion to dismiss pursuant to Federal Rule of Civil Procedure 12(b)(6), “a
complaint must contain sufficient factual matter, accepted as true, to ‘state a claim to relief that is
plausible on its face.’” Bell Atl Corp. v. Twombly, 550 U.S. 544, 570 (2007). A complaint should be
dismissed if it is clear that “no relief could be granted under any set of facts that could be proved
consistent with the allegations.” Tedford v. Sullivan, 105 F.3d 354, 357 (7th Cir. 1997). In deciding a
motion to dismiss, the court must treat all well-pleaded factual allegations in the complaint as true and
must draw all reasonable inferences from those allegations in the Plaintiff s favor.
The Court need not strain to find inferences favorable to Plaintiff which are not apparent on
the face of the complaint nor accept legal conclusions alleged or inferred from the pleaded facts. Nelson
v. Monroe Reg. Med. Ctr:, 925 F.2d 1555, 1599 (7th Cir. 1991). Further, the Court is not required to
ignore facts set forth in a complaint that undermine Plaintiffs claim. Hamilton v. O’Leary, 976 F.2d
341, 343 (7th Cir. 1992). While the Rules require only notice pleading, a plaintiff may “plead himself
out of court” by alleging facts establishing a defendant is entitled to prevail on a motion to dismiss.
McCormick v. City of Chi., 230 F.3d 319, 325 (7th Cir. 2000).
IV.

ARGUMENT
A. Claims Previously Dismissed by this Court Should be Stricken.

On January 29, 2016, this Court issued a detailed ruling on the Board Defendant’s Motion
to Dismiss. Dkt. #56. Plaintiff sought leave to replead the deficient claims, and the Court granted

5

A-113

Case: l:14-cv-06340 Document #: 202 Filed: 03/19/18 Page 6 of 148 PagelD #:7042

that request in part and denied it in part. More specifically, the Court denied Plaintiff leave to re­
plead Counts VII and XV-XVIII. Dkt. #98. Hence, the Court should strike those counts and enter
an order dismissing them with prejudice.
B. Despite the Opportunity to Re-Plead, Plaintiff Failed to Plead Facts Sufficient
to Plausibly Suggest a Viable Cause of Action with Respect to Counts IX-XI.

In its order of January 29, 2016, the Court held that Plaintiffs allegations of conspiracy,
made pursuant to 42 U.S.C. §§1985(2)-(3) and 42 U.S.C. §1986, failed to state a claim by virtue
of his failure to allege “class-based animus.” Dkt. #56, p. 23. Plaintiff attempted to remedy this
deficiency by including allegations about discrimination allegedly experienced by African
American teachers employed by the Board; however, his allegations of discrimination bear no
relationship to the so-called conspiracy described by Counts IX through XI. Moreover, there is no
indication that the individual defendants who are the subjects of Counts IX-XI participated in the
alleged discriminatory practices. Plaintiffs most recent pleading runs afoul of the Court’s January
29, 2016 order in that it continues to rely upon discovery disputes occurring during the course of
his 2011 federal case. See, e.g., Dkt. #99 (j[(j[ 173, 176. Finally, the Section 1986 claims asserted
in Count XI is subject to dismissal because Plaintiff failed to assert a viable claim under §1985(2).
Dkt. #56, p. 24.
C.

Counts I, III, IV, V, IX, X, XI, XII, XIII, XIV, XIX, and XXI Should be
Dismissed Based on the Doctrine of Res Judicata.

In the SAC, Plaintiff rehashes, at times verbatim, the allegations dismissed in the four prior
lawsuits summarized above.

For example, paragraphs 21-23, 32, 34-50, and 63 of the SAC are

contained in the Lake County Case, paragraphs 24-31, 51-62, 67-69 of the SAC are part of the 2011
case, and paragraphs 70-78 of the SAC are part of Chancer)' Case 14-CH-15697. The final judgments
entered in connection with these prior complaints foreclose further litigation regarding Plaintiff s
employment with, and termination from, the Board.

6

A-114

Case: l:14-cv-06340 Document #: 202 Filed: 03/19/18 Page 7 of 148 PagelD #:7043

Pursuant to 28 U.S.C. §1738, federal courts give preclusive effect to state court judgments
whenever the court of the state from which the judgments emerged would do so. Allen v. McCurry,
449 U.S. 90, 96,101 S.Ct. 411 (1980). In Illinois, the “doctrine of res judicata [claim preclusion] provides
that a final judgment on the merits rendered by a court of competent jurisdiction bars any subsequent
actions between the same parties, or their privies, on the same cause of action. Resjudicata bars not
only what was actually decided in the first action but also whatever could have been decided.” Hudson
v. City of Chicago, 889 N.E.2d 21Q, 213 (Ill. 2008) (citation omitted). Thus, for resjudicata to apply to an
Illinois judgment, there are three basic requirements: (1) a final judgment on the merits rendered by
a court of competent jurisdiction; (2) an identity of the causes of action; and (3) an identity of parties
or their privies. Dookeran v. County of Cook, 719 F.3d 570, 575 (7th Cir. 2013).
1. Final Judgment on the Merits
There can be little doubt that the Illinois Appellate Courts have now entered final judgments
with respect to the Lake County case and both Chancery cases. The appellate court affirmed the
dismissal with prejudice entered by the Circuit Court of Lake County, and the petition to appeal to
the Illinois Supreme Court was denied. See Ex. C and Ex. D. Likewise, in Chancery Case 14-CH15697, the Illinois Appellate Court affirmed the Circuit Court’s dismissal for fading to exhaust
administrative remedies. See Ex. F. Consequently, the judgments entered in the Illinois courts are
final for purposes of resjudicata.
2. Identity of Parties
The state court judgments also satisfy the “identity of parties” requirement of resjudicata. The
Board and all of its employees acting in their official capacity qualify as “parties in privity” for purpose
of res judicata, thereby satisfying the second element of res judicata. Garcia v. Village of Mount Prospect,
360 F.3d at 636; dcari v. City of Chicago, 298 F.3d at 667. Moreover, the Lake County Case names the
Board, Ardell (a Board investigator), Brown (a Board investigator), and Sullivan (the Board’s former

7

A-115

Case: l:14-cv-06340 Document #: 202 Filed: 03/19/18 Page 8 of 148 PagelD #:7044

Inspector General). See Ex. B. A review of the SAC in the instant matter reveals that the Board is a
defendant in Count I while Sullivan is a defendant in Count III. Counts IV and V are alleged against
the Board and Sullivan. Counts IX and X is alleged against Ardell, Brown, and Sullivan. Count XI is
alleged against the Board. Count XII is alleged against the Board, Ardell, Brown, and Sullivan. Count
XIII is alleged against the Board. Count XIX is alleged against the Board, Brown, and Sullivan. Finally,
Count XXI is alleged against Claypool in his official capacity as CEO. Dkt. #99.
Chancery Case 14-CH-15697 was filed against the Board and its CEO. See Ex. E. At the time
the case was filed, Barbara Byrd-Bennett was the Board’s CEO.

Currently, the CEO is Forrest

Claypool, who Plaindff is suing in his capacity as CEO. See Dkt. #99 ^112. Thus, identity of parties
exists for Counts I, III, IV, V, IX, X, XI, XII, XIII, XIV, XIX and XXI.
3. Identity of Claims
The doctrine of res judicata bars litigants from raising claims that were, or could have been,
decided during an earlier proceeding.

Illinois adheres to the “transactional” test for determining

identity of causes of action, which provides “the assertion of different kinds of theories of relief still
constitutes a single cause of action if a single group of operative facts give rise to the assertion of
relief.” Hayes v. City of Chicago, 670 F.3d 810, 813 (7 th Cir. 2012); River Park, Inc. v. Ciy ofHighland Park,
184 U1.2d 290, 299, 703 N.E.2d 883 (1998). The operative complaint in the Lake County case was
filed on January 29, 2014 and stems from a sexual abuse investigation conducted by the Board and
the resultant consequences to Plaintiff s employment with the Board. See Ex. B. Accordingly, issues
surrounding Plaintiffs August 2013 termination and the Board’s December 2013 decision to continue
the dismissal hearing based on the alleged sexual assault as a “back pay” hearing could have, and in
fact should have, been raised in the January 2014 Verified Second Amended Complaint filed in the
Lake County Case. See-, Hayes, 670 F.3d at 813; Gairia v. Village ofMount Prospect, 360 F.3d 630, 637-8
(7th Cir. 2004).

8

A-116

Case: l:14-cv-06340 Document #: 202 Filed: 03/19/18 Page 9 of 148 PagelD #:7045

The first 155 paragraphs of Plaintiffs January 2014 Lake County complaint summarized his
version of the alleged sexual assault investigation (See Ex. B
hearing. Id.

55-156) and his on-going termination

157-165. Plaintiff alleged various Board employees conspired against him in various

ways during the investigation of the alleged sexual assault (See Id., Count I) and committed “fraudulent
concealment,” “intent to deceive,” and violated the Inspector General Statute related to the
investigation of the alleged sexual assault. See Id., Counts V, VI and VII. Plaintiff also alleged a
“Violation of Right to Privacy” against the Board and its employees alleging his privacy was violated
under Illinois law when Sullivan and another Board employee issued a subpoena for Plaintiff s private
AOL electronic mail account information. See Id., Count X.
In the instant consolidated lawsuit, Plaintiff alleges three claims stemming from the same
subpoena sent to AOL that he complained about in the Lake County Case — Count III alleging a
Fourth Amendment claim for unreasonable search and seizure; Count IV alleging a violation of Stored
Communications Act, 18 U.S.C. §2709; and Count V alleging a violation of the Stored
Communications Act, 18 U.S.C. §2701. The Circuit Court’s jurisdiction is not limited to state law
causes of action, but rather, they ‘“have inherent authority, and are thus presumptively competent, to
adjudicate claims arising under the laws of the United States.’” Haywood v. Drown, 556 U.S. 729, 735
(2009) (quoting Tafflin v. Hevitt, 493 U.S. 455, 458 (1990)). Therefore, Plaintiff could have, and should
have, brought his related federal claims with his previously filed Lake County Case. Plaintiff is now
barred under the doctrine of res judicata from bringing forth these claims in the instant case.

See

Muhammad v. Oliver, 547 F.3d 874, 876 (7th Cir. 2008) (The Seventh Circuit affirmed the dismissal of
the federal case based on the doctrine of resjudicata where the plaintiff voluntarily dismissed his state
court action and later refilled in federal court alleging federal claims from the same facts as the state
case.). Hence counts III, IV and V should be barred based on the doctrine of res judicata.

9

A-117

Case: l:14-cv-06340 Document #: 202 Filed: 03/19/18 Page 10 of 148 PagelD #:7046

Several of the claims contained in the January 29, 2014 Lake County operative complaint stem
from Board employees’ investigation of the alleged sexual assault and Plaintiff s on-going termination
hearing. In the SAC, Plaintiff alleges seven claims stemming from the same operative facts as the
alleged conspiracy, fraud and violation of 105 ILCS 5/34-13.1 counts alleged in the Lake County Case
even though in the SAC he gives his claims different headers. Specifically, Plaintiff labels his claims
in the SAC as retaliatory discharge (Count I), conspiracy to interfere with civil rights (Count IX),
conspiracy to obstruct justice (Count X), conspiracy to deny access and obstruct justice (Count XI),
concealment of evidence (Count XII), religious and race discrimination, harassment and retaliation
(Count XIII) and civil conspiracy (Count XXI). Woven throughout these claims are allegations
concerning Plaintiffs termination from the Board in August 2013 based on the “Unsatisfactory”
evaluation and the Board’s December 9, 2013 announcement to continue the ISBE dismissal hearing
as a “back pay” hearing based on the alleged sexual assault. See Dkt. #99

69, 70-76, 169, 174, 176,

183,188, 190,197, 205, 209-11, 221-242, 338, 340, 343, 347-349.
In the Lake County complaint, Plaintiff titled his claims “CPS Board of Education OIG
Furthers Conspiracy” and “Plaintiff Suspended Without Pay Pending Termination Hearing;
Defendant Brown and Other CPS Employees Manipulate and Conceal Investigative File Documents”
highlighting the alleged inappropriate, fraudulent, discriminator}?, conspiratorial and/or illegal actions
taken by Board employees. See Ex. B,

87-102; 137-166. Regardless that the Plaintiff gave his claims

different names in the SAC, the claims in the SAC are essentially identical to those dismissed with
prejudice in the Lake County Case; therefore, Counts I, IX, X, XI, XII, XIII and XXI should be
barred.
Finally, Count XIX of the SAC alleges violations of the Inspector General Statute against the
Board, Brown and Sullivan and mirrors Count VII of the Lake County case. See Ex. B
Dkt. #99

233-252;

319-327. Therefore, it should be barred on the basis of resjudicata.

10

A-118

Case: l:14-cv-06340 Document #: 202 Filed: 03/19/18 Page 11 of 148 PagelD #:7047

Chancery Case 14-CH-15697 sought injunctive relief for the Board’s and CEO’s alleged
misuse of ISBE’s teacher dismissal process delineated in 105 ILCS 5/34-85 when the Board and CEO
decided to change PlaindfPs dismissal hearing into one for “back pay.” See Ex. E. These allegations
are indistinguishable from the allegations contained in Count XIV of the SAC. Dkt. #99

245-70.

Accordingly, Count XIV should be barred on the basis of res judicata.
D.

Plaintiff Previously Released Board Defendants from Liability for the Claims
in Counts VI, XIII5, XIV, and XX.

As previously noted above, Plaintiff signed a settlement agreement in the 2011 federal case
before Judge Guzman. Because a settlement agreement is a contract, it is governed by principles of
contract law, and the intent of the parties to that settlement is determined by the language of the
settlement itself. M.H. Dettick Co. v Century Inden. Co., 299 Ill.App.3d 620, 623, 701 N.E.2d 156 (1st
Dist. 1998). If both parties are “aware of an additional claim at the time of signing the release, ... the
general release language of the agreement will be given effect to release that claim as well.” Gavey v.
McMahon & E/liott, 283 Ill.App.3d 484, 670 N.E.2d 822, 825 (1996). However, when parties use
specific language in addition to words of general release in a release, courts limit the more general
words to the particular claim arising out of the more specific reference. See Carona v. Illinois Central Gulf
KK Co., 203 IU.App.3d 947, 561 N.E.2d 239, 242 (1990).
Relevant here is the language of the 2011 federal case settlement agreement, in which Plaintiff
“releasefd] and forever dischargefd] .... all claims, actions, disputes, and suits that he had or has or
may have in the future against the Board and any of the Board’s future, current or former members,
officers, agents and employees, under local, state, or federal law, which are known as of the date the
Agreement is executed except for the following claims contained in Thompson’s other legal matters
currently pending against the Board: ... 14 C 6340, ... 13 C 879, ... and ... 14 CH 15697, ....” Ex. A

5 Board Defendants believe Count XIII alleging religious and race discrimination is barred by res judicata, but if the
Court disagrees, Count XIII has been released by Plaintiff through his settlement in the 2011 Federal Case.

11

A-119

Case: l:14-cv-06340 Document#: 202 Filed: 03/19/18 Page 12 of 148 PagelD #:7048

9 (emphasis added). The two phrases at issue here are “which are known as of the date of the
Agreement is executed” and “currently pending” in one of the three suits referenced. Plaintiff clearly
knew on January 26, 2015 that he had been terminated as a result of the “Unsatisfactory” rating and
the Board was continuing with the dismissal hearing based on the alleged sexual assault. Consequently,
based on the release included in the 2011 federal case settlement agreement any claims based on those
sets of facts which were not currently pending in the three cited lawsuits were discharged by Plaintiff
and cannot be raised in the instant matter.
Counts VI6 (against Evans and Krieger) and Count XX (against the Board and Claypool) allege
intentional infliction of emotional distress based on the issuance of the “Unsadsfactory” evaluation
rating and the continued termination hearing based on the investigation into the alleged sexual assault.
On January 26, 2015, none of the three pending lawsuits contained a claim for intentional infliction
of emotional distress. Accordingly, Counts VI and XX should be dismissed.
Counts XIII and XIV again are based on the same set of facts surrounding the investigation
of the alleged sexual assault and the continuation of the termination hearing as a “back pay” hearing,
which were known to Plaintiff at the time he executed the 2011 federal case settlement agreement. At
the time of execution of the settlement agreement, neither the instant matter, the Lake County Case
nor Chancery Case 14-CH-15697 specifically alleged a religious or racial discrimination, retaliation or
harassment claim (Count XIII of SAC) or a due process claim (Count XIV of SAC). Plaintiff released
these claims when he executed the 2011 federal case settlement agreement and is barred from raising
them here.

6 At the time the 2011 federal case settlement agreement was executed, the pending Count VI in the instant
matter alleged negligent infliction of emotional distress against Evans and Krieger and was subsequendy
dismissed by the Court.

12

A-120

Case: l:14-cv-06340 Document #: 202 Filed: 03/19/18 Page 13 of 148 PagelD #:7049

E.

SAC Does Not Comply with Rule 8, Thus, Does Not State Viable Causes
of Action and Should be Dismissed.

Complaints must provide more than labels and conclusions, formulaic recitations of the
elements of causes of action, and facts that do not raise a right to relief above the speculative level. Bell
A-tl. Corp., 550 U.S. at 555. In considering the plaintiffs factual allegations, courts should not accept
as adequate abstract recitations of the elements of a cause of action or conclusory legal statements.
Brooks v. Ross, 578 F.3d 574, 581 (7th Cir. 2009).

“Courts have discouraged this type of shotgun

pleading where each count incorporate[s] by reference all preceding paragraphs and counts of the
complaint notwithstanding that many of the facts alleged [are] not material to the claim, or cause of
action, appearing in a count’s heading.” CustomGuide v. CareerBuilder, IJLC, 813 F. Supp. 2d 990, 1002
(N.D. Ill. 2011) (quoting Thompson v. Relationserve Media, Inc., 610 F.3d 628, 650 n.22 (11th Cir. 2010));
see also, e.g., Stanard v. Njgen, 658 F.3d 792, 800 (7th Cir. 2011) (A federal court is not obligated to sift
through a complaint to extract some merit when the attorney who drafted it has failed to do so
himself.) Plaintiff s “shotgun” pleading makes it virtually impossible to know which allegations of fact
are intended to support which claims for relief.
Plaintiff asserts a barrage of facts in his first 79 paragraphs which are realleged in each of the
23 subsequent counts. Many of the facts in these paragraphs are taken verbatim from claims which
are barred by res judicata and irrelevant to any of the claims that might survive a motion to dismiss.
Additionally, Plaintiff continues to include several paragraphs referencing the issuance of the
“Unsatisfactory rating” (e.g. Dkt. #99 1H|82, 89, 92-97, 96, 136-37, and 141) which this Court has ruled
is precluded by the 2011 federal case. Dkt. #56 at 13. Moreover, these paragraphs are irrelevant to
the counts in which they are included. Hence, the SAC should be dismissed in its entirety for fading
to comply with Rule 8.

13

A-121

Case: l:14-cv-06340 Document #: 202 Filed: 03/19/18 Page 14 of 148 PagelD #:7050

F.

The Court Lacks Subject Matter Jurisdiction Because the Plaintiff Failed to
Exhaust Administrative Remedies so Counts II and XIV Should be
Dismissed.

Counts II and XIV are in essence due process claims. In dismissing Plaintiff s Chancery Case
14-CH-15697, which mirrors Count XIV, the Illinois Appellate Court held that Plaintiff needed to
exhaust his administrative remedies through the ISBE hearing process before coming to court. See
Ex. F. This Court also noted that “if Thompson does have an ongoing termination hearing, his due
process claim is likely premature.” Dkt. # 56 at 11; See also, Carmody v. Bd. ofTrs. ofUniv. of III., 747
F.3d 470, 479 (7th Cir. 2014). The Court, however, noted that Plaintiff had not alleged in his previous
complaint that he has an ongoing termination hearing so did not dismiss the counts at that time. Dkt.
# 56 at 11. In the SAC, Plaintiff repeatedly alleges that the Board is continuing his termination hearing
as a “back pay” hearing. Dkt. #99 at fflj 167, 240, 241, 250, 254, 262, 263, and 347. Consequently,
Counts II and XIV are premature and cannot be pursued until the dismissal hearing before the ISBE
hearing officer concludes.
G.

Count VIII Should be Dismissed as to Claypool and Winckler.

Count VIII is asserted against the Board, Claypool as CEO and Winckler as Chief Talent
Officer seeking declaratory and injunction relief regarding materials in Plaintiff s personnel file. Dkt.
#99 ^ 151-68.

Count VIII against Claypool and Winckler is redundant of the same claim against

the Board, and therefore, should be dismissed as to Claypool and Winckler.

See Kiser v. Naperville

Cmty. Unit, 227 F.Supp.2d 954, 960 (N.D.Ill.2002) (dismissing claims against defendants sued in their
official capacity; holding that when the entity itself is sued, naming individual defendants in their
official capacities “serves no legitimate purpose”); A.dmiral Theatre v. City of Chi., 832 F.Supp. 1195,
1200 (N.D.U1.1993) (holding that “[wjhere the unit of local government is sued as well, the suit against
the officials is redundant and should therefore be dismissed”); see also Jungels v. Tierce, 825 F.2d 1127,

14

A-122

Case: l:14-cv-06340 Document#: 202 Filed: 03/19/18 Page 15 of 148 PagelD #:7051

1129 (7th Cir.1987) (citing Graham and stating that where plaintiff also sued the city, “nothing was
added by suing the mayor in his official capacity”).
IV.

CONCLUSION
For the reasons stated above, Board Defendants respectfully request the Court dismiss

Plaintiff s Second Amended Complaint in its entirety.
Respectfully submitted,
RONALD L. MARMER
BOARD OF EDUCATION OF CITY OF CHICAGO
By:

s! Kathleen M. Gibbons
Kathleen M. Gibbons
Senior Assistant General Counsel
Sarah K. Quinn
Assistant General Counsel
Board of Education for the City of Chicago
1 North Dearborn Street, Suite 900
Chicago, Illinois 60602
(773) 553-1700

CERTIFICATE OF SERVICE
I, Kathleen M. Gibbons, an attorney do hereby certify that I caused the attached Board
Defendants’ Motion to Dismiss Plaintiff Second Amended Complaint and Supporting
Memorandum to be served uponpro-se Plaintiff via CM-ECF E-Filing pursuant to General Order on
Electronic Case Filing, Section X(C) on this 264h day of May 2017.
s/ Kathleen M. Gibbons
Kathleen M. Gibbons
Senior Assistant General Counsel
Board of Education for the City of Chicago
1 North Dearborn Street, Suite 900
Chicago, Illinois 60602
(773) 553-1700

15

A-123

Case: l:14-cv-06340 Document #: 201 Filed: 03/19/18 Page 1 of 13 PagelD #:7024

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
DR. MARK THOMPSON,
Plaintiff,

)
)
)

BOARD OF EDUCATION CITY OF
)
CHICAGO, et al
)
Defendants. )

Case No. 14 cv 6340
(consolidated with 14 cv 6838 and 14-7575)
Honorable John Z. Lee
Magistrate Judge Jeffrey T. Gilbert

BOARD DEFENDANTS' RESPONSE IN OPPOSITION TO PLAINTIFF'S
MOTION FOR LEAVE TO FILE SECOND AMENDED COMPLAINT
Defendants Harold Ardell ("Ardell"), Linda Brown ("Brown"), Reginald Evans
("Evans"), Thomas Krieger ("Krieger"), James Sullivan ("Sullivan"), Alicia Winckler
("Winckler") and the Board of Education of the City of Chicago ("Board") (collectively
"Board Defendants"), through one of their attorneys, Kathleen M. Gibbons, in response
to Plaintiff's Motion for Leave to File a Second Amended Complaint ("SAC") (Dkt. #93),
states as follows:
I.

INTRODUCTION
In his proposed SAC, Plaintiff has named seven new defendants - Forrest

Claypool, Claudia P. Welke,

I, Dan Nielsen, the Illinois State

Board of Education ("ISBE") and Northshore University Healthsystem. (Dkt. # 93-1 at 1)
Plaintiff has also added 11 new claims. Id.
A. Previously Filed Lawsuits
In addition to the three lawsuits compromising the instant matter, the Plaintiff
filed three other lawsuits against the Board and its employees.

A-206

Case: l:14-cv-06340 Document #: 201 Filed: 03/19/18 Page 2 of 13 PagelD #:7025

i. 2011 Federal Case
The first lawsuit Plaintiff filed against the Board, Evans, and other Board
employees1 was Thompson v. Board of Education et al., Case No. ll-cv-1712, filed in the
United States District Court for the Northern District of Illinois, Eastern Division, in front
of the Elonorable Ronald A. Guzman ("the 2011 Federal Case"). The operative complaint
in the 2011 Federal Case is Plaintiff's Fifth Amended Complaint filed in May 2013, which
the Board Defendants answered on September 13, 2013. See Fifth Amended Complaint
in the 2011 Federal Case, Dkt. # 32-1, Exh. A. In granting summary judgment, Judge
Guzman held that the Board and Evans did not retaliate against Plaintiff by giving him
an "Unsatisfactory" evaluation for filing a discrimination charge.

See Guzman

Memorandum Opinion and Order, Dkt. #32-2, Exh. B.
ii. Lake County Case
Plaintiffs second lawsuit against the Board, Ardell, Brown, Evans, Sullivan and
other Board employees was Thompson v. Board of Education Township High School District
113, et al., Case No. 13 L 8792, filed in the Circuit Court of the Nineteenth Judicial District,
Lake County, Illinois, in front of the Honorable Jorge L. Ortiz ("the Lake County Case").
The operative complaint in the Lake County Case is Plaintiff's Verified Second Amended
Complaint at Law. See Second Amended Complaint in the Lake County Case, attached
hereto as Dkt. # 32-4, Exh. D. Multiple motions to dismiss were granted, and a full and

1 Although Plaintiff's Fourth Amended Complaint in the 2011 Federal Case named Harold Ardell,
Linda Brown and James Sullivan, among other Board employees and included claims related to
the investigation of alleged sexual assault. Plaintiff voluntarily dismissed those claims when he
filed his Fifth Amended Complaint. See 2011 Federal Case, Dkt. # 160 and 178.
were also defendants in the Lake County case.
.2

A-207

Case: l:14-cv-06340 Document#: 201 Filed: 03/19/18 Page 3 of 13 PagelD #:7026

final order of dismissal was entered on February 5, 2015, which Plaintiff appealed. On
March 15, 2016, the Illinois Appellate Court, Second District, affirmed the Circuit Court's
dismissal with prejudice. See Appellate Court of Illinois, March 15, 2016 Order Filed No.
2-15-0226, attached hereto as Exh. A.

Plaintiff's Petition for Appeal to the Illinois

Supreme Court was denied. See Petition for Appeal Denial, attached hereto as Exh. B.
iii. Chancery Cases
Plaintiffs third lawsuit against the Board and its Chief Executive Officer ("CEO")3
was Thompson v. Board of Education City of Chicago and Dr. Barbara Byrd-Bennett, 14-CH15697. The Verified Complaint for Declaratory Judgment and Injunctive Relief alleges
the Board is misusing the ISBE dismissal hearing to resolve "back pay" issues of a prior
dismissed employee. See Verified Complaint, attached hereto as Exh. C. The Circuit
Court dismissed Plaintiff's complaint, and the dismissal was affirmed on appeal on June
10, 2016. See 2016 IL App (1st) 150680 dated June 10, 2016, attached hereto as Exh. D.
The Plaintiff also filed a claim against

I, Claudia Welke, Northshore

University Healthsystem and one other individual in Thompson v. N.J., et al., 13-CIT-26625,
in which he sought access to

I' mental health records.

The Circuit Court

dismissed Plaintiff's claim, and the Illinois Appellate Court affirmed Plaintiff is not
entitled to

|' mental health records. See 2016 IL App (1st) 142918 dated April 29,

2016, attached hereto as Exh. E.

3 At the time the lawsuit was filed Barbara Byrd-Bennett was CEO of Chicago Public Schools. The
current CEO is Forrest Claypool who is a newly named defendant in his proposed SAC in the
instant case.
3

A-208

Case: l:14-cv-06340 Document #: 201 Filed: 03/19/18 Page 4 of 13 PagelD #:7027

B. The Instant Consolidated Lawsuit
Plaintiff filed three additional federal lawsuits against the Board Defendants
which have been consolidated into the instant matter. Board Defendant's Motion to
Dismiss Plaintiff's 12 count Verified Amended Complaint ("VAC") was granted in part
and denied in part. (Dkt. # 56) In its order, the Court noted that the Board Defendants'
preclusion argument regarding the Lake County case was premature because the case
was still on appeal. Id. at 4-6. The Court granted Board Defendants' motion as to the
following counts: VI - negligent infliction of emotional distress against the Board, Evans
and Krieger; VII - negligent supervision against the Board; VIII - violations of the
Personnel Record Review Act against the Board and Winckler; IX - conspiracy to interfere
with civil rights in violation of 42 U.S.C. § 1985(2)(3) - denial of access and obstruction of
justice against Ardell, Brown and Sullivan; X - conspiracy to interfere with civil rights in
violation of 42 U.S.C. § 1986 - denial of access and obstruction of justice against the Board;
and XI - concealment of evidence in violation of 42 U.S.C. § 1983 against Ardell, Board,
Brown and Sullivan. Id. at 17-24.
II.

LEAVE TO FILE SECOND AMENDED COMPLAINT SHOULD BE
DENIED
Plaintiff is attempting to resurrect claims he raised in the various lawsuits filed in

other jurisdictions in his proposed SAC and to circumvent final orders in those cases. In
fact, Plaintiff rehashes, at times verbatim, many of the allegations dismissed in these four
prior lawsuits. For example, paragraphs 21-23,32,34-50, and 63 are contained in the Lake
County Case, paragraphs 24-31, 51-62, 67-69 are part of the 2011 case, and paragraphs 70-

4

A-209

Case: l:14-cv-06340 Document #: 201 Filed: 03/19/18 Page 5 of 13 PagelD #:7028

78 are part of Chancery Case 14-CH-15697. Accordingly, Plaintiff should be denied leave
to file his proposed SAC.
A. Standard of Review
Federal Rule of Civil Procedure 15(a) provides that if a party is not entitled to
amend a pleading as a matter of course, it may amend "with the opposing party's written
consent or the court's leave."

The court "should freely give leave when justice so

requires." Fed.R.Civ.P. 15(a)(2). "Although the rule reflects a liberal attitude towards the
amendment of pleadings, courts in their sound discretion may deny a proposed
amendment if the moving party has unduly delayed in filing the motion, if the opposing
party would suffer undue prejudice, or if the pleading is futile." Campania Mgmt. Co. v.
Rooks, Pitts & Poust, 290 F.3d 843, 848-49 (7th Cir. 2002). "[T]he decision to grant or deny
a motion to file an amended pleading is a matter purely within the sound discretion of
the district court." Brunt v. Serv. Employees Int'l Union, 284 F.3d 715, 720 (7th Cir. 2002).
The Seventh Circuit will overturn a denial of a motion for leave to amend a complaint
only if the district court "abused its discretion by refusing to grant the leave without any
justifying reason." Id.; see also Int'l Inc. v. also J.D. Marshall Redstart, Inc., 935 F.2d 815,
819 (7th Cir. 1991).
B. Argument
I.

Counts III, IV, V, VII, IX, X, XI, XII, XIX, XXII and XXIII Should be
Dismissed Based on the Doctrines of Res Judicata and Collateral
Estoppel.

Count VII of the Verified Amended Complaint - negligent supervision brought
against the Board - was dismissed by this Court on the basis of claim preclusion because

5

A-210

Case: l:14-cv-06340 Document #: 201 Filed: 03/19/18 Page 6 of 13 PagelD #:7029

Plaintiff should have brought it in his 2011 Federal Case. (Dkt. # 56 at 19-20). In the
proposed SAC, Plaintiff repleads this claim.

(Dkt. # 93-1 at

142-150).

Plaintiff is

precluded from bringing a negligent supervision claim against the Board concerning his
"Unsatisfactory" evaluation and any alleged falsification of his "DS2" file.

Therefore,

Count VII should not be included in a SAC.
This Court addressed the fact the Lake County Case would have a preclusive effect
on many of the Plaintiffs claims if the Appellate Court affirmed the Circuit Court's
dismissal with prejudice. (Dkt. # 56 at 4-6)

Because the Appellate Court affirmed the

Circuit Court's dismissal of prejudice and the petition to appeal to the Illinois Supreme
Court has been denied (Exh. A and B), Plaintiff is precluded from bringing counts III, IV,
V, IX, X, XI, XII, XIX and XXII.
Res judicata is often referred to as "claim preclusion" and collateral estoppel as
"issue preclusion." A party asserting res judicata must establish: " (1) identity of the claim,
(2) identity of parties, which includes those in 'privity' with the original parties, and (3)
a final judgment on the merits." Ross ex re. Ross v. Bd. ofEduc. ofTwp. High Sch. Dist. 211,
486 F.3d 279, 283 (7th Cir. 2007). "In order to decide whether the two cases involve the
same claim, we ask whether they arise out of the same transaction. If they did, whether
or not they were actually raised in the earlier lawsuit, they may not be asserted in the
second or subsequent proceeding." Id. "Under collateral estoppel, once a court has
decided an issue of fact or law necessary to its judgment, that decision may preclude
relitigation of the issue in a suit on a difference cause of action involving a party to the
first case." Allen v. McCurry, 449 U.S. 90, 94 (1980).

6

A-211

Case: l:14-cv-06340 Document #: 201 Filed: 03/19/18 Page 7 of 13 PagelD #:7030

A. Lake County Case
1. Counts III, TV, V, IX, X and XII are Barred by the
Doctrine of Res Judicata.
a. Final judgment on the merits
The Lake County case stems from accusations made in 2011 that Plaintiff sexually
assaulted a teenaged girl. (See Dkt. # 32-4, Exh. D). Plaintiff alleged a "Violation of Right
to Privacy" against the Board and its employees alleging his privacy was violated under
Illinois law when Sullivan (former Board Inspector General) and another Board employee
issued a subpoena for Plaintiffs private AOL electronic mail account information. (See
Id., Count X).

Plaintiff further alleges various Board employees conspired against

Plaintiff in various ways during the investigation of the alleged sexual assault (See Id.,
Count I) and committed "fraudulent concealment," "intent to deceive," and violated the
Inspector General Statute related to the investigation of the alleged sexual assault. (See
Id., Counts V, VI and VII).
b. Identity o f parties
Plaintiff filed both the Lake County Case and the instant consolidated lawsuit
against the Board and various Board employees. The Lake County Case names the Board,
Ardell (a Board law department investigator), Brown (a Board Office of Inspector General
investigator), and Sullivan. (See Dkt. # 32-4, Exh. D). Count III of the SAC is alleged
against Sullivan. Counts IV and V of the SAC is alleged against the Board and Sullivan.
Count IX and X of the SAC is alleged against Ardell, Brown, and Sullivan. Count XI is
alleged against the Board. Count XII is alleged against the Board, Ardell, Brown, and

7

A-212

Case: l:14-cv-06340 Document #: 201 Filed: 03/19/18 Page 8 of 13 PagelD #:7031

Sullivan. Count XIX is alleged against the Board, Brown, and Sullivan. Thus, there exists
identity of parties for Counts III, IV, V, IX, X, XI, XII, and XIX.
c. Identity of Claims
a. Counts III, IV and V of the SAC
In the instant consolidated lawsuit, Plaintiff alleges three claims stemming from
the same subpoena sent to AOL that he complained about in the Lake County Case Count III alleging a Fourth Amendment claim for unreasonable search and seizure;
Count IV alleging a violation of Stored Communications Act, 18 U.S.C. § 2709; and Count
V alleging a violation of the Stored Communications Act, 18 U.S.C. § 2701. The Circuit
Courts' jurisdiction is not limited to state law causes of action, but rather, they "'have
inherent authority, and are thus presumptively competent, to adjudicate claims arising
under the laws of the United States.'" Haywood v. Drown, 556 U.S. 729, 735 (2009) (quoting
Tafflin v. Levitt, 493 U.S. 455, 458 (1990)). Plaintiff could have, and should have, brought
his related federal claims with his previously filed Lake County Case. Plaintiff is now
barred under the doctrine of res judicata from bringing forth these claims in the instant
case. See Muhammad v. Oliver, 547 F.3d 874, 876 (7th Cir. 2008) (The Seventh Circuit
affirmed the dismissal of the federal case based on the doctrine of res judicata where the
plaintiff voluntarily dismissed his state court action and later refilled in federal court
alleging federal claims from the same facts as the state case.). Hence counts III, IV and V
should be barred based on the doctrine of res judicata.

8

A-213

Case: l:14-cv-06340 Document #: 201 Filed: 03/19/18 Page 9 of 13 PagelD #:7032

b. Counts IX, X, XI and XII
Plaintiff also alleges four claims stemming from the same operative facts as the alleged
conspiracy, fraud and violation of 105 ILCS 5/34-13.1 claims alleged in the Lake County
Case - Count IX alleging 42 U.S.C. § 1985(2) conspiracy to interfere with civil rights;
Count X alleging 42 U.S.C. § 1985(3) conspiracy to obstruct justice; Count XI alleging 42
U.S.C. § 1986 conspiracy to deny access and obstruct justice; and Count XII alleging 42
U.S.C. § 1983 concealment of evidence.
Several of the claims contained in the Lake County Case stem from Board employees'
investigation of the alleged sexual assault. Plaintiff includes several assertions under the
headings titled "CPS Board of Education OIG Furthers Conspiracy" and "Plaintiff
Suspended Without Pay Pending Termination Hearing; Defendant Brown and Other CPS
Employees Manipulate and Conceal Investigative File Documents" highlighting the
alleged inappropriate, fraudulent, conspiratorial and/or illegal actions taken by Board
employees. (Dkt. # 32-4, Exh. D,

87-102; 137-166). Because the claims in the proposed

SAC are essentially identical to those dismissed with prejudice in the Lake County Case,
the Counts IX, X, XI and XII should be barred.
c. Count XIX
Count XIX alleges violations of the Inspector General Statute against the Board,
Brown and Sullivan and mirrors Count VII of the Lake County case. (Dkt. # 32-4, Exh.
D, T|233-252). Therefore, it should be barred on the basis of res judicata.
Plaintiff now seeks a second bite at the apple by recasting the same claims as
federal causes of action. Plaintiff could have, and should have, brought these related

9

A-214

Case: l:14-cv-06340 Document #: 201 Filed: 03/19/18 Page 10 of 13 PagelD #:7033

claims with his previously filed Lake County Case. The Illinois Appellate Court affirmed
the dismissal with prejudice of the Lake County Case. (See Exh. A). Accordingly, Plaintiff
is now barred under the doctrine of res judicata from bringing forth these claims in the
instant case. See Muhammad, 547 F.3d at 876.
B. Chancery Case #13-CH-26625
Count XXIII of the instant matter seeks disclosure of "Jane Doe's" mental health
records. (Dkt. # 93-1 at ^361-367).

Plaintiff filed Chancery case #13-CPf-26625 in an

attempt to get "Jane Doe's" mental health records. (See Exh. E). Defendants in that case
|, Claudia Welke, and Northshore University Healthsystem, all named

were

defendants in Plaintiff's proposed SAC. The Illinois Appellate Court affirmed the Circuit
Court's dismissal of Plaintiff's complaint and held he is not entitled to "Jane Doe's"
mental health records. (See Exh. E at 27). Plaintiff is attempting an end-run around the
Appellate Court's final decision that Plaintiff is not entitled to "Jane Doe's" confidential
mental health records. Therefore, this count is barred under the doctrine of res judicata.
II.

Plaintiff Fails to State Causes of Action in Counts II, XII, XV, XVI,
XVII, XVIII, XXI and XXII.

If Plaintiff is allowed to file his proposed SAC, Board Defendants will file a Motion
to Dismiss pursuant to Rule 12(b)(6). To survive a motion to dismiss pursuant to Federal
Rule of Civil Procedure 12(b)(6), "a complaint must contain sufficient factual matter,
accepted as true, to 'state a claim to relief that is plausible on its face.'" Bell Ail. Corp. v.
Twombly, 550 U.S. 544, 570 (2007). A complaint should be dismissed if it appears clear
that "no relief could be granted under any set of facts that could be proved consistent

10

A-215

Case: l:14-cv-06340 Document #: 201 Filed: 03/19/18 Page 11 of 13 PagelD #:7034

with the allegations." Ledford v. Sullivan, 105 F.3d 354, 357 (7th Cir. 1997). In deciding a
motion to dismiss, the court must treat all well-pleaded factual allegations in the
complaint as true and must draw all reasonable inferences from those allegations in the
plaintiff's favor. Thompson v. Illinois Dep't of Profl Regulation, 300 F.3d 750, 753 (7th Cir.
2002).
A. Plaintiff Failed to Exhaust Administrative Remedies (Counts
II, XII, and XXI).
'S'?
Exhaustion of administrative remedies is a basic tenet of Illinois law. The law is
clear that "[w]hen an employee's claim is based upon breach of the collective bargaining
agreement, that employee is bound by the terms of that agreement which governs the
manner in which contractual rights may be enforced. 'For this reason, it is settled that
the employee must at least attempt to exhaust exclusive grievance and arbitration
procedure established by the bargaining agreement.' An employee must afford the union
the opportunity to act on his behalf." Zelenka v. City of Chicago, 152 Ill. App. 3d 706, 713
(1st Dist. 1987) (affirming dismissal of complaint) (citing Vaca v. Sipes, 386 U.S. 171,184
(1967) and Republic Steel v. Maddox, 379 U.S. 650, 653 (1965)). Further where a grievant
has filed a grievance, he must allege that his union breached its duty of fair
representation, another predicate to successfully alleging that an employer breached a
collective bargaining agreement. Cosentino v. Price, 136 Ill. App. 3d 49Q, 495 (1st Dist.
1985) (affirming dismissal of complaint).
Counts II, XIV and XXI are in essence due process claims. This Court noted that
"if Thompson does have an ongoing termination hearing, his due process claim is likely

11

A-216

Case: l:14-cv-06340 Document#: 201 Filed: 03/19/18 Page 12 of 13 PagelD #:7035

premature." (Dkt. # 56 at 11). However, the Court noted, Plaintiff had not alleged that
he has an ongoing termination hearing. Id. In the proposed SAC, Plaintiff has corrected
this "error" and repeatedly alleges that the Board is continuing his termination hearing.
(Dkt. # 93-1 at Til] 167, 240, 241, 250, 254,262, 263, and 347). Consequently, Counts II, XIV,
and XXI are premature and cannot be pursued until the dismissal hearing before the ISBE
hearing officer concludes.
B. Plaintiff Fails to State a Recognizable Cause of Action in
Counts XV, XVI, XVII, and XVIII.
Counts XV, XVI, XVII, and XVIII involve allegations surrounding the Department
of Child and Family Services' ("DCFS") investigation into the alleged sexual assault and
its respective report of that investigation. (Dkt. # 93-1 at

271-318). Plaintiff appears to

be relying upon the Illinois Child Reporting Act, 325ILCS 5/1 et seq. to bring these claims.
First, the Illinois Abused and Neglected Child Reporting Act does not apply to Plaintiff.
325 ILCS 5/2. Moreover, the Act does not allow for a private right of action for the alleged
types of violations cited by Plaintiff. Id. Accordingly, Counts XV through XVIII should
not be permitted in a SAC.
III. CONCLUSION
For the reasons stated above, Board Defendants respectfully request the Court
deny Plaintiff leave to file his proposed Second Amended Complaint.
Respectfully submitted,
RONALD L. MARMER
BOARD OF EDUCATION OF CITY OF CHICAGO
By:

s/ Kathleen M. Gibbons

12

A-217

Case: l:14-cv-06340 Document #: 201 Filed: 03/19/18 Page 13 of 13 PagelD #:7036

Kathleen M. Gibbons
Senior Assistant General Counsel
Sarah K. Quinn
Assistant General Counsel
Board of Education for the City of Chicago
1 North Dearborn Street, Suite 900
Chicago, Illinois 60602
(773) 553-1700

CERTIFICATE OF SERVICE
I, Kathleen M. Gibbons, an attorney do hereby certify that I caused the attached
Board Defendants' Response in Opposition to Plaintiff Filing a Second Amended
Complaint to be served upon pro-se Plaintiff via CM-ECF E-Filing pursuant to General
Order on Electronic Case Filing, Section X(C) on this 144h day of February 2017.
s/Kathleen M. Gibbons
Kathleen M. Gibbons
Senior Assistant General Counsel
Board of Education for the City of Chicago
1 North Dearborn Street, Suite 900
Chicago, Illinois 60602
(773) 553-1700

13

A-218

IN THE CIRCUIT COURT OF THE NINETEENTH JUDICIAL CIRCUIT
LAKE COUNTY, ILLINOIS
%

DR. MARK THOMPSON,

\

stsc*

Plaintiff,
Case No. 13 L 879

vs.

O

BOARD OF EDUCATION TOWNSHIP
HIGH SCHOOL DISTRICT 113, BOARD
OF EDUCATION CITY OF CHICAGO,
VILLAGE OF DEERFIELD, HAROLD
ARDELL, LINDA BROWN, REGINALD
EVANS, AUDRIS GRIFFITH,

Honorable Jorge L. Ortiz

Jury Trial Demanded
STEPHANIE LOGASCIO,
JAMES SULLIVAN, and ED WONG III,
Defendants.
PLAINTIFF’S SECOND AMENDED MOTION FOR LEAVE OF COURT TO EXTEND
TIME TO FILE TITLE VII RIGHT TO SUE COUNT
NOW COMES the Plaintiff, Dr. Mark Thompson, for his Second Amended Motion for
Leave of Court to Extend Time to File Title VII Right to Sue Count.
After Plaintiff was terminated in his employment oh August 16,2013 from Defendant
CPS, his suspension without pay relating to the issues in this case no longer remained in effect.
Plaintiff filed an EEOC complaint within 300 days in April 2014 and received a Right to Sue
letter on May 29, 2014, with the final day to file a complaint on August 26,2014. It is Plaintiff s
understanding that this particular civil rights count must be filed with this state court since a
related complaint has already been filed in this court and there was a previous agreement with
Defendant CPS to separate this case from Plaintiff’s current federal case.
Due to numerous delays in this case, and the fact that pending motions to dismiss will not
be addressed until August 28, 2014, Plaintiff has no choice but to file for leave of court to extend
1

A-272

the time to file his related Title VII count to the time that the Court will instruct his Third
Amended Complai nt to be filed. Otherwise, Plaintiff would have to amend the complaint
immediately or file a completely new lawsuit involving the same subject matter.
Unquestionably, state courts are allowed to hear Title VII complaints (Yellow Freight
System, Inc. v. Donnelly, 494 U.S. 820 (1990), No. 89-431) (Exhibit A). Thus, it is in the
jurisdiction of this Honorable court to grant Plaintiff’s motion for an extension of time. Further,
prior to this case becoming a spin-off of Plaintiff’s federal case 11 -cv-Ol 712, scheduled for trial
on November 17, 2014, the case was originally filed in Cook County Circuit Court basedon
Plaintiff s first Right to Sue letter and amended in Cook County Circuit Court based on a second
Right to Sue letter before the case was removed to iederal court. Previously in federal court,
Plaintiff filed a motion foran extension of time past the Right to Sue deadline (Exhibit B) that
was granted by the Court Without argument despite far less persuasive reasons (Exhibit C).
WHEREFORE, Plaintiff r&pectfully requests that this Court grants Plaintiff leave of
Court to file his related Title VII count after the August 26, 2014 deadline to the date his Third
Amended Complaint must be filed. Alternatively, Plaintiff seeks to file Third Amended
Complaint immediately.
Respectfully submitted,

Mark ThompsonJ
Plaintiff, Pro Se
P.O. Box 8878
Champaign, IL 61874
217-480-6256
drmarkthompson@aol.com
Dated: August 15,2014

2

A-273

IN THE CIRCUIT COURT OF THE NINETEETH JUDICIAL CIRCUIT
LAKE COUNTY, ILLINOIS
Dr, Mark Thompson
Plaintiff,
vs.

i

BOARD OF EDUCATION
OF THE CITY OF CHICAGO, a Body Politic
and Corporate, Linda Brown, James
Sullivan et al.
Defendants

)
)
)
)
)
)
)

)
)
)
)

No. 13 L 8

|: H- MJG 2U8H

li

BOARD DEFENDANTS’ RESPONSE TO PLAINTIFF’S SECOND AMENDED
MOTION FOR LEAVE OF COURT TO EXTEND TIME TO FILE TITLE VII
RIGHT TO SUE COUNT
Defendants Board of Education of the City of Chicago (“the Board”), Harold Ardell,
Linda Brown, Reginald Evans, James Sullivan and Edward Wong III (collectively referred to as
“Board Defendants”), through their counsel, respond as follows to Plaintiffs Second Amended
Motion for Leave of Court to Extend Time to File Title VII Right to Sue Count (“Plaintiffs
:

motion”):
INTRODUCTION
Plaintiffs motion asks this Honorable Court to extend the statutory period of time to file
his Title VII claim following the issuance of an Equal Employment Opportunity Commission
(“EEOC”) Notice of Right to Sue letter. Plaintiffs motion is moot. On August 18, 2014,
Plaintiff filed a Complaint in the Northern District of Illinois where he alleges that the Board and
certain Board employees violated Title VII of the Civil Rights Act of 1966. A copy of his
Complaint is attached as Exhibit 1. Plaintiffs motion must be denied because this Court does not

1

A-274

have the authority to extend the statutory period of limitations, and Plaintiff cannot establish that
the doctrine of equitable tolling would excuse tardy filing of his Title VII claim.
ARGUMENT
l

I. This Court does not have authority to extend the filing deadline.
Plaintiff indicates that he wishes to further amend his complaint to add a Title VII claim
against the Board stemming from a Charge of Discrimination he filed in the EEOC on April 4,

!

;

2014 (“the EEOC Charge”). The EEOC Charge states in its entirety:
I began my employment with Respondent [Board of Education of the City of
Chicago] in or around January 2008 as a Physical Education Teacher. I was
transferred to U.S. History, and I filed a charge of discrimination. Subsequently,
after filing other charges of discrimination and a lawsuit1,1 was discharged.
I believe that I have been discriminated against in retaliation for engaging in
protected activity, in violation of Title VII of the Civil Rights Act of 1964, as
amended.
See EEOC Charge, attached hereto as Exhibit 2. Plaintiff represents that he received a Notice of
Right to Sue letter (dated May 15, 2014) on May 29, 2014. See Notice of Right to Sue letter,
attached nereto as Exhibit 3.
Title VII requires that a plaintiff file a charge of discrimination with the EEOC before
filing a lawsuit. 42 U.S.C. § 2000e-5(e)(l). If the EEOC dismisses the charge, it informs the

!

claimant by certified mail that a civil action may be brought against the employer within 90 days
of receipt of the letter. 42 U.S.C. § 200e-5(f)(l). Like a statute of limitations, compliance with

i

the 90-day time limit is a “condition precedent” to filing suit, and is subject to equitable
modifications. Perkins v.Silverstein, 939 F.2d 463,470 (7* Cir. 1991).

I

1 The lawsuit Plaintiff references in the EEOC Charge is Thompson v. Board of Education, et al, 11 C
1712, pending in the U.S. District Court for the Northern District of Illinois. Plaintiff is not referencing
the instant litigation, which was not filed as of the date Plaintiff was laid off on August 16, 2013.
2

A-275

I

District judges lack authority to extend statutory periods of limitations, including the 90day period codified in 42 U.S.C. § 200e-5(f)(l). Lee v. Cook County, 635 F.3d 969,972 (7th Cir.
2011), see also Ammons v. Cook County, 2012 WL 2368320, * (N.D. Ill. June 20, 2012) (same).
“A statute of limitations confers rights on putative defendants; judges cannot deprive those
persons of entitlements under a statute.” Lee, 635 F.3d at 792. Thus, this Court cannot extend
the 90-day filing requirement for Plaintiff’s Title YII claim.
EL The doctrine of equitable tolling is inapplicable.
Plaintiff’s motion hints that the doctrine of equitable tolling should apply to save his Title
VII claim even if filed past the 90-day limit. A litigant is entitled to equitable tolling if he shows
“(1) that he has been pursuing his rights diligently, and (2) that some extraordinary circumstance
stood in his way” and prevented timely filing. Pace v. DiGuglielmo, 544 U.S. 408, 418 (2005).
In his motion, Plaintiff argues that because the pending motions to dismiss in the instant case
will not he addressed until August 28, 2014, he is prevented from timely filing a Title VII claim
based on the EEOC Charge. This, however, is untrue.
In Illinois, “plaintiffs may join any causes of action, against any defendants.” 735 ILCS
5/2-614(a) (emphasis supplied). The objective of joinder is the economy of actions and trial
convenience.

The determining factors are that the claims arise out of closely related

i

“transactions” and that there is in the case a significant question of law or fact that is common to
l

the parties. City of Nokomis v. Sullivan, 14 111.2d 417, 420 (1958). “[A] court may, in its
discretion, order separate trial of any causes of action. ..if it cannot be conveniently disposed of
with the other issues in the case.” 735 ILCS 5/2-614(b). Joinder of claims against a single
defendant is permissive, not compulsory.

3
!

A-276

There is nothing stopping Plaintiff from filing a separate lawsuit in the U.S. District
Court for the Northern District of Illinois alleging Title VII retaliation based on the EEOC
Charge. In fact, he has already done so on August 18, 2014 (Ex. 1). Plaintiff is simply incorrect
:

in his statement that he “has no choice but to file for leave of court to extend the time to file his
related Title VII count.. ,”2 (PI. Mtn. at 1-2).
There are no extraordinary circumstances preventing Plaintiff from filing his Title VII
claim against the Board. The doctrine of equitable tolling is inapplicable to Plaintiff’s plight.
III.

Prior extension of time granted in Plaintiffs federal litigation is irrelevant.3
Plaintiff argues that he was allowed to file a Title VII claim based on an EEOC Notice of

Right to Sue Letter past the 90-day deadline in his federal litigation, Thompson v. Board of
Education, et al, 11 C 1712, pending in the U.S. District Court for the Northern District of
Illinois. Plaintiff represents that he was able to file a fourth amended complaint in his federal
litigation adding a Title VII retaliation claim past the 90-day deadline following the issuance of a
!

second EEOC Notice of Right to Sue letter. Substantively, he alleged that he was retaliated

j

against for filing his first EEOC charge when he was not granted his teaching preference at
Harlan High School. Thus, his second EEOC charge alleging retaliation was based on the filing

;

of his first EEOC charge alleging discrimination.
The Board did not make a specific objection to the court related to the timeliness of the
amendment based on the 90-day deadline. Likewise, the court did not specifically address the
2 A simple reading of the EEOC Charge makes clear that it is factually unrelated to the claims contained
in Plaintiffs Verified Second Amended Complaint, save the fact that it is against a named defendant.
3 Plaintiffs statement that “there was a previous agreement with Defendant CPS to separate this case
from Plaintiffs current federal case” is a complete misrepresentation. Plaintiffs strategic decisions
regarding filing of his various claims were made by Plaintiff and Defendant Board made no
representations to Plaintiff regarding the viability of any future claims.
4

A-277

issue of filing the retaliation claim past the 90-day deadline. The Board was cognizant of case
law in the Seventh Circuit that states that seemingly untimely retaliation claims relate back to the
!
i

underlying timely EEOC charge alleging discrimination. See Steffen v. Meridian Life Ins. Co.,
859 F.2d 534, 545 n:2 (7th Cir. 1988) (citing cases). Thus, the Board knew that an objection
would likely have been futile.
Discussion of the procedural history of the federal litigation is completely irrelevant, a
red herring, and should be disregarded.
IV.

Plaintiffs Alternative Request to File a Third Amended Complaint should be
denied
As noted above, Plaintiffs entire motion is moot now that he has filed his most recent

federal Complaint. However, not only should Plaintiff not receive an extension of his statute of
limitations, he should not be allowed to file a third amended complaint at this time. j
Parties do not have an absolute right to amend their pleadings and should obtain
pemiission from the court to file proposed amendments. First Robinson Sav. & Loan v. Ledo
Const. Co., Inc., 210 Ill. App. 3d 889, 892 (5th Dist. 1991). Case law requires that Plaintiff “state
the reason for the amendment that is being proposed, show the materiality and propriety of the
proposed amendment, explain why the proposed additional matter was omitted from earlier
pleadings, and be supported by an affidavit.” First Robinson at 892. In this case, other than
Plaintiffs general indication that he wants to include allegations under Title VII, neither the
Court nor any parties know what his proposed amendment entails. As noted above, the alleged
claim is, at best, tangentially connected to this lawsuit, and is not material to this case. In short,
Plaintiff has failed to comply with the requirements for amending pleadings, and his request
j

should be denied
5

A-278

i

Moreover, Plaintiff cannot explain his delay in filing or requesting the amendment. He
acknowledges receiving the Right to Sue letter on May 29, 2014. Since that day, the parties have
• been before this Court and the predecessor court multiple times, but Plaintiff never requested this
i
amendment until the ruling on Defendants’ motions to dismiss was drawing near. He is
i

attempting to avoid this Court ruling on Defendants’ pending motions by waiting until the last
i
!

minute to amend his pleadings. Courts must take into account “the timeliness of the amendment
and whether other parties have been prejudiced or surprised by the proposed amendment.”

I
i

Scentura Creations, Inc. v. Long, 325 Ill'. App. 3d 62, 72 (2d Dist. 2001). The defendants are
being prejudiced here through Plaintiffs lack of timeliness. Plaintiff has already managed to
delay the ruling on the motions to dismiss by asking for a substitution of judge and is now asking
that those motions be delayed even further, if not mooted entirely, by allowing him to file a new
complaint.
If this Court is inclined to giant Plaintiff leave to file a third amended complaint, the
Board Defendants request that it be limited in scope, that he only be allowed to add this new
cause of action, and he not be allowed to change any of the facts or causes of action previously
filed. The Code of Civil Procedure states that amendments are to be allowed “on just and
reasonable terms.” 735 ILCS 5/2-616. If Plaintiff is allowed to file this amendment, it would be
both just and reasonable to limit it so that die Defendants’ motions to dismiss can still be heard
and ruled upon.

6

i
!

A-279

CONCLUSION

;

For the forgoing reasons, Board Defendants respectfully request that the Court deny
Plaintiff’s Amended Motion for Leave of Court to Extend Time to File Title VII Right to Sue
Count or For Leave to File a Third Amended Complaint.
!

Respectfully submitted,
Board Defendants
!

By:
Matthew J.
Board of Education of the City of Chicago
i

!

James L. Bebley, General Counsel
Sunil Kumar, Deputy General Counsel
Matthew J. Walters, Assistant General Counsel
ARDC: 6297891
Board of Education of the City of Chicago, Department of Law
125 S. Clark Street, Suite 700
Chicago, Illinois 60603
(773) 553-1700

i

i

!
I

;

:
7

A-280

IN THE CIRCUIT COURT OF COOK COUNTY, ILLINOIS
COUNTY DEPARTMENT, CHANCERY DIVISION
DR. MARK THOMPSON

)
) .

Plaintiff,

)
)
)
)

v.
BOARD OF EDUCATION OF THE
CITY OF CHICAGO, et al.,

14 CH 15697

)
)
)

Defendants. )
MEMORANDUM AND ORDER
Defendants Dr. Barbara Byrd-Bennett and the Board of Education of the City of Chicago
have filed a Motion to Dismiss.pursuant to 735 ILCS 5/2-619.1.
I. Background
Plaintiff Dr. Mark Thompson was employed as a teacher by Defendant the Board of
Education of the City of Chicago (“Board”). Dr. Barbara Byrd-Bennett is the Chief Executive
Officer of the Board. Plaintiff has filed a Verified Complaint for Declaratory Judgment and
Permanent Injunctive Relief (“Complaint”) alleging that Defendants have convened an Illinois
State Board of Education (“ISBE”) teacher dismissal hearing for improper purposes.
Plaintiff alleges that on September 13. 2012, he was suspended without pay pending an
ISBE dismissal hearing. (Compl. fM). Plaintiff alleges that employees of the Chicago Public
Schools (“CPS”) conspired with a recipient of mental services to have her falsely state that
Plaintiff had assaulted her during private coaching. (Id-.). Plaintiff asserts that this was an effort
to sabotage Plaintiffs pending federal lawsuits against CPS. (Id.).
.- — 0n-August"! 6, 20-1-3, Plaintiff vvas dismissed from his^effiployment for budgetary reasons.
(Id, at ^|19). Plaintiff alleges that Defendants improperly proceededtwith the ISBE hearing to
determine Plaintiffs entitlement to back pay. (Id at fflJ20-21). That hearing has been stayed
indefinitely pending Plaintiffs appeal of the dismissal of his lawsuit seeking the mental health
records of his alleged victim. (Id. at ^28).
Count I of the Complaint asserts a violation of the Equal Protection Clause of the Illinois
Constitution. Count II asserts a claim for abuse of process. Count III seeks a declaration that
Defendants are using the ISBE hearing for an improper purpose. Count IV seeks a permanent
injunction prohibiting Defendants from using the ISBE hearing for improper purposes.

1

A-310

II. Motion to Dismiss
Defendants are moving to dismiss the Complaint pursuant to 735 ILCS 5/2-619.1.
A §2-615 motion to dismiss “challenges the legal sufficiency of the complaint.” Chicago
City Day School v. Wade. 297 Ill. App. 3d 465, 469 (1st Dist. 1998), The relevant inquiry is
whether sufficient facts are contained in the pleadings which, if proved, would entitle a plaintiff
to relief. Id. “Such a motion does not raise affirmative factual defenses but alleges only defects
on the face of the complaint.” Id. “A section 2-615 motion admits as true all well-pleaded facts
and reasonable inferences that can be drawn from those facts, but not conclusions of law or
conclusions of fact unsupported by allegations of specific facts.” Talbert v. Home Savings of
America. 265 Ill. App. 3d 376, 379-80 (1st Dist. 1994). A section 2-615 motion will not be
granted “unless it is clearly apparent that no set of facts can be proved that would entitle the__ _
plaintiff to recovery.” Baird & Warner Res. Sales. Inc, v. Mazzone, 384 Ill. App. 3d 586, 590
(1st Dist. 2008).
A §2-619 motion to dismiss “admits the legal sufficiency of the complaint and affirms all
well-pled facts and their reasonable inferences, but raises defects or other matters either internal
or external from the complaint that would defeat the cause of action;” Cohen v. Compact Powers
Svs.. LLC. 382 Ill. App. 3d 104, 107 (Ist Dist. 2008), A dismissal under §2-619 permits “the
disposal of issues of law or easily proved facts early in the litigation process.” Icf
A. Procedural Matters
Initially, this court notes that its consideration of Defendants’ motion to dismiss is based
solely on the allegations actually set forth in the Complaint. Assertions made by Plaintiff in his
Response which are not pled in the Complaint will not be considered.
Next, to the extent that Plaintiff is asserting that Defendants’ motion is deficient because
it is not verified, a motion to dismiss is not a pleading. There is no requirement that motions be
verified.
......— Finally, Plaintiff suggests that pleading standards should be relaxed because he is
representing himselfpro se, “In Illinois, parties choosing to represent themselves without a
lawyer must comply with the same rules and are held to the same standards as licensed attorneys.
Illinois courts have strictly adhered to this principle, noting a lpro se litigant must comply with
the rules of procedure required of attorneys, and a court will not apply a more lenient standard to
pro se litigants.’” Holzrichter v. Yorath. 2013 IL App (1st) 110287, f78.
B. Count I (Equal Protection)(§2-615)
Count I asserts an equal protection claim. “The equal protection clause requires that the
government treat similarly situated individuals in a similar fashion, unless the government can
demonstrate an appropriate reason to treat them differently.” People v. Masterson, 2011 IL
110072, f25. “An equal protection claim requires a threshold allegation that the plaintiff was
2

A-311

treated differently from similarly situated individuals.” In re C.E.. 406 Ill. App. 3d 97, 112 (1st
Dist. 2010).
Plaintiff alleges that he belongs to a class of “already dismissed” or “former employees.”
(Compl. ^39). Plaintiff fails, however, to allege any facts showing how he has been treated
differently from other “already dismissed” or “former employees.” Illinois is a fact-pleading
jurisdiction. Simpkins v! Csx Transp.. 2012 IL 110662, ^26. “^plaintiff may not rely on
conclusions of law or fact unsupported by specific factual allegations.” hi
In his Response, Plaintiff cites to Geinoskv v. City of Chicago. 675 F.3d 743 (7th Cir.
2012), in which the court acknowledged the possibility of the existence of a “class-of-one.”
However, such a claim can only be maintained if the plaintiff is part of a protected class. Id. at
747-48. Plaintiff does not allege that he is a member of any protected class.
Count I does not state a claim and is dismissed.
C. Count II (Abuse of Process) (§2-615)
Count II asserts a claim for abuse of process against Defendants. Illinois, however, does
not recognize any such claim in the context of administrative proceedings. Kirchner v. Greene.
294 Ill. App. 3d 672, 684 (1st Dist. 1998). Count II is dismissed with prejudice.
D. Count III (Declaratory Judgment)(§2-615)
Defendants contend that Count III, seeking declaratory judgment, fails to state a claim.
“A declaratory judgment action requires (1) a plaintiff with a tangible, legal interest; (2) a
defendant with an opposing interest; and (3) an actual controversy between the parties
concerning such an interest.” Adkins Energy. LLC v. Delta-T Corp.. 347 Ill. App. 3d 373,376
(2d Dist. 2004); 527 S. Clinton. LLC v. Westloop Equities. LLC. 932 N.E.2d 1127, 1137 (1st
Dist. 2010). A complaint that alleges sufficient facts to show an actual controversy between the
parties and prays for a declaration of rights states a cause of action. Alderman Drugs. Inc, v.
Metropolitan Life Ins. Co.. 79 Ill. App. 3d 799, 803 (1st Dist. 1979).
The pleading ofGount III4s contradietory^ and eonfusingflidt is not clear what'Plaintiff
believes constitutes the actual controversy between the parties. Therefore, Count III does not
state a claim.
E. Count IV (Permanent Injunction)(§2-615)
Count IV seeks to permanently enjoin Defendants from “improperly” using the ISBE
hearing. To establish its entitlement to a permanent injunction, Plaintiff must show: (1) it has a
clear and ascertainable legal right in need of protection; (2) the existence of irreparable harm;
and (3) lack of an adequate legal remedy. Kopchar v. City of Chicago, 395 Ill. App. 3d 762, 772
(1st Dist. 2009).

3

A-312

Plaintiff has not alleged any facts showing the existence of irreparable harm in the
absence of a permanent injunction. Nor has Plaintiff alleged any facts showing lack of an
adequate legal remedy. Count IV does not state ai claim.
F. Exhaustion of Remedies (§2-619)
Defendants contend that the entire Complaint should be dismissed because Plaintiff has
failed to exhaust his administrative remedies. Defendants are correct.
A party is required to exhaust its administrative remedies before seeking judicial review.
County of Knox v. The Highlands. LLC, 188 Ill. 2d 546, 551 (19.99). The iSfiE hearing has not
been completed. Plaintiff may not; seek judicial relief prior to the completion of that hearing.
Beahrinser v. Page. 204 Ill. 2d 363. 375 f2Q03T
III. Conclusion
Defendants’ Motion to Dismiss pursuant to §2-619.1 is granted. The status date of March
5, 2015 is stricken.
Enter:

IMTERED

Judge Neil H. Cohen-2021
m 2 S M5
/

Judge Neil H. Cohen

DOROTHY BROWN

CLERK OF THE CIRCUIT COURT
OF COOK COUNTY, II
DEPUTY CLERK

4

A-313

Case: l:14-cv-06340 Document#: 202 Filed: 03/19/18 Page 111 of 148 PagelD #:7147

2016 IL App (1st) 150689-U
FIFTH DIVISION
June 10, 2016
No. 1-15-0689
NOTICE: This order was filed under Supreme Court Rule 23 and may not be cited as precedent
by any party except in the limited circumstances allowed under Rule 23(e)(1).

IN THE APPELLATE COURT
OF ILLINOIS
FIRST JUDICIAL DISTRICT

)
)
)

MARK THOMPSON,
Plaintiff-Appellant,

Appeal from tire
Circuit Court of
Cook County

)
)

v.

)

THE BOARD OF EDUCATION OF THE CITY OF
CHICAGO, and BARBARA BYRD-BENNETT,
Defendants-Appellees.

No. 14 CHI 5697

)
)

)
)
)

Honorable
Neil H. Cohen,
Judge Presiding.

PRESIDING JUSTICE REYES delivered the judgment of the court.
Justices Lampkin and Burke concurred in the judgment.

ORDER

Ill

Held: The circuit court did not err in dismissing the plaintiffs declaratory judgment
action where he failed to exhaust all of his administrative remedies prior to filing
the instant cause of action.

12

Plaintiff Mark Thompson filed a complaint against the Board of Education of the City of

'Chicago and Barbara Byrd-Bennett (defendants) for a declaratory judgment and permanent
injunctive relief in the circuit court of Cook County. Plaintiffs complaint requested the circuit

A-322

Case: l:14-cv-06340 Document#: 202 Filed: 03/19/18 Page 112 of 148 PagelD #:7148

1-15-0689
court dismiss an administrative action brought by the Illinois StateBoard of Education (ISBE) to
terminate his employment as a tenured teacher with Chicago public schools (CPS).1 The circuit
court dismissed plaintiffs action, finding he failed to exhaust his administrative remedies before
the ISBE and failed to state a claim. For the reasons that follow, we affirm.

If 3
1f4

BACKGROUND
On September 29, 2014, plaintiff filed a pro se, four-count complaint seeking a

declaratory judgment and permanent injunctive relief. Plaintiff alleged that on August 16, 2013,
he was dismissed from his position pursuant to section 34-85 of the Illinois School Code (School
Code) (105 ILCS 5/34-85 (West 2012)) for budgetary reasons. According to plaintiff’s
allegations, on December 9, 2013, defendants then proceeded to a dismissal hearing despite
knowing that plaintiff had already been dismissed. Plaintiff alleged that based on this fact,
"[defendants declared the ISBE hearing was no longer a dismissal hearing but rather a hearing
to determine [pjlaintiff s entitlement to hack pay.' " Therefore, plaintiff maintains the ISBE
lacked subject matter jurisdiction over the dismissal hearing and, thus, should be enjoined from
continuing the dismissal proceedings against him.

If 5

In count one, plaintiff asserted that the misuse of the dismissal hearing by defendants was

a violation of the equal protection clause of the Illinois Constitution, hr count two, plaintiff
alleged that the misuse of the dismissal hearing by defendants was an abuse of process. In count
three, plaintiff sought a declaratory'judgment because defendants’ use of the dismissal hearing
was being utilized for another reason other than for its intended purpose. In count four, plaintiff
further sought a permanent injunction enjoining defendants from using die dismissal hearing

The dismissal hearing was stayed as of December 12, 2013, pending a ruling from this
court in a separate but related case. We subsequendy issued an opinion in that matter, Thompson
v. N.J., 2016 IL App (1st) 142918.
2

A-323

Case: l:14-cv-06340 Document #: 202 Filed: 03/19/18 Page 113 of 148 PagelD #:7149
1-15-0689
process for an improper purpose.

U6

On December 12, 2014, defendants fded a motion to dismiss pursuant to section 2-619.1

of the Illinois Code of Civil Procedure (Code) (735ILCS 5/2-619.1 (West 2014)) on the grounds
tlrat plaintiff failed to exhaust his administrative remedies and could not succeed on the merits of
his pleading. On February 25, 2015, after the matter was fully briefed, die circuit court issued a
written order setting forth the basis for dismissing plaintiffs complaint. First, the circuit court
found plaintiff failed to exhaust all of his administrative remedies and, thus, dismissed the
complaint pursuant to section 2-619 of the Code (735 ILCS 5/2-619 (West 2014)).2 Second, die
circuit court determined drat none of the counts contained within the complaint sufficiendy
stated a cause of action and dismissed the complaint pursuant to section 2-615 of the Code (735
ILCS 5/2-615 (West 2014)).3 This appeal was timely fded on March 5, 2015.

17

ANALYSIS
Standard of Revi ew

19

hr this case, the circuit court dismissed plaintiffs complaint pursuant to both sections 2-

615 and 2-619 of the Code (735 ILCS 5/2-615, 2-619 (West 2014)). We, however, nray affirm
on any basis that appears in the record. Gvnthorp v. Golem, 184 Ill. 2d 432, 438 (1998). Under
eidier section 2-615 or 2-619, our review is de novo. Mauvais-Jarvis v. Wong, 2013 IL App (1st)
120070,1 64. De novo consideration means we perform the same analysis that a trial court
would perform. Khan v. EDO Seidman, LLP, 408 Ill. App. 3d 564, 578 (2011)
f 10

Subject Matter Jurisdiction

111

On appeal, plaintiff has withdrawn count two of the complaint which alleged abuse of

2 The circuit court did not specify under which subsection of section 2-619 of tire Code it
relied on when dismissing the complaint.
3 Only count two was dismissed with prejudice.
3

A-324

Case: l:14-cv-06340 Document #: 202 Filed: 03/19/18 Page 114 of 148 PagelD #:7150

1-15-0689
process. Plaintiff now argues that the remaining three counts "were adequately pled, assuming
defendants lack subject matter jurisdiction or statutory authority to convene an ISBE dismissal
hearing or alter its statutory scope against someone they do not employ." Plaintiff maintains that
as of August 16, 2013, he was no longer employed by defendants, but despite that fact
defendants convened a dismissal hearing against him on December 9, 2013. Plaintiff, however,
does not dispute that he was employed by CPS when the dismissal charges were initially filed
and that he had been suspended without pay pending the ISBE dismissal hearing on September
13 2012. We further observe that plaintiff failed to provide this court with the record from the
dismissal hearing. With this in mind, we first turn to examine whether the ISBE had subject
matter jurisdiction over the charges against plaintiff.
If 12

"Subject matter jurisdiction" is a court's power "to hear and determine cases of the

general class to which the proceeding in question belongs." Belleville Toyota, Inc. v. Toyota
Motor Sales, U.S.A., Inc., 199 HI. 2d 325, 334 (2002). "The absence or presence of jurisdiction
is a purely legal question, and our review therefore is de novo." In re Luis R, 239 Ill. 2d 295,
299 (2010). Under the Illinois Constitution of 1970, the circuit courts have original jurisdiction
of all justiciable matters. HI. Const. 1970, art. VI, § 9; Ferris, Thompson & Zweig, Ltd. v.
Esposito, 2015 IL 117443, f[ 15. The legislature, however, "may divest the circuit courts of their
original jurisdiction through a comprehensive statutory administrative scheme, but it must do so
explicitly." Crossroads Ford Truck Sales, Inc. v. Sterling Truck Coip., 2011 IL 111611,

27. In

an administrative proceeding, jurisdiction of the administrative body is conferred by statute. See
Alvarado v. Industrial Comm’n, 216 HI. 2d 547, 553 (2005) (An administrative agency's powers
are limited to those granted by the legislature and any action taken by an agency must be
authorized specifically by statute). "When an agency acts outside its specific statutory authority,

4

A-325

Case: l:14-cv-06340 Document #: 202 Filed: 03/19/18 Page 115 of 148 PagelD #:7151
1-15-0689
it is said to have acted without 'jurisdiction.1 " Ferris, Tiiompson & Zweig, Ltd., 2015 IL
117443, If 16.
13

Plaintiff contends that the circuit court erred when it dismissed his complaint without

considering whether the ISBE had subject matter jurisdiction. In response, defendants assert
plaintiff failed to raise this jurisdictional question in the administrative hearing and improperly
waited to file this suit before raising the issue, hi reply, plaintiff maintains that he may raise the
issue of subject matter jurisdiction at any time.
f 14

Section 34-85 of the School Code grants the ISBE the authority and jurisdiction to

remove a permanently appointed teacher from his or her employment. 105 ILCS 5/34-85 (West
2012). No permanently appointed teacher in the CPS system is to be removed except for cause.
Id. The local board must first approve a motion containing written charges presented by the
general superintendent of schools, and written notice of the approved charges is to be served on
the teacher. Id If requested by the teacher, a hearing is then, to be held before a disinterested
hearing officer paid by the board and selected by the parties from a list furnished by die board.
Id. At the dismissal hearing, the teacher may appear with counsel, cross-examine witnesses, and
present evidence and defenses. Id. Afterward, the hearing officer is to make a final decision on
whether the teacher is to be dismissed. Id. The hearing officer's decision is subject to the
Administrative Review Law (735 ILCS 5/3-301 etseq. (West 2012)). Id
15

We find the ISBE has subject matter jurisdiction. While we agree with plaintiff that

arguments concerning subject matter jurisdiction may be raised at any time (see Fredman
Brothers Furniture Co. v. Department ofRevenue, 109 113. 2d 202, 215 (1985)), we find drat die
remainder of plaintiffs argument is flawed. Plaintiffs argument is essentially that defendants'
failure to sufficiently allege that he is an employee deprives the ISBE of jurisdiction to hear the

5

A-326

Case: l:14-cv-06340 Document #: 202 Filed: 03/19/18 Page 116 of 148 PagelD #:7152
1-15-0689
matter. Our supreme court has previously stated, however, that subject matter jurisdiction does
not depend on the legal sufficiency of a complaint. Dubin v. Personnel Board of City of
Chicago, 128 Dl. 2d 490, 496-97 (1989) (collecting cases). "To hold otherwise would create the
paradoxical situation that a court, by deciding that the allegations in a complaint were
insufficient to state a cause of action, would divest itself of having had jurisdiction to make the
decision that the complaint was insufficient." Jd. At the time the charges against plaintiff were
filed, plaintiff was a tenured teacher employed by CPS. Accordingly, pursuant to section 34-85
of the School Code (105 ILCS 5/34-85 (West 2012)), once plaintiff elected to proceed with a
discharge hearing, the ISBE had subject matter jurisdiction over the matter. See Newkirk v.
Bigard, 109 HI. 2d 28, 36-7 (1985) (finding the mining board had subject matter jurisdiction
where the matter fell within the "general class of cases to which the particular case belongs");
105 ILCS 5/34-85 (a)(2) (West 2012) (no hearing upon the charges unless requested by the
teacher). Therefore, plaintiffs claim that the ISBE lacked subject matter jurisdiction fails.
116

Exhaustion

117

Although plaintiff concedes in his brief that if there is subject matter jurisdiction over

him the complaint must be dismissed, we decline to uphold the dismissal of his complaint solely
on that basis. While we have determined that the ISBE has subject matter jurisdiction over
plaintiff's dismissal hearing, we have yet to determine whether the circuit court's determination
to dismiss plaintiffs complaint was appropriate. In this regard, we find application of the
exhaustion doctrine to be dispositive.
1 18

The doctrine of exhaustion helps establish a proper relationship between the court system

and administrative bodies. Northern Trust Co. v. County ofLake, 353 Ill. App. 3d 268, 276
(2004). The exhaustion doctrine generally provides "that a party that disagrees with an agency's

6

A-327

Case: l:14-cv-06340 Document#: 202 Filed: 03/19/18 Page 117 of 148 PagelD #:7153
1-15-0689
administrative action cannot seekjudicial review, including through actions for injunctive and
declaratory relief, without first pursuing all of the administrative remedies available to him or
her." Gallaherv. Hasbrouk, 2013 IL App (1st) 122969, fj 18. The purpose of the exhaustion
doctrine is to allow administrative bodies to develop a factual record and to permit them to apply
the special expertise they possess. Canel v. Topinka, 212 Ill. 2d 311, 320-21 (2004). Exhaustion
also minimizes interruption of the administrative process. Village of South Elgin v. Waste
Management of Illinois, Inc., 348 Ill. App. 3d 929, 935 (2004). Moreover, the aggrieved party
might succeed before the administrative body, obviating tire need for judicial involvement,
thereby conserving judicial resources. Canel, 212 HI. 2d at 320-21. If a challenging party
alleges that a facially valid statute has been applied in an arbitrary or discriminatory manner,
" 'the rule generally prevails that recourse must be had in the first instance to the appropriate
administrative board.' " Beahringer v. Page, 204 HI. 2d 363, 374 (2003) (quoting Bank ofLyons
v. County of Cook, 13 HI. 2d 493, 495 (1958). It is in this way that the exhaustion doctrine is
similar to the ripeness doctrine, in that it "prevents courts from entangling themselves in abstract
disagreements over administrative policies and protects] the agencies from judicial interference
until an administrative decision has been formalized and its effects felt in a concrete way by the
challenging parties." (Internal quotation marks omitted.) Poindexter v. State, ex rel. Dept, of
Human Sennces, 229 HI. 2d 194, 208-9 (2008). In addition, our supreme court has held that
"where a final agency decision has been rendered and the circuit court may grant the relief which
a party seeks within the context of reviewing that decision, a circuit court has no authority to
entertain independent actions regarding the actions of an administrative agency." Dubin, 128 Ill.
2d at 499. The court reasoned that, "[a]ny other conclusion would enable a party to litigate
separately every alleged error committed by an agency in the course of the administrative

7

A-328

Case: l:14-cv-06340 Document#: 202 Filed: 03/19/18 Page 118 of 148 PagelD #:7154

1-15-0689
proceedings." Id
Tf 19

We conclude plaintiff has not exhausted his administrative remedies. Plaintiffs argument

that his current employment status prohibits defendants from proceeding with the dismissal
charges against him is a matter best left to the ISBE. See id While there is an exception to the
exhaustion doctrine where a party challenges the agency's authority to proceed under a statute or
administrative rule (see Gallaher, 2013 IL App (1st) 122969, *|] 19), as previously discussed, we
find plaintiffs argument in this regard to be without merit as the ISBE has subject matter
jurisdiction over the dismissal charges (see 105 ILCS 5/34-85 (West 2012))..Plaintiffs failure to
exhaust his administrative remedies is an affirmative matter (see Village ofSouth Elgin, 348 Ill.
App. 3d at 934), and we conclude that it was a proper basis for dismissing the complaint with
prejudice pursuant to section 2-619(a)(9) of the Code (735 ILCS 5/2-619(a)(9) (West 2014)).
Accordingly, we affirm the judgment of circuit court dismissing plaintiffs complaint.
CONCLUSION

1120
Tf.21

For the reasons stated, we affirm the judgment of the circuit court.

If 22

Affirmed.

8

A-329

Case: .:14-cv-06340 Document #: 225 Filed: 05/10/18 Page 1 of 10 PagelD #:7365

1
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION

1
2
3

No. 14 C 6340

MARK THOMPSON

4
Plaintiff
5
7

Chicago, Illinois

vs.

6

BOARD OF EDUCATION OF THE CITY OF
CHICAGO, et al.,

8

Defendants.

9

March 23, 2017
9:00 a.m.

TRANSCRIPT OF PROCEEDINGS
BEFORE THE HON. JOHN Z. LEE

10
11
12

APPEARANCES:
For the Plaintiff:

MR. MARK THOMPSON, Pro Se

13
14
15
16
17

For Defendant Chicago
Board of Education:

MS. KATHLEEN M. GIBBONS
MS. SARAH K. QUINN
Chicago Board of Education,
Law Department,
One North Dearborn Street, Suite 900
Chicago, II1inois 60602

18
19
20
21
22
23
24
25

PATRICK J. MULLEN
Official Court Reporter
United States District Court
219 South Dearborn Street, Room 1412
Chicago, Illinois 60604

A-330

Case: .:14-cv-06340 Document #: 225 Filed: 05/10/18 Page 2 of 10 PagelD #:7366
2

THE CLERK:

1
2

Education of the City of Chicago.
NS. QUINN:

3
4

Good morning, Your Honor.

Sarah Quinn and

Kathleen Gibbons on behalf of the Board of Education.
THE PLAINTIFF:

5
6

14 C 6340, Thompson versus Board of

Good morning, Your Honor.

Nark

Thompson, plaintiff.
THE COURT:

7

Good morning.

So plaintiff has filed a

8

motion for leave to file a second amended complaint.

9

parties have submitted their briefs.

The

I reviewed the briefs,

10

and I'll go ahead and state my ruling with regard to the motion

11

today on the record.

12

As the parties know, whether to grant leave to amend

13

is a discretionary matter.

14

that leave to amend should be freely granted when justice so

15

requires.

16

clear that district courts have broad discretion to deny leave

17

to amend where there is undue delay, bad faith, dilatory

18

motive, repeated failure to cure deficiencies, undue prejudice,

19

or where the amendment would be futile.

20

principles in mind in reviewing plaintiff's motion.

21
22
23

On the one hand, Rule 15(a) says

On the other hand, the Seventh Circuit has made

I have kept these

First, there are a number of counts, so I'm just going

to go through all of them.

Okay?

Counts 6 through 12 of the proposed second amended

24

complaint contain amended versions of Counts 6 through 11 from

25

the first amended complaint.

I'll start with those proposed

A-331

Case: _:14-cv-06340 Document #: 225 Filed: 05/10/18 Page 3 of 10 PagelD #:7367
3

1

amendments first.

2

claim for negligent infliction of emotional distress.

3

of the proposed complaint has been amended to bring a claim for

4

intentional infliction of emotional distress.

5

not opposed this motion and so, therefore, plaintiff's motion

6

for leave to amend is granted as to Count 6.

In Count 6, plaintiff previously brought a

7

THE PLAINTIFF:

8

THE COURT:

9

Count 6

Defendants have

Thank you.

In Count 7, plaintiff previously brought a

claim for negligent supervision.

The claim was based on the

10

board's failure to prevent defendants Krieger and Evans from

11

giving false information regarding plaintiff's employment

12

rating as being, quote-unquote, unsatisfactory.

13

In a prior order, I dismissed this claim as being

14

precluded by plaintiff's 2011 federal case.

15

because the claim was based on plaintiff's rating as being

16

unsatisfactory there was no reason why he could not have

17

included the claim in the 2011 case which also involved claims

18

based on this rating.

19

I explained that

In the proposed second amended complaint, plaintiff

20

has repled Count 7 to specify that defendant Krieger falsified

21

information, quote, in January 2013 to enable the board to

22

terminate his employment in August 2013, end quote.

23

in my prior order, the operative complaint in the 2011 case was

24

filed on May 6th, 2013.

25

allegations for Count 7 state that Krieger falsified

As noted

Because the proposed amended

A-332

Case .:14-cv-06340 Document #: 225 Filed: 05/10/18 Page 4 of 10 PagelD #:7368
4

1

information back in January 2013, it still appears to the Court

2

that plaintiff could have brought this claim in the 2011 case.

3

As such, the amended allegations do not provide a reason for me

4

to alter my prior ruling that this claim is precluded by the

5

2011 case and, therefore, it would be futile to amend Count 7

6

in the manner proposed,

7

leave to amend Count 7 is denied.
In Count 8, plaintiff previously brought a claim for

8

9

Therefore, plaintiff's motion for

violation of the Illinois Personnel Records Review Act.

I

10

previously dismissed part of that claim because plaintiff had

11

not alleged that he provided the board with a copy of the

12

notice he received from the Department of Children and Family

13

Services.

14

allegations regarding notice.

15

objected to the amendment of Count 8.

16

plaintiff's motion for leave to amend Count 8 is granted.

17

In the proposed complaint, Count 8 now includes
Furthermore, defendants have not
For these reasons,

Turning now to Counts 9, 10, and 11, plaintiff

18

previously brought claims under 42 U.S.C. 1985 and 1986 for

19

conspiracy to violate civil rights.

20

claims as failing to state a claim for relief because they did

21

not include allegations of cl ass-based animus.

22

10, and 11 of the proposed complaint, however, plaintiff has

23

included such allegations.

24

leave to amend with regard to Counts 9, 10, and 11 of the

25

proposed second amended complaint is granted.

Earlier I dismissed those

In Counts 9,

Accordingly, plaintiff's motion for

A-333

Case: .:14-cv-06340 Document #: 225 Filed: 05/10/18 Page 5 of 10 PagelD #:7369
■4

5

1

In Count 12, plaintiff repleads an equal protection

2

claim.

3

include allegations that defendants treated plaintiff

4

differently from any other individuals.

5

amend this count to include such allegations.

6

plaintiff's motion for leave to amend Count 12 is granted as

7

well.

8
9

I previously dismissed this claim because it did not

Plaintiff proposed to
Accordingly,

Now, that takes care of the proposed amendments to
claims that plaintiff has previously alleged in his first

10

amended complaint.

11

some of those amendments on grounds of preclusion and failure

12

to exhaust administrative remedies, and I know that defendants

13

have also objected on similar grounds to some claims in Counts

14

1 through 5 which plaintiff did not seek to amend.

15

those objections speak to merits issues that are more properly

16

addressed on a motion to dismiss, and I'll entertain those

17

arguments at that time.

18

it files its dispositive motions and its responsive pleading.

19

I know that defendants have objected to

In my view,

Defendants are free to raise them when

In addition to the claims I've just discussed,

20

plaintiff's proposed second amended complaint brings 11 new

21

claims in Counts 13 through 23.

22

below.

23

against the board as well as a procedural due process claim

24

against two of the defendants, Niel sen and Claypool.

25

Defendants have not opposed the addition of those claims, so

I'll just discuss them briefly

So first Counts 13 and 14 bring a new Title VII claim

A-334

Case: .:14-cv-06340 Document #: 225 Filed: 05/10/18 Page 6 of 10 PagelD #:7370
6

1

plaintiff's motion for leave to amend is granted as to Counts

2

13 and 14.

Next, Counts 15 through 18 allege that various

3
4

defendants exceeded the statutory authority in taking certain

5

actions.

6

conduct independent investigations of unfounded DCFS reports of

7

sexual abuse of minors under the Illinois Abused and Neglected

8

Child Report Act.

9

conduct backpay hearings under 105 Illinois Compiled Statutes

Counts 15 and 16 challenge defendants' authority to

Count 17 challenges defendants' authority to

10

5/34-85.

11

an investigation upon opening plaintiff's e-mail without his

12

permission under 18 U.S.C. 1701, 1702, and 1708.

13

seeks declaratory and injunctive relief as to each of those

14

claims.

15

Count 18 challenges defendants' authority to initiate
Plaintiff

Defendants, for their part, argue that these claims

16

fail to state a cognizable cause of action.

Having reviewed

17

those claims and having considered the parties' submissions, I

18

conclude the defendants are correct in that regard.

19

Counts 15 and 16, plaintiff has not cited nor have I been able

20

to find any authority indicating the Child Report Act provides

21

a private cause of action or that it places any limits at all

22

on defendants' authority to conduct independent investigations.

As to

23

As to Count 17, plaintiff again has not cited and I

24

have not been able to find any authority indicating that 105

25

Illinois Compiled Statutes 5/34-85 provides a private cause of

A-335

Case: .:14-cv-06340 Document#: 225 Filed: 05/10/18 Page 7 of 10 PagelD #:7371

7

.■i

%•

1

action or, again, that it places any limits at all on

2

defendants' authority to conduct backpay hearings.

3

Plaintiff also has not stated a cognizable cause of

4

action in Count 18.

5

federal criminal penalties.

6

causes of action in civil litigation.

7

18 U.S.C. 1701, 1702, and 1708 impose
They do not give rise to private

For those reasons, because Counts 15 through 18 do not

8

state cognizable causes of action, their inclusion in a second

9

amended complaint would be futile.

Therefore, plaintiff's

10

motion for leave to amend is denied as to Counts 15 through 18.

11

Finally, Counts 19 through 23 bring various additional

12

claims and name several additional defendants, including

13

defendants Brown, Sul1ivan, Claypool, Wi1ke,

14

Doe, and Lakeshore University Health Systems.

15

response to plaintiff's motion, defendants have objected to the

16

addition of these claims on grounds of preclusion as well as

17

failure to exhaust administrative remedies.

18

of arguments speak to merit issues that are more properly

19

raised on a motion to dismiss.

20

to amend is granted as to Counts 19 through 23.

21

, a Jane

In their

Again, those kinds

Therefore, plaintiff's motion

In summary, plaintiff's motion for leave to file a

22

second amended complaint is granted in part and denied in part.

23

The motion is granted as to Counts 1 through 6, Counts 8

24

through 14, and Counts 19 through 23 of the proposed second

25

amended complaint.

The motion is denied as to Count 7 and

A-336

Case: „:14-cv-06340 Document #: 225 Filed: 05/10/18 Page 8 of 10 PagelD #:7372

8
V

1

Counts 15 through 18.
All right.

2

So where does this leave us? This leaves

3

us, Mr. Thompson, with the fact that you have added additional

4

defendants as part of those counts, and so you need to

5

effectuate service with regard to those defendants.

6

THE PLAINTIFF:

7

THE COURT:

8
9

Yes.

How much time do you need to effectuate

service?
THE PLAINTIFF:

It depends on if you can allow me to

10

use the U.S. Marshal.

11

going to be very difficult to serve.

12

evade --or evaded service last time.

13

to use the U.S. Marshal on those.

14

difficult, if that's possible.

15

soon as possible.

16

There's a couple of individuals that are
One of them tried to
At my expense, I'd like

I think they’re going to be

But I can do it, you know, as

I can get, you know, the ball rolling.

THE COURT:

All right.

So with regard to the new

17

defendants, I do not think that it's proper or appropriate,

18

even if you bear the cost of having the U.S. Marshal try to

19

serve the complaint upon the newly named defendants.

20

not really their job.

21

their authority.

That's kind of outside the purview of

22

THE PLAINTIFF:

23

THE COURT:

24
25

That's

I understand.

Given that, how much time do you need to

effectuate service? I want this done sooner rather than later.
THE PLAINTIFF:

Me too, Your Honor.

A-337

Case: .:14-cv-06340 Document #: 225 Filed: 05/10/18 Page 9 of 10 PagelD #:7373

9
1
2

You're the one who wants to add these

THE COURT:
defendants.

3

THE PLAINTIFF:

4

THE COURT:

Yeah.

I don't know.

A11 right.

That's fine.

45 days?
So I want al 1 of

5

the newly named defendants served no later than the end of

6

Apri1, Apri1 28th.

Okay?

7

THE PLAINTIFF:

8

THE COURT:

9
10

Okay.

So after that, would 21 days be sufficient

after that for an answer or responsive pleading?
MS. GIBBONS:

Your Honor, we actually have a huge

11

response in another case that's going to be due.

12

28 days then to give us an extra week to get past that?

13

THE COURT:

14

MS. GIBBONS:

15

THE COURT:

That's fine.

Could we do

So that would be May 26th?

Yeah.
So the defendants' answer or responsive

16

pleading will be due by May 26th.

17

the new defendants are served before that time, that will be

18

the answer date for them as wel 1.

19
20

To the extent that any of

Then, Mr. Thompson, would four weeks beyond that be
sufficient for a response?

21

THE PLAINTIFF:

22

THE COURT:

Oh, definitely.

So that would be June 23rd, and then 14

23

days for the reply which bring us to July 7th.

Actually, I'll

24

give you until the 10th, given the fact that we have July 4th

25

in there, for the reply.

Then once everything is filed, I'll

A-338

Case: 1 :14-cv-06340 Document #: 225 Filed: 05/10/18 Page 10 of 10 PagelD #:7374

10

'i

*

1
2

take a look at the motions.
Again, in light of the preclusion issues, discovery is
So let's go ahead and set

3

stayed until I resolve those issues,

4

this case for a further status.

5

sooner rather than later, so let's set it for the week of

6

August 28th.

7

THE CLERK:

8

THE PLAINTIFF:

9

THE CLERK:

You know, I want to do this

August 29th at 9:00 o'clock.
What day is that on?

Tuesday.

10

THE PLAINTIFF:

11

THE COURT:

Okay.

Nr. Thompson, i f for some reason you

12

cannot serve the newly named defendants by the deadline that I

13

gave you, you can move for additional time for service;

14

although at this point, given where we are, if those defendants

15

aren't served by that date and there's no motion filed to

16

extend that date, I'm going to dismiss them without prejudice.

17

Okay.

18

NS. QUINN:

19

THE PLAINTIFF:

20

Thank you.
Thank you, Your Honor.
Thank you, Your Honor.

(Proceedings concluded.)

21

CERTIFICATE

22

I, Patrick J. Nullen, do hereby certify that the
foregoing is a complete, true, and accurate transcript of the
proceedings had in the above-entitled case before the Honorable
JOHN Z. LEE, one of the iudges of said Court, at Chicago,
Illinois, on Narch 23, 2

23
24
25

/s/ Patrick J. Mullen

Official Court Reporter

A-339

